<html>
<title> - SESQUICENTENNIAL OF THE AMERICAN CIVIL WAR; TRIBUTES TO AMERICA'S VETERANS; SITES HONORING PRESIDENTS; LANDS IN EVERGLADES NATIONAL PARK; EL CAMINO REAL DE LOS TEJAS; AND HYDROELECTRIC POWER OF THE TAPOCO PROJECT</title>
<body><pre>[Senate Hearing 108-600]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-600

   SESQUICENTENNIAL OF THE AMERICAN CIVIL WAR; TRIBUTES TO AMERICA'S 
VETERANS; SITES HONORING PRESIDENTS; LANDS IN EVERGLADES NATIONAL PARK; 
  EL CAMINO REAL DE LOS TEJAS; AND HYDROELECTRIC POWER OF THE TAPOCO 
                                PROJECT

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on


                           S. 1064                               S. 2046

                           S. 1092                               S. 2052

                           S. 1748                               S. 2319



                               __________

                             APRIL 27, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-992                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     CRAIG THOMAS, Wyoming Chairman
                  DON NICKLES, Oklahoma Vice Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Carolina
CONRAD BURNS, Montana                BOB GRAHAM, Florida
GORDON SMITH, Oregon                 MARY L. LANDRIEU, Louisiana
JON KYL, Arizona                     EVAN BAYH, Indiana
                                     CHARLES E. SCHUMER, New York

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     3
Alexander, Hon. Lamar, U.S. Senator from Tennessee...............    26
Breaux Hon. John B., U.S. Senator from Louisiana.................     2
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     6
Copeland, Kathy, Director of Policy and Legislation, South 
  Florida Water Management District, West Palm Beach, FL.........    46
DeWine, Hon. Mike, U.S. Senator from Ohio........................    31
Graham, Hon. Bob, U.S. Senator from Florida......................    29
Hoffman, Paul, Deputy Assistant Secretary, Fish and Wildlife and 
  Parks, Department of the Interior..............................     8
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas..............     4
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     7
Moe, Richard, President, National Trust for Historic Preservation    38
Nau, John L., III, Chairman, Texas Historical Commission; 
  Chairman, Advisory Council on Historic Preservation, Houston, 
  TX.............................................................    50
Overbey, Randall M., President, Primary Metals Development for 
  Alcoa, Knoxville, TN...........................................    42
Phillips, Faye, Associate Dean of Libraries, Louisiana State 
  University, Baton Rouge, LA....................................    48
Robinson, J. Mark, Director, Office of Energy Projects, Federal 
  Energy Regulatory Commission...................................    22
Rooney, Brian, President, Remembering Veterans Who Earned Their 
  Stripes, Northridge, CA........................................    32
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    53

                              Appendix II

Additional material submitted for the record.....................    65

 
   SESQUICENTENNIAL OF THE AMERICAN CIVIL WAR; TRIBUTES TO AMERICA'S 
VETERANS; SITES HONORING PRESIDENTS; LANDS IN EVERGLADES NATIONAL PARK; 
                   EL CAMINO REAL DE LOS TEJAS; AND 
               HYDROELECTRIC POWER OF THE TAPOCO PROJECT

                              ----------                              


                        TUESDAY, APRIL 27, 2004

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. We will go ahead and get the committee 
going. Thank you all for being here.
    Senator Breaux, I hope this will not be quite as long as 
our 2\1/2\ hour meeting this morning. But in any event, I do 
want to welcome you.
    I welcome the representatives from the Park Service and the 
Federal Energy Regulatory Commission and other witnesses to the 
National Parks Subcommittee.
    We have six bills that we are talking about today: S. 1064, 
a bill to establish a commission to commemorate the 
sesquicentennial of the American Civil War; S. 1092, a bill to 
authorize the establishment of a national data base for the 
purpose of identifying, locating, and cataloguing the many 
memorials and permanent tributes to American veterans; S. 1748, 
a bill to establish a program to award grants to improve and 
maintain sites honoring the Presidents of the United States; S. 
2046, a bill to authorize the exchange of certain lands in 
Everglades Park; S. 2052, a bill to amend the Trails System Act 
to designate the El Camino Real Trail as a National Historic 
Trail; and S. 2319, a bill to authorize and facilitate the 
hydroelectric power licensing of the Tapoco Project. And I 
guess that is it.
    So welcome to all of you. Senator, we are glad to have you, 
sir.

        STATEMENT OF HON. JOHN B. BREAUX, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Breaux. Thank you very much, Mr. Chairman and 
Senator Akaka and Senator Campbell, for being here this 
afternoon.
    Arguably there is no more important event in the history of 
the United States than the consequences and the conduct of the 
Civil War almost 150 years ago. I introduced legislation back 
in 1995 that was a joint resolution that basically named the 
United States Civil War Center at Louisiana State University 
and the Civil War Institute at Gettysburg College as the 
flagship institutions in the United States for planning of the 
sesquicentennial celebration and commemoration of the Civil 
War. And since that time, Members of Congress from Virginia 
have included Pamplin Historical Park and the Virginia Center 
for Civil War Studies at Virginia Tech also to be included in 
these institutions that are the flagship institutions with 
regard to studying the Civil War.
    Now let us fast forward to where we are today. I introduced 
the bill, S. 1064, in May of last year, and this bill 
establishes a commission to commemorate the 150th anniversary 
of the Civil War. There are a number of cosponsors of that 
legislation. It is bipartisan. Senator Landrieu, Senator 
Specter, Senator Santorum, Senator Warner, and Senator Allen 
all are co-sponsors of this legislation.
    Basically the point of creating a commission is to ensure 
that there is a suitable national observance and it encourages 
really a true interdisciplinary examination of the Civil War. 
The commission would have the role to ensure that what we do is 
done properly.
    It is an authorization of $500,000, which in today's world 
is not a lot of money at all, but it is important to have this 
commission to supervise how we commemorate the 150th year 
anniversary of the Civil War.
    It is more than just studying the battles. It is more than 
just counting how many men and women fought and how many men 
and women were killed and died. It is really looking at the 
Civil War in the totality of what occurred, why it happened, 
what caused it to happen, in addition, what were the social 
consequences of that great event in our Nation's history. What 
did we learn from it? All of these things are incredibly 
important if we are going to study and commemorate the 150-year 
anniversary of that important event.
    You are going to be hearing from Ms. Faye Phillips who is 
associate dean of libraries at Louisiana State University. 
Because the United States Civil War Center is a special 
collection within the libraries there, all of these people 
report to her. She has provided research for over 30 years to 
Civil War scholars and students and the general public. She is 
truly an expert in this area, and I think she will be very 
beneficial to the committee.
    She has also been the archivist for many of our 
colleagues--Senator Russell Long, Senator Mack Mathias, Senator 
Eagleton, Senator Gary Hart--and will be doing the same thing 
for me as we try to figure out what to do with all of the 
material that we collect over our congressional careers. But I 
think her statements are of great value.
    I just wanted to come by and make a couple of comments 
about her to the committee and hope that we could push this 
legislation and bring it to the full Senate. Thank you.
    [The prepared statement of Senator Breaux follows:]

        Prepared Statement of Hon. John B. Breaux, U.S. Senator 
                             From Louisiana

    In just a few years, our nation will celebrate the sesquicentennial 
of the American Civil War. This 150th anniversary formally begins on 
April 11, 2011, a day that will forever mark one of the greatest tests 
of our unity as a people. The Civil War was a defining experience in 
the development of the United States. While we cannot help but 
acknowledge our struggle with issues arising from the Civil War and the 
subsequent Reconstruction, we can learn from our shared heritage.
    As we approach the sesquicentennial of the Civil War, we have a 
unique opportunity to recall the Civil War, and its legacy in a spirit 
of reconciliation and reflection. The years 2011-2015 will mark the 
150th anniversary of the Civil War, a war in which more Americans lost 
their lives than in any other conflict in American history. Claiming 
almost 700,000 Americans, the Civil War tore our nation apart along an 
ideological seam. Fathers and sons, brothers and relatives met in 
combat on the fields of the American frontier to fight for the most 
basic of all human rights--freedom.
    In 1996, Congress designated the United States Civil War Center at 
Louisiana State University and the Civil War Institute at Gettysburg 
College as co-facilitators of the sesquicentennial commemoration of the 
Civil War. In addition, in 2002 the Pamplin Historical Park and the 
Virginia Center for Civil War Studies joined in these efforts to plan 
the commemoration. These four institutions will be at the forefront of 
a series of programs and activities related to the observance of the 
sesquicentennial of the Civil War.
    As part of the Commission, these institutions will receive funds to 
promote the lessons of the war from the perspective of all professions, 
occupations, and academic disciplines. The institutions will also 
create grant programs to conduct commemorative activities, establish a 
National Student Essay Award and publish information packets and 
calendars.
    At the conclusion of the Civil War, President Abraham Lincoln said, 
``Let us therefore study the incidents of this, as philosophy to learn 
wisdom from.'' The upcoming anniversary, and this legislation, can help 
to realize President Lincoln's vision.

    Senator Thomas. Thank you very much, Senator. We appreciate 
your taking time to be with us.
    Senator Akaka, any opening statement?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I thank 
you for holding this hearing.
    Two of the bills on today's agenda involve land exchanges 
at national parks, one at Everglades, and the other at Great 
Smoky Mountains National Park. While I generally prefer not to 
remove land from national park status--even if exchanged for 
other land--I believe that these two bills merit our support.
    It has been almost 15 years since this committee approved 
Senator Graham's bill to expand the park's boundary to include 
110,000 acres in the East Everglades in an effort to restore 
the natural water flow patterns into the park. Subsequently, 
Congress approved a multi-billion Everglades restoration 
program in the Water Resources Development Act of 2000. Because 
the proposed exchange will allow for the completion of one of 
these significant restoration projects, this exchange will 
benefit the park.
    Likewise, it seems to me that the proposed exchange at 
Great Smoky Mountains National Park is one that will also 
benefit the park. In this case, a hydroelectric project has 
inundated a few tributaries that are inside the park boundary 
for over 50 years. Without this bill, the Federal Energy 
Regulatory Commission will be precluded from relicensing the 
project. There is no way to lower the water level without 
completely eliminating the reservoir. The proposed exchange 
will provide for a new increase of park acreage and protect 
significant wildlife habitat, while ensuring that an important 
source of electricity and recreation is not disrupted.
    I would like to commend Senator Graham and Senator 
Alexander for their work on these bills.
    Mr. Chairman, I would like to welcome the witnesses to the 
subcommittee. I look forward to hearing their testimony and 
learning more about all of these bills. Thank you very much.
    Senator Thomas. Thank you, sir.
    Senator Hutchison, welcome. Glad to have you here. Just go 
right ahead please.

STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman. I do have 
with me today--and I think he is going to also make a 
statement--the chairman of our Texas Historical Commission, who 
will also speak in favor of S. 2052, the El Camino Real de los 
Tejas National Historic Trail Act.
    Mr. Chairman, I have been working with the people in my 
State for probably 3 years now to try to make sure that if we 
do establish this trail, that we do so in a way that provides 
protection for our private property owners and gives the State 
Historical Commission also a chance to participate. And that is 
exactly what the bill does. I am pleased because I think this 
is the way that we should pursue historic trails.
    This will preserve a storied piece of Texas ancestry for 
generations to come. The El Camino Real was a corridor of 
trails used by settlers, immigrants, Indians, and the military. 
It served as a path for Texas heroes such as Davy Crockett and 
Sam Houston who fought in the struggle for Texas independence.
    The 300-year-old corridor provided a critical trade route, 
a post road, a cattle trail, and military highway. It opened 
the Americas to Texas and Texas to the world. It extends 2,600 
miles from the Rio Grande River near Eagle Pass and Laredo 
through San Antonio, Bastrop, and Nacogdoches to Natchitoches, 
Louisiana. 2500 miles of the trails wind across 40 Texas 
counties, and the last 80 miles are in Louisiana.
    The El Camino Real served as a strategic corridor during 
the Texas struggle for independence from Mexico. Supplies made 
their way along the trail for the Republic of Texas army as it 
forged ahead to victory.
    The opt in/opt out provision protects private property 
owners along the trail. I think it is critical that we respect 
private property rights while we also preserve historic 
significance on major trails such as the El Camino Real. This 
bill will allow our State agencies, such as the Texas 
Historical Commission, to participate in the establishment and 
designation of the trail.
    My bill allows the people of Texas and visitors to 
understand how the trail helped to shape the development of 
Texas. It is not just a highway with a historical significance, 
it is a road that has been the foundation of an inspirational 
past.
    I am proud to offer this legislation and I hope very much, 
after you hear from my friend, John Nau, the chairman of our 
Texas Historical Commission, that you will give us a markup as 
soon as possible because I believe if we can pass this bill and 
get it over to the House, it will be a Senate bill and it will 
be, I think, a model bill for future historic trail 
designations.
    Thank you, Mr. Chairman.
    Senator Thomas. If we have questions, we can talk with Mr. 
Nau later. Is that right?
    Senator Hutchison. Yes. I am happy to take a question.
    Senator Thomas. But he is going to talk on that subject.
    Senator Hutchison. He will give it from the State 
perspective, absolutely.
    Senator Thomas. Super.
    Senator Hutchison. I want to acknowledge also my friend, 
the Senator from Louisiana, who has been pushing this trail for 
a long time, and I think that we have now gotten to the point 
where it really will be a model bill and one that will preserve 
traditions of Louisiana, as well as Texas.
    Senator Thomas. You sort of share this. You have 250 miles 
and she has 8.
    Senator Hutchison. That is right.
    Senator Landrieu. But we have a very important 8.
    [Laughter.]
    Senator Hutchison. Eighty. You have 80.
    Senator Landrieu. It is a very important 80. I cosponsor 
the legislation and I also want to add my support for it, Mr. 
Chairman.
    Senator Thomas. Great.
    Senator.
    Senator Campbell. Well, thank you. I have a statement on S. 
1092 I would like to give, but before Senator Hutchison 
leaves--I do not know if I will be here when Mr. Nau testifies 
or not.
    I grew up in California, and of course, there is an El 
Camino Real in California started by Father Junipero Serra, I 
think in the 1700's. It went from Mexico City all the way up 
through clear to San Francisco, and there are about 10 missions 
in fact along the California coast that are all along the old 
El Camino Real. I did not even know until today there was 
another El Camino Real, the one you are talking about, the 
King's Highway.
    But I was wondering, when I was reading the bill, if there 
would be some confusion between the two if we have two 
nationally designated places that are El Camino Reals.
    Senator Hutchison. Frankly, I did not know that there was a 
California one. This one is very well established in Texas and 
that is the name of it.
    Senator Campbell. Well, I support it.
    Senator Hutchison. This is de los Tejas. It is El Camino 
Real de los Tejas, so it is a Texas designation. Maybe that 
would make the difference.
    Senator Campbell. I guess so. Everybody will have to speak 
Spanish to understand it. OK. I support the bill. I just 
wondered if there would be some confusion or not.
    Senator Hutchison. Maybe the de los Tejas was added because 
of that by the people who put it together.
    Senator Campbell. Perhaps so. Thank you.
    Senator Hutchison. But there is nothing else that we could 
possibly name it. It is such an important part of our history. 
And it did connect actually Nacogdoches, where my mother grew 
up, and Natchitoches, Louisiana where so many people came from 
in the early days of the Texas independence. They were sister 
cities.
    Senator Campbell. Is that near Senator Landrieu's home 
town?
    Senator Landrieu. Not my home town, but it is a very 
special area because it is the Cane River heritage. If you all 
saw Steel Magnolias, it is where it was filmed, so you have 
some visual of that. But it is a magnificently historical area. 
In fact, it may be the oldest settlement in the Louisiana 
Purchase, even older than--am I right, historians? Thank you. 
It is older than New Orleans. I think it was the capital of 
Texas, Kay, at one point.
    Senator Hutchison. Well, Nacogdoches is the oldest town in 
Texas.
    Senator Campbell. Well, Mr. Chairman, with Senator 
Hutchison supporting it and Senator Landrieu on the other end 
of the trail, I guess it is going to pass.
    Senator Landrieu. Well, I do not know if we want to switch 
our capital cities, but we were happy to host the capital of 
Texas, at least for a short time.
    Senator Hutchison. The legend is that there were two Indian 
brothers, Natchitoches and Nacogdoches. That is legend, 
obviously. But Nacogdoches is designated as the oldest city in 
Texas and it was the home of Sam Houston and Thomas Rusk whose 
seat I hold in the Senate.
    Senator Campbell. The chairman says he knew that, but I did 
not know that.
    [Laughter.]
    Senator Hutchison. Thank you.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Thank you. Mr. Chairman, may I speak just 
for a moment on S. 1092, my bill?
    It would authorize the establishment of a national data 
base to locate and catalogue the many memorials and permanent 
tributes to American veterans. There are thousands of public 
memorials and tributes to veterans in communities throughout 
the country, Mr. Chairman, but they have never been 
comprehensively catalogued. Right now an individual can go on 
line and access a network of all the railway main lines, 
railroad yards major sitings, or if you want to search all the 
scenic byways, you can easily access a data base for the 
National Park System or the Federal Highway Administration. So 
there are many things now that are catalogued to remind us of 
those historic important places, but it seems to me that we 
need some kind of a national comprehensive cataloguing of 
veterans memorials too. Certainly they are at least as 
important as the lighthouses and railroad sitings, so many 
things that we already do catalogue. But there is no central 
information of structures commemorating an individual or group 
in the armed forces available to the public.
    Under the legislation that I have introduced and we are 
considering, this data base would be established by the 
Department of the Interior with the assistance of other 
agencies, non-profits, tribal governments, and any other 
entities that the Secretary of the Interior would deem 
appropriate. Since the Department of the Interior already 
maintains several data bases, I do not think it would be 
difficult to expand that because they already have a proven 
capability to maintain a catalogue of different data bases.
    The Secretary would also have to report back to Congress 3 
years after enactment to assess the feasibility of establishing 
a permanent fund to repair, maintain, and restore the memorials 
that need help.
    Several years ago, Congress passed a law which expressed 
the need for cataloguing and maintaining these public veterans 
memorials when similar legislation was reported favorably out 
of the House Committee on Resources last Congress. The CBO 
estimated it would not have a significant impact on the budget 
of State, local, or tribal governments and would not preempt 
their laws. A first step in making sure that the sites and 
structures honoring the veterans are properly maintained is 
also making sure that we know where each of them are.
    As a veteran myself, I think this is a very important bill, 
a bill that is going to be rather low cost to get it off the 
ground, and I look forward to hearing the testimony on it and 
hope for its passage.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you, Senator. I hope you can stay 
around as long as you can.
    Senator Landrieu.

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. Thank you, Mr. Chairman. Unfortunately, I 
have another meeting. I am going to have to slip out.
    But I just wanted to recognize the distinguished guest here 
from Louisiana State University in particular, Mrs. Faye 
Phillips, the associate dean of the libraries for special 
collections. She has had a long and wonderful relationship with 
the Senate and with Senator Russell Long and now will be 
helping Senator John Breaux with his archives and is 
particularly suited to help us lead this effort by at least 
representing our university, along with another partner we 
have, the Gettysburg College in Pennsylvania, as the official 
institutes responsible for facilitating and planning the 150th 
anniversary or commemoration of the Civil War, which will take 
place in a few years. So I just wanted to be here to welcome 
you, Faye, and to support the bill that Senator Breaux has 
brought before our committee.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you very much for coming.
    Why do we not go ahead now with our first panel: Deputy 
Assistant Secretary, Fish, Wildlife and Parks, Paul Hoffman, 
the Department of the Interior; Mr. Mark Robinson, Director, 
Office of Energy Projects, Federal Energy Regulatory 
Commission. Gentlemen, welcome. Glad to have you here.
    Mr. Secretary, it is very nice to have you. I am always a 
little prejudice toward a Wyoming background, as you know.

          STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT 
   SECRETARY, FISH AND WILDLIFE AND PARKS, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Hoffman. Thank you, Mr. Chairman. I always appreciate 
that prejudice for Wyoming. Thank you, members of the 
committee.
    My name is Paul Hoffman. I am the Deputy Assistant 
Secretary for Fish, Wildlife and Parks over at the Department 
of the Interior, and it is my privilege to be able to testify 
here today before you on these six bills before your committee.
    If you have got your pens and pencils out, I will give you 
a brief scorecard summary, and then I would like to give some 
brief comments on each bill.
    S. 1064, the Civil War sesquicentennial commission bill, we 
support with some amendments.
    S. 1092, the national data base of memorials, monuments, 
and markers, we oppose.
    S. 1748, National Park Service management of sites honoring 
past Presidents of the United States, we oppose.
    S. 2046, the Everglades land exchange, we support with 
amendments.
    S. 2052, El Camino Real de los Tejas trail designation, we 
support with technical amendments.
    S. 2319, the Tapoco agreement and land exchange, we support 
with amendments.
    We have submitted written testimony which I would like to 
have entered for the record.
    Senator Thomas. It will be in the record.
    Mr. Hoffman. The first bill, S. 1064, is the American Civil 
War Sesquicentennial Commission. As Senator Breaux so aptly 
pointed out, the 150th anniversary presents a significant 
opportunity to appreciate what some have called the great 
single event in our history. The Civil War cost 620,000 
American lives, 4 million slaves were freed, and it led to the 
passage of three constitutional amendments.
    With the 150th anniversary of this war, we have an 
opportunity now to really examine the issues and the social 
forces that were at work then and continued to work through the 
following 150 years in shaping this Nation.
    We would like to recommend some amendments. We feel that a 
27-member committee is too large. Our experience in dealing 
with committees is that 15 to 17 is about the right size for a 
committee or a commission, and we would like to recommend that 
it be amended to reduce the size accordingly.
    We would like to recommend an amendment to authorize the 
Secretary, not the President, to make the appointments.
    We would like to recommend an amendment to allow 180 days 
to make those appointments as opposed to the 60 days 
articulated in the bill.
    We would like an amendment to designate a lead agency for 
this commission.
    And we would like to ask that the bill be amended to reduce 
the authorized budget from $500,000 to $250,000 given existing 
budget constraints and the pressing needs of existing 
maintenance backlog issues and operations of national parks.
    Typically the way these commissions work is that they go 
out and raise money in the private sector, and we believe that 
$250,000 will be a good seed fund available to help them get 
established and to go out and raise the kind of money they need 
for the promotion of the sesquicentennial.
    Senator Thomas. That is $250,000 for 12 years.
    Mr. Hoffman. Yes.
    S. 1092, authorizing the national data base to identify, 
locate, and catalogue memorials, monuments, and markers that 
recognize American veterans. Mr. Chairman, we oppose this bill.
    The National Park Service maintains its own data base of 
historic and prehistoric structures, which includes 26,531 
structures. Of those 26,000, 3,760 are memorials or markers. Of 
those, 3,196 recognize veterans, and of those, 2,876 are 
related to the Civil War veterans.
    This bill requires the cataloguing of all monuments on all 
lands, and we believe that that would put the Park Service well 
outside its normal mission. We oftentimes do not get the best 
of receptions in areas where we work, and to have to go out 
onto city lands and State lands and private lands and ask 
people to provide information about markers or monuments on 
their lands might put us over the edge with some folks.
    There is an existing data base due to the good work of Mr. 
Brian Rooney. The Remembering Veterans Who Earned Their Stripes 
has developed a data base and we believe that this data base 
should be further developed. We would like to work 
cooperatively with that organization, sharing the data that we 
have and perhaps providing some technical assistance or 
guidance in helping to enhance that data base.
    There are also grants available that might be able to help 
establish this data base and help with the maintenance of these 
markers: Save America's Treasures or Chairman Nau's favorite 
program, Preserve America, perhaps.
    We appreciate very much the efforts and the work that Mr. 
Brian Rooney has put into this project, but unfortunately it 
falls outside our mission, scope, and resources at this time.
    S. 1748, National Park Service management of all sites 
honoring past Presidents. Mr. Chairman, we oppose this bill.
    This is much too large of an obligation to be absorbed by 
the National Park Service at this time. As you know, for the 
past 4 years, we have been busily trying to address the 
maintenance backlog issue and just maintain our existing 
operations. And to take on such a large obligation at this time 
would not be prudent use of taxpayer funds.
    There are existing family foundations, historical 
societies, historic preservation organizations, and other NGO's 
that can and do manage these sites and we would not want to put 
ourselves in the position of having to take that, wrench that 
management from them.
    We are happy to help those folks with grant applications 
and technical assistance and management training assistance as 
necessary, but we simply cannot take all those sites on.

    [NOTE: I would like to clarify statements I made in my oral 
presentation regarding S. 1748.
    The bill would establish a grant program whereby the National Park 
Service (NPS) would help maintain and improve presidential sites that 
are not part of the National Park System (System). The NPS does not 
intend on managing or assisting in the management of any sites that are 
not currently a part of the System.]

    S. 2052, designation of the El Camino Real de los Tejas as 
a national trail. We support this bill, Mr. Chairman, with 
technical amendments.
    As was previously stated, this is a 2,600-mile trail 
system. It is actually three trails that run concurrently but 
do branch off at a couple different points, and it runs from 
the Rio Grande to Natchitoches, Louisiana. These trails extend 
into Mexico, but this designation, of course, would only apply 
to the United States portion of those trails, and the State 
Department has put their blessing on this designation.
    A trail designation under the National Trails System Act 
only puts a trail on the map. It provides for public access to 
trails when those sections of the trails are owned by the 
Federal Government or if a certification agreement is reached 
with a private property owner to allow public access to that 
trail. There is no Federal land acquisition process associated 
with the trail designation. There are no Federal land 
management overlays associated with the trail designation. And 
the National Trails System Act fully recognizes and protects 
private property rights associated with any trail designation.
    There is some confusion sometimes with the terminology 
associated with this act. Designation and establishment are 
used interchangeably in the act. That is the process of 
actually putting the trail on the map, as I indicated before.
    Then there is the certification of a segment of a trail, 
and that is the process of reaching an agreement with a private 
property owner to allow public access and use of that section 
of the trail. Each of those certification agreements are 
individually negotiated with each individual private property 
owner, and they are only limited by the negotiators' 
imaginations. The private property owner can add whatever 
qualifications they want in terms of times of day that people 
can get on the trail, what kind of activities they will 
continue to do on the trail, regardless of the designation, 
whatever they want to put in there.
    We estimate that the annual cost associated with 
administering this particular national trail would be 
approximately $500,000 a year. I grew up in southern California 
as well, Senator Campbell, and I too spent a lot of time on the 
El Camino Real. There is, in fact, another El Camino Real de la 
Tierra Adentro that was studied at the same time the de los 
Tejas trail was studied. In fact, it has been designated as a 
national trail, and it runs up from the Rio Grande up into 
Colorado. So I guess it is somewhat analogous to our interstate 
highway systems. We should just put numbers after them instead.
    [Laughter.]
    Mr. Hoffman. The Spanish interstate highway system.
    S. 2046 authorizes a land exchange at Everglades National 
Park. Mr. Chairman, I would like to make a correction to the 
Department's written testimony on this bill. We state in that 
testimony that we believe no formal appraisals have been 
completed for the smaller exchange involving the GSA, Miami-
Dade County, and the U.S. Navy. We have been informed that 
appraisals were conducted by the Navy and the lands involved 
were determined to be of equal value. We will be happy to 
provide the subcommittee with a corrected copy of that 
testimony.
    We support this bill with amendments. This bill seeks to 
authorize the exchange of 1,054 acres of land between 
Everglades National Park and the South Florida Water Management 
District. There has not been an appraisal of these lands. 
However, they are determined to be of roughly equal habitat 
value. When we do appraisals, we do appraisals by something we 
call the uniform appraisal standards for Federal land 
acquisitions, and those have to use standards adopted by 
industry groups as to quantifiable ways to determine economic 
fair market value. And it is not a very suitable system for 
determining habitat value or other use values.
    This exchange is necessary to facilitate the C-111 project, 
which is an Army Corps of Engineers project, to modify the 
water flows in the south Florida ecosystem and would help 
restore the environmental integrity to the Everglades National 
Park, while protecting Miami and Dade County from flooding.
    We analyzed five exchanges before bringing this one 
forward, and the exchange you have before you is the one picked 
because it adds the most value to the resources of the park.
    Some people will question whether or not this is 
replumbing, if you will, of the Everglades water quality issues 
and suggest that something in this bill should address water 
quality. Our position is that water quality is adequately 
addressed by a host of other laws that are already on the books 
and we do not need to address that in this bill.
    Amendments we would recommend to this bill include that we 
articulate that the lands going to the South Florida Management 
District are to be used for the C-111 project.
    Another amendment would direct the Miami-Dade County 
exchange with the Navy that I referred to in our written 
testimony. In the 1,054 acres that the Park Service would 
receive, there is a 153-acre hole in the donut, if you will, 
that belongs to Miami-Dade. Miami-Dade is working on a separate 
exchange with the Navy to make that 153 acres part of the 
1,054-acre exchange. So what we would suggest is that the bill 
be reworded to sequence these exchanges, that the big exchange 
does not occur until the hole in the donut is filled, if you 
will.
    And we would like to have this bill amended to authorize 
the Secretary to acquire no more than 10 acres outside the 
boundary of Everglades National Park from willing sellers for 
administrative, housing, maintenance, and other uses. Currently 
there were some houses that were condemned by the National Park 
Service as part of what they call the MOD Waters project, and 
those houses eventually will need to be razed as that area is 
reflooded as part of the comprehensive Everglades restoration 
project. But we in the interim have been using those for law 
enforcement and fire protection because they provide a much 
faster response to the areas that need protection. So we are 
going to be in need of some place to house those people when 
those other places are no longer available.
    Lastly, S. 2319, the land exchange to facilitate the FERC 
hydropower relicensing of the Tapoco Project or, as we 
affectionately call it, the ``tapioca project.''
    The Tapoco Project is a series of four dams with power 
plants along a river system that is in between Great Smoky 
Mountains National Park and the Cherokee National Forest. These 
dams and plants are owned and operated by Alcoa Power 
Generating, Incorporated, and all four of these hydroelectric 
projects provide electricity that supports 2,000 jobs in 
eastern Tennessee, 2,000 significant manufacturing jobs for 
eastern Tennessee.
    Under the law, FERC cannot relicense the Chilhowee facility 
because, as it was pointed out earlier, it floods National Park 
Service lands. It is approximately 100 acres that are flooded, 
and this bill would propose to exchange 100 acres of National 
Park Service land for 186 acres of land owned by Alcoa Power 
Generating, Incorporated.
    This land exchange is part of an overall settlement 
agreement on the whole Tapoco relicensing project that is 
really a remarkable agreement that best exemplifies Secretary 
Norton's four C's: conservation through cooperation, 
communication, and consultation. It is hard to list all of the 
parties that have been involved in the negotiation of this 
agreement. It is so extensive. It is literally dozens of 
organizations from local counties, States, environmental 
quality boards from the various States, the Fish and Wildlife 
Service, the BIA, the National Park Service, NGO's, and of 
course, the private sector.
    Also, this exchange is required to be done legislatively 
because, once again, we do not have appraisals on these lands 
because the values of these lands and the value of the overall 
settlement agreement make it much too complex to appraise under 
the uniform appraisal standards.
    The 100 acres that would be exchanged that would go to 
Alcoa would include a reversionary agreement, such that if the 
project ever went away and those lands were no longer flooded, 
the land would revert back to the National Park Service. So 
that addresses Senator Akaka's philosophy that we never 
completely give up National Park Service land at least. The 
Park Service would retain authority to manage the 100 acres, 
which would facilitate their management of the land adjacent to 
that 100 acres that is flooded.
    The lands that the park would acquire are between a set of 
power lines and a highway, and the addition of that 186 acres 
of land to the national park will greatly facilitate that park 
management of that boundary line, particularly as it pertains 
to managing hunting because it is a little bit confusing 
because hunters can get off the road and hunt there, and then 
the park line is back in the woods and it is more difficult for 
the park to manage that border.
    The settlement agreement has other elements that are 
separate from this legislation. It includes conservation 
easements that would go to the Nature Conservancy, giving them 
a first right of refusal to purchase those conservation 
easements if the Forest Service or the Park Service do not ever 
come up with the money. There is one 5,500-acre conservation 
corridor that would conserve the land between the national park 
and the national forest, providing a migration corridor for 
wildlife. There are 4,000 acres in eastern Tennessee that would 
enhance conservation there, and there are another 400 acres 
between highways and power lines that would, again, improve the 
management ability of the National Park Service.
    The agreement also restores stream flows between a couple 
of the dams on the project, which will enhance recovery of 
endangered fish and also enhance recreation opportunities in 
that corridor. The agreement includes recreation easements on 
the lake shores of Alcoa's reservoirs to enhance recreation 
opportunities for the locals in the area, as well as visitors 
to the area. And Alcoa will fund a $100,000 per year 
conservation fund to help mitigate other impacts from the 
project, and they will also fund $25,000 a year to the State of 
North Carolina for projects that they want to do.
    An amendment we recommend to the bill is that the 
reversionary language not include having the dam or the 
reservoir revert to the National Park Service. We are really 
not in the dam management business. Hold the ``n'' please.
    We would like to seek some clarification on when the 
reversion occurs, and we will be glad to work with the staff on 
that.
    We would also like to see an amendment that would remove 
the language that waives NEPA and the National Historic 
Preservation Act study requirements. We have done those studies 
and we believe those studies support the settlement agreement 
and this exchange. So there is no need to waive that 
requirement.
    And then a technical amendment to reconcile some language 
between section (a)(2) and section (4)(f).
    And with that rather lengthy testimony, I would open it up 
to questions, Mr. Chairman.
    [The prepared statements of Mr. Hoffman follow:]

 Prepared Statements of Paul Hoffman, Deputy Assistant Secretary, Fish 
           and Wildlife and Parks, Department of the Interior

                                S. 1064

    Mr. Chairman, thank you for the opportunity to appear before you 
today to present the views of the Department of the Interior on S. 
1064, a bill that would establish a commission to commemorate the 
sesquicentennial of the American Civil War. The Department supports the 
enactment of this legislation with some amendments outlined in our 
testimony and believes that establishment of the commission would help 
ensure that the lasting legacy of the Civil War is understood and 
appreciated by all Americans.
    S. 1064 would establish a Civil War Sesquicentennial Commemoration 
Commission to cooperate with and assist States and national 
organizations with programs and activities to ensure a suitable 
national observance of the 150th anniversary of the Civil War and to 
ensure that the anniversary will have lasting educational value. It 
also authorizes a grant program to specific institutions listed in the 
bill.
    The Civil War was, in the words of Robert Penn Warren, ``the great 
single event of our history.'' It was a wrenching conflict that 
resulted in the loss of 620,000 lives, the liberation of four million 
African American slaves, and the ratification of three Constitutional 
amendments that forever changed the face of American democracy. The 
Civil War ultimately decided the supremacy of the Federal government 
over state sovereignty, even though the issue of ``states' rights'' 
continues to be the subject of both constitutional debate and arguments 
before the courts. The United States by 1870 was a very different place 
from what it had been in 1861. In 1865 Congress abolished slavery, in 
1868 Congress declared the newly freed men and women citizens of the 
United States, and in 1870 Congress guaranteed their right to vote. The 
importance of the Civil War can be fully understood only when one takes 
the long view and understands that the political revolution wrought by 
the Fourteenth and Fifteenth Amendments to the Constitution was not 
fully realized for a century after the events of April 1865 at 
Appomattox. S. 1064 is mindful of this reality as it directs the 
Commission to recognize ``the experiences and points of view of all 
people affected by the Civil War,'' and provides for the development of 
``programs, projects, and activities on the Civil War that have lasting 
educational value.''
    As S. 1064 acknowledges, the military aspects of the Civil War are 
important events to commemorate. It is equally important, however, as 
we prepare to reflect on the war from the vantage point of a century 
and a half later, that we explore the causes of the conflict to 
understand better how the democratic framework of the country failed to 
resolve the sectional issues short of war. Likewise, we would be doing 
a disservice to those who fought and fell, if the sesquicentennial did 
not fully examine and reflect upon the consequences of the Civil War 
including not only the Reconstruction era and its failure, but also the 
subsequent constriction of equal rights for African American citizens, 
and the ultimate achievement of those civil rights for the descendants 
of enslaved peoples almost a century later. To that end, it would be 
instructive to consider the efforts of the Centennial Commission of the 
Civil War and its efforts to commemorate the war.
    Most ignored the fact that the nation had failed to resolve the 
debate over the nature of the Union and to eliminate the contradictions 
between its equalitarian ideals and the institution of slavery without 
resort to a bloody civil war. Instead, they celebrated the war's 
triumphant nationalism and martial glory.'' This celebration of the war 
and its memory was at the forefront of the events marking the 
centennial of the war during the 1960s. Throughout all of the 
reenactments, parades, gala balls, cake sales, and speeches, very 
little attention was paid to the causes of the war or its lasting 
legacies, legacies that were vividly playing out during the early 1960s 
in the form of freedom rides, sit-ins, marches, and boycotts. The war 
was remembered primarily as a symbol of military honor, reunification 
and reconciliation. In so doing, according to Harvard University 
historian Oscar Handlin, the commemoration ``grotesquely distorted the 
actuality of the war as it had been. And the continued preservation of 
that symbol also obscures the surviving problems left by the war.''
    As the country approaches the 150th anniversary of the war, we are 
mindful that it is a different country than it was fifty years ago. The 
sesquicentennial of the war will be commemorated within a different 
political and social environment from that of the centennial. The 
meaning of the Civil War can be explored more fully. Its causes and 
consequences, subjects Congress directed the National Park Service to 
address beginning in 1989 and 1990, can and must be a major part of the 
sesquicentennial.
    The sesquicentennial should assume the broadest possible approach 
to remembering and commemorating the war. However, this must be 
accomplished with less funds for both the planning and implementation. 
With that in mind, I respectfully urge this committee to consider the 
following suggestions for strengthening 5.1064 and making its 
implementation more efficient and effective.
    First, the bill emphasizes military history over other aspects of 
the Civil War era. We recommend that additional states be considered to 
provide the broadest possible presentation of the war and that other 
scholarly centers and programs be added so that the social, political, 
and economic aspects of the war receive equal emphasis. For example, 
the Virginia Center for Digital History (University of Virginia) with 
its The Valley of the Shadow project could contribute much to this 
effort. Other entities that might logically be considered would include 
the Center for Study of the American South and the Center for the Study 
of Southern Culture. The Civil War was a national experience; its 
sesquicentennial commemoration should likewise represent a broad 
spectrum of the nation. In addition, we believe that section 7 of the 
bill should be amended. We can get the best return for the taxpayer 
money by establishing a discretionary program that awards grants 
through a competitive process and does not specify in advance who 
should receive funds. As these organizations are leaders in Civil War 
history, they would likely compete well for grants without a statutory 
earmark.
    Second, respecting the importance of the appointments to this 
nationally important commission, we recommend that the bill allow for 
180 days instead of sixty days for the selection of the commission 
members, and that those selections be made by the Secretary of the 
Interior instead of by the President.
    Third, the bill envisions a commission that would include twenty-
seven members. We believe a commission of this size would significantly 
impede the timely selection of its members, diminish its ability to 
work efficiently and effectively, and would be too costly. We recommend 
a smaller commission, with perhaps fifteen or seventeen members.
    Fourth, S. 1064 does not designate a lead department or agency. We 
recommend a lead agency be designated.
    Fifth, the bill authorizes $500,000 for each fiscal year to carry 
out the purposes of this Act. We recommend only $250,000 a year be 
authorized for this effort given other competing priorities and the 
need to focus federal funds on our parks and other essential programs.
    Finally, the U.S. Department of Justice and the Office of 
Government Ethics have raised a number of structural issues with S. 
1064 which we will provide to the Committee at a later date.
    Establishing a commission to commemorate the sesquicentennial of 
the Civil War as envisioned in S. 1064 would provide the nation an 
opportunity to reflect upon this momentous event within an environment 
that would be inclusive and contemplative. It would enable all 
Americans to reflect anew upon the war, its consequences, and its 
lasting legacies. It would result, we can hope, in greater public 
insight into the war and promote increased awareness of its shadow in 
our society today.
    This concludes my prepared testimony, Mr. Chairman. I would be 
pleased to answer any questions you or the committee might have.

                                S. 1748

    Mr. Chairman, thank you for the opportunity to present the views of 
the Department of the Interior on S. 1748, a bill to establish a 
program to award grants to improve and maintain sites honoring 
presidents of the United States.
    The Department supports efforts to protect Presidential sites, 
which honor our country's former presidents and are an important 
historical part of our national heritage. The birthplaces, museums, 
memorials, and tombs provide excellent resources to study and learn 
about our past presidents' lives, leadership, and values. The value and 
educational benefit of visiting first hand the birthplace or other 
memorial site of a person one has read or studied about can leave a 
very indelible impression that cannot be acquired in any other way. 
Being involved in history and in the lives of those who have 
contributed to our American legacy through physical, mental, and 
emotional contact with the things that helped shape their lives or the 
places that store their remains can bring a deeper appreciation of our 
country's struggles and the heritage we enjoy today.
    However, because of the financial implications of this bill on 
national parks and park programs, the Department opposes the enactment 
of S. 1748 at this time. The Department is committed to supporting the 
President's Initiative to eliminate the deferred maintenance backlog in 
our national parks. We believe funds are more appropriately directed at 
this time to reducing the long list of necessary but deferred 
construction projects that have been identified in our national parks.
    Our opposition does not detract from the significance and 
importance of creating partnerships with public and private entities to 
preserve and maintain the non-Federal Presidential sites of our 
nation's past presidents. Rather, our opposition is due to our belief 
that it is inappropriate to use limited National Park Service 
appropriations to fund maintenance and improvement projects for 
institutions and sites that are not part of the National Park System.
    We encourage the family foundations, historical societies, historic 
preservation organizations, and other non-profit organizations that own 
the majority of these sites to continue to seek funding for the 
maintenance and improvement projects necessary to prevent further 
deterioration and continued interpretation of these sites and 
structures. We believe that there are other sources of funding 
available for the restoration and maintenance needs of these 
Presidential sites. One national example is the Save America's 
Treasures program that awards grants for preservation and conservation 
work on nationally significant intellectual and cultural artifacts and 
nationally significant historic structures and sites. These 
Presidential Sites are ``national class properties'' and would, we 
believe, compete favorably in the Save America's Treasures program as 
well as in any other fundraising campaign. The Department would be more 
than happy to assist with developing Save America's Treasures 
applications to accomplish this important work.
    S. 1748 authorizes the Secretary of the Interior to establish a 
grant program to help pay for the Federal share of major repairs, 
modifications, and capital and interpretive improvements to existing 
non-Federal Presidential sites. The Federal share of the cost would be 
50 percent or less of the total cost of a project. Appropriated funds 
of $5 million would be authorized for fiscal years 2004 through 2008, 
with funds available until expended. The bill states that 15 percent of 
the grant money would be used for emergency projects; 65 percent for 
Presidential sites with a 3year annual operating budget of less than 
$700,000, with an endowment less than 3 times the annual operating 
budget; and 20 percent for sites with an annual operating budget of 
$700,000 or more, with an endowment equal to or more than 3 times the 
annual operating budget. It also states that unexpended funds may be 
used for another category of projects described in the Act.
    S. 1748 also outlines the application and award procedures and 
authorizes the establishment of the Presidential Site Grant Commission 
(Commission). The operators and owners would submit applications to the 
Secretary who would then forward them to the Commission. The Commission 
would review the applications and make recommendations to the Secretary 
for grant assistance. Of the five members on the Commission, two of the 
four members appointed by the Secretary would represent the 
Presidential sites eligible for grant awards. The term for an appointed 
member is two years. The bill states that during the two-year period in 
which a representative of a particular site serves on the Commission 
that site would be ineligible for grant money under this Act.
    Presidential sites honor our country's former presidents and are an 
important historical part of our national heritage. The birthplaces, 
museums, memorials, and tombs provide excellent resources to study and 
learn about our past presidents' lives, leadership, and values. While 
we recognize that these sites provide a valuable link to understanding 
our country's history and government, we believe that National Park 
Service funds should not be authorized for this purpose.
    Mr. Chairman, this concludes my prepared testimony. I would be 
happy to answer any questions you or your committee may have.

                                S. 2046

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the Department of the Interior's views on S. 
2046. This bill would authorize a land exchange at Everglades National 
Park for the purpose of implementing an important restoration project 
that will benefit park habitat and resources.
    The Department strongly supports an exchange of land between the 
South Florida Water Management District (District) and Everglades 
National Park (Park), as proposed in S. 2046, with amendments that are 
attached to this testimony. We have worked closely with the Department 
of the Army and the State of Florida on the proposed amendments related 
to the exchange so that it clearly states the purposes of the exchange 
and ensures that other administrative actions will be completed to 
effectuate the exchange contemplated by S. 2046. We understand that the 
State of Florida has expressed its support for the exchange.
    S. 2046 directs the Secretary of the Interior (Secretary) to 
exchange approximately 1,054 acres of land from the Rocky Glades area 
of the park for approximately 1,054 acres of District land located in 
the Southern Glades Wildlife and Environmental Area. The park lands 
that are exchanged would be used for the C-111 project that is 
intended, among other things, to restore park habitat that has been 
adversely affected by the Central and Southern Florida Project, as well 
as restore more natural flows of water to the park's eastern panhandle, 
and Taylor Slough, as well as Florida Bay.
    The parcels proposed for exchange have been studied and found to be 
similar. There has, however, been no formal appraisal of the two 
parcels. Additionally, the NPS does not expect to incur increased 
operational costs associated with the exchange because of the 
restricted access to the area adjoining the lands the park would 
acquire and because the park's current operational responsibilities for 
lands that the park would be giving up would essentially be transferred 
to the proposed new additions.
    Everglades National Park is one of the most unique ecological 
reserves in the nation and is unlike any other national park in the 
world. It is also, unfortunately, one of the most threatened of our 
national parks. Conditions arising in the south Florida region which 
threatened this park are well known to this Subcommittee and are the 
subject of several projects authorized by the Congress to attempt to 
restore aspects of the original physical and biological features of the 
historic Everglades.
    For example, in the Water Resources Development Act of 1996, 
Congress authorized modifications to one project, the C-111 Project, to 
address restoration along the park's eastern boundary. As set forth in 
the May 1994 Final Integrated General Reevaluation Report and 
Environmental Impact Statement for the C-111 Project, features will be 
constructed that will limit water losses from the park through ground 
water seepage and restore more natural water flows and level through 
Taylor Slough, the eastern panhandle area of the park, and into 
northeastern Florida Bay.
    While maintaining the authorized level of flood protection for 
agricultural activities adjacent to the park and within the C-111 
basin, features include the construction of four pump stations in the 
L-31N and C-111 canals and a series of retention areas just east of the 
park boundary to prevent the loss of water from the park through 
seepage.
    In addition, a fifth pump station and distribution canal is 
specified in order to direct water into the Eastern Panhandle region 
and restore more natural flows through Taylor Slough to Florida Bay. 
The flow capacity in Taylor Slough would be increased through 
construction of two new bridges, spoil mounds south of the C-111 canal 
would be removed,. and the C-109 and C-110 canals and levees would be 
removed. Funding has been provided by the U.S. Army Corps of Engineers 
(COE) and State of Florida, with some additional amounts for land 
acquisition from the Department of the Interior.
    The NPS, working with the COE and the District, evaluated the 
modifications as described above to the C-111 project and determined 
that land previously included within Everglades National Park would be 
needed for construction and completion of the project. S. 2046 would 
allow NPS, through an exchange, to provide the necessary lands to 
complete the project modifications and obtain an equal amount of 
acreage from the District, adjacent to the to the park boundary , which 
when incorporated into the park, would conform to the NPS's goal of no 
net loss to the park.
    NPS evaluated five exchange alternatives in order to determine the 
maximum net gain in resource values for lands to be acquired. In 
consultation with the U.S. Fish and Wildlife Service and the Florida 
Fish and Wildlife Conservation Commission, the NPS established resource 
based criteria and evaluated the exchange alternatives as a part of the 
Final Integrated General Reevaluation Report Supplement and 
Environmental Assessment, completed in January 2002. The study's 
selected alternative proposed an exchange of lands as specified in S. 
2046, which would result in an equal acreage exchange but an overall 
increase in resource benefits provided to the park.
    Although the necessary exchange has not yet been completed, to date 
the project has accomplished the following important restoration goals. 
Three of the five pump stations and portions of related detention areas 
have been completed, the C-109 levee and canal and spoil mounds in the 
lower C-111 have been removed, two new bridges in Taylor Slough along 
the park road have been completed, and the District has purchased most 
of the land required for the project. Operations of the final project 
features for the C-111 Project will be assess in the Combined 
Structural and Operational Plan (CSOP) for both the C-111 and Modified 
Water Deliveries Project. Work on developing this plan is ongoing and 
is scheduled for completion by the COE in June 2006.
    Fundamentally, however, S. 2046 is needed so that work may proceed 
as planned. Although we strongly support the exchange, we suggest three 
amendments to S. 2046. The first would clarify the use of the federal 
land conveyed to the District. It clarifies that the lands to be 
provided by the park under the exchange are for the purpose of 
implementing the project as previously planned and authorized by 
Congress.
    The second would direct the completion of additional federal 
administrative actions that are necessary to complete the exchange. In 
brief, it directs completion of a smaller land exchange between Miami-
Dade County, the U.S. Navy, and the NPS in order to acquire into 
federal ownership 153 acres within the 1,054 acres of park land to be 
exchanged under S. 2046. We had been examining options for completing 
this exchange administratively. We believe this exchange should be 
included in this bill since this exchange must occur before the 
exchange envisioned in the bill can take place. As with the larger 
exchange, no formal appraisals appear to have been done. All parties, 
however, support the exchange, and believe the values are similar.
    The third amendment would authorize the Secretary to acquire no 
more than 10 acres outside the park boundary, from willing sellers, in 
the vicinity of the East Everglades portion of the park for 
administrative, housing, maintenance and other park uses.
    That completes my testimony. I would be happy to answer any 
questions that you or any members of the Subcommittee may have.

                          Proposed Amendments

           S. 2046--LAND EXCHANGE IN EVERGLADES NATIONAL PARK

    Page 3, line 3, strike ``compatible with'' and insert ``for''.
    Page 2, line 22, add the following at end of the first sentence:
    ``Prior to the Secretary's conveyance of fee title to the Federal 
land to the District, the Administrator of the General Services 
Administration shall exchange, as expeditiously as possible. 
approximately 595.28 acres of land declared excess by the Department of 
the Navy, known as `Site Alpha,' for two parcels of land, known as 
`Tract 605-01' and `Tract 605-03' and totaling approximately 152.93 
acres, owned by Miami-Dade County. Upon completion of the exchange, the 
Administrator of the General Services Administration shall transfer 
administrative jurisdiction for Tract 605-01 and Tract 605-03 to the 
Secretary without reimbursement.''
    Page 3, line 10, add a new section:
    ``SEC. 2. ADMINISTRATIVE SITE.--Section 102 of the Everglades 
National Park Protection and Expansion Act of 1989 (16 U.S.C. 410r-6) 
is amended:
    (a) by inserting ``(1)'' before the first sentence in subsection 
(a), and
    (b) by adding the following new paragraph:
    (2) The Secretary may acquire up to 10 acres from willing sellers 
outside the park boundary, but adjacent to or in the general proximity 
of the East Everglades area of the park, for the development of 
administrative, housing, maintenance or other park purposes. Upon 
acquisition, the land shall be administered as part of Everglades 
National Park in accordance with applicable laws and regulations.''

                                S. 2052

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 2052, a bill to amend the National Trails System 
Act to designate El Camino Real de los Tejas as a National Historic 
Trail.
    The Department supports S. 2052 with amendments to clarify the 
differences between designation of the trail and certifying sites and 
segments to be managed as part of the trail.
    S. 2052 would add the Camino Real de los Tejas as a national 
historic trail component of the National Trails System only on publicly 
owned land. Making sites and segments of the trail available for public 
use where the trail crosses privately owned lands would be authorized 
only upon the consent of the owner when the site qualifies for 
certification. Subject to the provisions for privately owned lands, the 
bill would designate a series of routes, totaling approximately 2,600 
miles.
    The designated trail would include the evolving routes of the 
camino real as well as its successor, the Old San Antonio Road. The 
trail would extend across a 550-mile-long corridor from the Rio Grande 
near Eagle Pass and Laredo, Texas to Natchitoches (pronounced Nack-a-
dish), Louisiana with trail administration provided by the Secretary of 
the Interior. No land or interest in land outside the exterior 
boundaries of any federally administered area could be acquired by the 
United States for the trail except with the consent of the owner. S. 
2052 also would allow the Secretary of the Interior to coordinate 
activities with the United States and Mexican public and non-
governmental organizations, academic institutions and, in consultation 
with the Secretary of State, the government of Mexico and its political 
subdivisions. Finally, the bill also calls for the Department to 
consult with appropriate state agencies including exchanging trail 
information and research, fostering trail preservation and education 
programs, providing technical assistance, and working to establish an 
international historic trail with complementary preservation and 
education programs in each nation.
    The National Park Service (NPS) was authorized to study both El 
Camino Real de los Tejas and the Old San Antonio Road by P.L. 103-145. 
The National Historic Trail Feasibility Study and Environmental 
Assessment, El Camino Real de los Tejas--Louisiana was completed in 
July 1998. The study concluded that both roads met all national 
historic trail criteria as defined by the study provisions of the 
National Trails System Act (16 U.S.C. 1244). The study was presented to 
the National Park System Advisory Board and the board concurred with 
the findings.
    El Camino Real de los Tejas was the primary route between the 
Spanish vice-regal capital of Mexico City and the Spanish provincial 
capital of Tejas at Los Adaes (pronounced Uh-die-us) (1721-73) and San 
Antonio (1773-1821). The camino real, bringing Spanish and Mexican 
influences northeastward, led to the exploration, conquest, 
colonization, settlement, migration, military occupation, religious 
conversion, and cultural interaction that helped shape what are now the 
southern borderlands of the United States.
    The Old San Antonio road brought American immigrants and influence 
westward to Texas during the early 19th century. This large-scale 
immigration led to revolt, creation of the Texas Republic and 
eventually its annexation to the United States, which in turn 
precipitated war between the U.S. and Mexico.
    While the entire route of El Camino Real de los Tejas extended over 
1,600 miles from Mexico City to Los Adaes, today most of the route lies 
in Mexico. S. 2052 would allow for collaborative programs with Mexican 
institutions, both public and private, that would help in fully 
understanding the history, geography, and cultures of the entire route. 
Interest has been expressed by officials in Mexico for developing 
preservation and education programs along Mexico's part of El Camino 
Real de los Tejas. If this complementary program were implemented, an 
international historic trail would be created with benefits leading to 
an increase in mutual understanding between our nations.
    Partnerships and cooperation, keystones to the development of the 
National Trails System, are essential to bring about the preservation 
and interpretation of El Camino Real de los Tejas resources. The trail 
crosses public and private lands and it is important that the intent of 
the National Trails System Act be met by respecting private property 
rights. Respecting property rights will develop solid and long-lasting 
relationships with partners and help stimulate and maintain a strong, 
grassroots-managed trail system. It is also vital that we acknowledge 
the pride and stewardship of all our partners, private and public, in 
their voluntary and good faith efforts to preserve and appropriately 
share their part of our national patrimony.
    With continued and even increasing public interest and efforts to 
help commemorate it, opportunities for partnerships along El Camino 
Real de los Tejas are very promising. Longterm success of the trail 
will depend on continued involvement from partners as well as the 
States of Texas and Louisiana, landowners, and other organizations and 
individuals. In that regard, we would strongly encourage the early 
creation of a nonprofit trails organization to represent the various 
constituencies along the trail and to enhance the public/private 
partnerships that make nationally designated trails successful.
    Should S. 2052 be enacted, the NPS, subject to availability of 
funds, would prepare a comprehensive management plan with public input 
to identify the goals and objectives for trail preservation, research, 
interpretation, public use, trail marking, and cooperative management. 
The required national historic trail advisory council would be 
established with broad representation of those interested, including 
private landowners, to advise on trail planning and administration 
matters. The NPS would implement the plan by creating a trail 
administration office to provide technical and limited financial 
assistance for preservation, historical research, planning and design 
for interpretation and development projects. It would also manage the 
negotiating and certifying of qualifying sites, trail segments, and 
interpretive facilities. NPS would develop and manage the official 
trail marker symbol, marking the route and negotiating agreements with 
different trail partners. This would include establishing agreements 
with Mexico to enrich our understanding of trail history and to 
exchange information to enhance resource preservation and public 
understanding. This would involve some increased operational costs, 
although most trails have annual funding of less than $300,000.
    We believe there is some confusion with regard to the language that 
seeks to assure that private property rights are protected and we 
recommend that this language be clarified to eliminate this confusion. 
When Congress adds a trail to the National Trails System Act, 
designation of the trail and certification of sites and segments are 
two separate actions. Designation of the trail involves the 
acknowledgment of a continuous route on a map with a beginning and an 
ending point. This route is consistent with the findings of the study 
completed for the trail.
    However, the designation of this route does not mean that each 
piece of land that makes up the route is open and available for public 
use. Sites and segments are only available for public use through the 
certification process whereby the NPS would discuss with private 
landowners whether they would like the portion of the trail through 
their property to be part of the designated trail. No landowner is 
required to have his property available for use even though a trail is 
designated by Congress.
    Should a landowner agree to have any site or segment certified for 
a designated trail, the NPS Intermountain Region, which administers 
eight national historic trails and would be responsible for the trail 
designated by S. 2052, includes language in its certification agreement 
to protect private property rights. That language reads: ``The owner 
retains all legal rights to the property, and nothing in this agreement 
is to be construed as granting any legal authority to the National Park 
Service over the property or any action by the owner.'' Landowners 
retain complete rights to their lands and only participate in trail 
programs to the extent that they desire through the certification 
process. Under existing authorities, neither trail designation, nor 
certification gives the Federal government any control over private 
lands.
    Some of the language proposed in this bill to protect private 
property rights is already found in the National Trails System Act, and 
we believe creates confusion between the designation and certification 
processes. We would be glad to work with the committee on alternative 
language to eliminate this confusion.
    We appreciate the committee's interest in this legislation. That 
concludes my remarks and I would be happy to respond to any questions 
that you may have.

                                S. 2319

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views regarding S. 2319. This bill would 
authorize and facilitate hydroelectric power re-licensing of the Tapoco 
Project, near Great Smoky Mountains National Park.
    The Department supports S. 2319 with the amendments discussed later 
in this testimony. We believe that the exchange authorized in S. 2319, 
together with the comprehensive Settlement Agreement discussed later in 
this testimony, is an excellent example of Secretary Norton's 4 C's, 
Conservation through Cooperation, Consultation and Communication and 
demonstrates how environmental groups, local and state governments, 
industry, tribes, and the Federal government can work cooperatively on 
the conservation of important environmental resources.
    S. 2319 would resolve a jurisdictional issue by allowing the 
Federal Energy Regulatory Commission (FERC) to issue a new license to 
Alcoa Power Generating Inc. (APGI) to operate its existing Tapoco 
Project (FERC project # 2169), a system of four hydropower dams on the 
Little Tennessee and Cheoah rivers straddling the North Carolina-
Tennessee border. The bill also authorizes the Secretary to exchange 
lands within Great Smoky Mountains National Park (park) with APGI. Once 
the exchange is completed, the bill allows FERC to re-license the 
project. The Secretary and the Secretary of Agriculture are also 
authorized to acquire title to additional lands that may be transferred 
to a nongovernmental organization, as part of the Settlement Agreement 
related to this project, and add them to the boundaries of the park or 
the Cherokee National Forest.
    In 1999, when APGI began work on a re-licensing application with 
FERC to continue the operation of the Tapoco Project, it was discovered 
that a portion of the project, known as Chilhowee Reservoir, inundates 
approximately two miles of government-owned lands along Abrams Creek 
and shorter segments along three other streams, all within the 1926 
authorized boundary of the park. This situation has existed since the 
1950's when Chilhowee Dam was completed and originally licensed by the 
former Federal Power Commission. FERC does not have the legal authority 
to issue licenses for hydropower projects that flood lands within 
authorized national park boundaries.
    The Federal Power Act and the enabling legislation for the park 
specifically prohibit hydropower projects within the park. The 
historical record, from the 1950's and earlier, of how the licensing 
was allowed to occur is unclear. Records indicate that the NPS and the 
Federal Power Commission were aware of the jurisdictional defect, but 
no evidence has been found that proves that the issue was legally 
resolved. It appears that the Federal Power Commission granted the 
license and the decision was not challenged.
    S. 2319 would resolve this situation by requiring a transfer of 
approximately 100 acres of submerged lands along Abrams Creek, and 
three smaller tributaries within the park, to APGI and granting 
jurisdiction to FERC to re-license the Tapoco Project and the 
operations at Chilhowee Dam and Reservoir. In exchange, the park would 
receive fee title to 186 acres of forested uplands within its 
authorized boundary that are currently under APGI ownership and retain 
management and enforcement rights over the 100 acres transferred to 
APGI. The bill also contains a reversionary clause that stipulates if 
the dam is ever breached or removed, the submerged lands would revert 
to the NPS.
    The exchange would extend park-owned land to the east shoulder of 
U.S. Highway 129 for approximately three miles. Currently, park-owned 
land stops at a powerline easement well to the northeast of the 
highway. This gap between the highway and the powerline creates an 
isolated pocket of land within the park boundary that poses ongoing 
management and law enforcement problems. Because of the reserved 
management easement, NPS rangers would continue to patrol the four 
flooded creek embayments within the park and enforce park rules, even 
though the underlying fee interest in the land will now belong to APGI.
    Critical to our support of this bill are additional conservation 
provisions in a comprehensive Settlement Agreement that has recently 
been developed among APGI, the Department of the Interior, the U.S. 
Forest Service, Tennessee and North Carolina natural resource agencies, 
the Eastern Band of Cherokee Indians, local governments, and several 
nongovernmental organizations. The Settlement Agreement has widespread 
support from the involved parties and will be filed with FERC to 
address the issues in the re-licensing of the Tapoco Project, including 
whether or not Chilhowee should continue to operate as a reservoir.
    In addition to the land exchange proposed in S. 2319, under the 
Settlement Agreement APGI will donate to The Nature Conservancy (TNC) a 
permanent conservation easement on an additional 400 acres of land it 
owns in Tennessee, within the park's authorized boundary, but lying 
southwest of highway 129 and the previously mentioned 186-acre parcel. 
These lands will continue to be maintained as a wildlife management 
area under an existing agreement with the State of Tennessee until such 
time as they might be acquired by the NPS. APGI will also grant an 
option to TNC to buy the fee interest of this tract for a price 
reflecting impact on value of the donated easement, and TNC will be 
restricted from selling the tract to any entity other than the NPS.
    In addition to the land exchange provisions in S. 2319, the 
Settlement Agreement also stipulates that APGI will donate conservation 
easements to TNC for several other parcels of land. The first permanent 
conservation easement is on approximately 5,500 acres of land that will 
be the centerpiece of a ``conservation corridor'' linking the park with 
the Cherokee National Forest, immediately south of the project's 
reservoirs on the Little Tennessee River. TNC will hold the easement 
and the property will be available for purchase in fee for future 
addition to the Cherokee National Forest or the park, as appropriate.
    The second conservation easement is on approximately 4,000 more 
acres of APGI lands in Tennessee and would last for the term of the new 
FERC license. If APGI decides to sell these lands or to sell the 
project to a different company, it has agreed to make these lands 
available for purchase by TNC. Through in essence a right of first 
refusal, TNC would only be authorized to sell these lands to the 
Tennessee Wildlife Resources Agency, the U.S. Forest Service or the 
park.
    Finally. APGI has agreed to establish a mitigation fund for the 
project area in Tennessee that will make $100,000 per year available to 
the NPS, the U.S. Fish and Wildlife Service, the U.S. Forest Service, 
TNC, the State of Tennessee, and other stakeholders for actions to 
mitigate the ecological impacts of the hydroelectric project, such as 
reducing invasive, non-native, terrestrial and aquatic species, 
improving wildlife habitats, and conducting relevant ecological 
research. A similar, but smaller mitigation fund ($25,000 per year) 
will be established for projects on the North Carolina portion of the 
project. APGI will also restore biologically important minimum stream 
flows to sections of the Little Tennessee River and the Cheoah River 
that have been bypassed for the last 50 years for power generation.
    We should note that an appraisal has not been done on the lands to 
be exchanged. The value of these lands would normally be determined 
through an objective appraisal conducted in accordance with the Uniform 
Appraisal Standards for Federal Land Acquisitions (UASFLA). However, we 
are mindful that legislated land transfers often promote other 
considerations that may not lend themselves readily to the standard 
appraisal process or to equal value exchanges in all cases. In this 
instance, NPS conveys approximately 100 acres of land to APGI and 
receives in return a reservation of a conservation easement on the 100 
acres of land, a reversion interest on the 100 acres of land. and 186 
additional acres of land or suitable equivalent. Conservation 
provisions also are provided for in the related Settlement Agreement. 
For these reasons, this exchange results in environmental, management, 
energy-related and economic benefits for the parties and the public. 
The balancing of important public policy considerations against the 
financial implications of proposed transfers are ultimately a question 
that rests with Congress.
    We also have several amendments to suggest. Section 4(c) provides 
for the reversion of fee simple title to the United States. We would 
like to work with the Committee, APGI, and other interested parties to 
address several issues in this subsection. First, the provision 
requires reversion for fee simple title for the Chilhowee Dam, and we 
believe the intention of the provision is to require the reversion of 
the lands identified in Section 4(a)(2), not the dam itself. Second, we 
would like to discuss with the parties further refinement of the 
circumstances under which reversion of fee title should occur.
    Section 4(g) of the bill states, among other things, that the 
exchange is deemed to meet the requirements of the National 
Environmental Policy Act of 1969 and the National Historic Preservation 
Act. The Department does not believe this broad exemption is necessary. 
Much of the environmental compliance work necessary to implement the 
exchange has already been conducted. We therefore recommend striking 
these provisions from the bill.
    In addition, we suggest one technical amendment that will make the 
land acquisition authorized in Section 6(a)(2) of the bill consistent 
with that in Section 4(f). The amendment is attached to this testimony.
    S. 2319, which will authorize the re-licensing of the Tapoco 
Project, and the accompanying Settlement Agreement together provide a 
solution that makes sense, helps protect ecosystem sustainability 
within the Southern Appalachians, and is widely supported by the 
involved agencies and groups. We look forward to working with the 
committee to help this bill move forward.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the subcommittee may have.

                           Proposed Amendment

             S. 2319, TAPOCO PROJECT LICENSING ACT OF 2004

    In Section 6(a)(2)(A) insert the following after ``under paragraph 
(1)'':
    ``and administer any acquired land as part of the Park in 
accordance with applicable law (including regulations)''

    Senator Thomas. Mr. Robinson, would you care to go ahead 
with yours?

        STATEMENT OF J. MARK ROBINSON, DIRECTOR, OFFICE 
    OF ENERGY PROJECTS, FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Robinson. Sure, and I will only be speaking on one 
Senate provision.
    My name is Mark Robinson. I am the Director of the Office 
of Energy Projects. We certificate about 2,000 miles of natural 
gas pipeline every year. We authorize the construction and 
ensure the safety of liquified natural gas plants in the United 
States, and more specifically to why we are here today, we 
license, administer, and ensure the safety of about 1,600 
hydroelectric projects across the country, one of which is the 
Tapoco Project.
    We have a problem. The Tapoco Project was licensed in 1955 
and it was licensed to include about 100 acres on four small 
pieces of land in the Great Smoky Mountain National Park. The 
Federal Power Act, however, precludes the commission from doing 
just exactly what it did in 1955, which is to license projects 
in national parks. The Tapoco Project is up for relicensing, 
and we need some help. We need to rectify this inconsistency 
between the Federal Power Act and the specific project.
    S. 2319 would do just that by allowing for the transfer of 
that 100 acres of land that is currently inundated by the 
Tapoco Project in the Smoky Mountains National Park and the 
removal of it from park boundaries. If that occurs, then we can 
consider relicensing this project as it is currently 
configured, and that would make everything just that much 
easier, much more smooth at the commission in terms of what to 
do with this particular project.
    Without this provision, without S. 2319, it is unclear 
exactly what we would do with this particular project. Not 
licensing and taking the project out of license would mean 52 
megawatts of power that is currently being produced by the 
Chilhowee development, which is part of the Tapoco Project, 
would no longer occur. That is nothing that anyone is 
proposing, and so the land transfer appears to be the best 
route.
    If we could put one thing on our wish list with this 
legislation, it would be that it include a provision that 
requires the land exchange to occur by the end of December 
2004. We would request that because the license expires on 
February 28, 2005. That would give us approximately 2 months to 
conclude the licensing process and act on the license 
application prior to license expiration, which is an objective 
the commission has had for some time.
    What that would also do, it would put a time certain on 
when the new licensing provisions could go into play. That 
could include additional flows for recreational purposes, 
additional recreational facilities, and all sorts of 
environmental benefits associated with the relicensing of this 
project.
    I would make one comment in terms of the amendment offered 
by Mr. Hoffman on the NEPA exclusion. If NEPA and the National 
Historic Preservation Act provisions have already been 
satisfied, then we have no difficulty with that proposed 
amendment. If in fact they have not, then I think the bill, as 
it is currently structured, would give us the best shot of 
having the land transfer occur by December 2004, and put us in 
the best position to act on the license application before the 
license expires and thus allow all those other benefits 
associated with relicensing to start accruing to the public.
    Finally, I would like to just say that this is an example 
of how our licensees work with numerous stakeholders. We see 
this all over the country, and I would like to applaud Alcoa as 
an example for how we can relicense significant hydroelectric 
projects to the benefits of both power and the environment. And 
it is significant that we are here this week because, as we sit 
here, across town the National Hydropower Association has 
brought together about 200 to 300 hydro operators who are 
hearing repeatedly, in one session after another, how important 
it is to try to reach settlements and look across issues, both 
developmental and non-developmental to ensure adequate 
licensing of hydroelectric projects.
    Thank you.
    [The prepared statement of Mr. Robinson follows:]

  Prepared Statement of J. Mark Robinson, Director, Office of Energy 
             Projects, Federal Energy Regulatory Commission

    Mr. Chairman and Members of the Committees, My name is J. Mark 
Robinson and I am the Director of the Office of Energy Projects at the 
Federal Energy Regulatory Commission (Commission). I appreciate the 
opportunity to appear before you to discuss S. 2319, the Tapoco Project 
Licensing Act of 2004, which relates to a hydroelectric project 
regulated by the Commission. As a member of the Commission's staff, the 
views I express in this testimony are my own, and not those of the 
Commission.

                               BACKGROUND

    Pursuant to Part I of the Federal Power Act (FPA), the Commission 
is responsible for licensing and relicensing non-Federal hydropower 
projects, managing those projects during their license terms, and 
overseeing the safety of hydropower dams. Section 4(e) of the FPA 
authorizes the Commission to issue licenses for projects which, among 
other things, are located ``upon'' reservations of the United States.
    The Federal Water Power Act of 1920 (FWPA), which in 1935 became 
Part I of the FPA, originally included national parks in the definition 
of ``reservations.'' In 1921, Congress amended the FWPA to remove 
national parks and monuments from the Commission's jurisdiction, and to 
retain in Congress the jurisdiction to authorize the construction of 
dams in parks. In 1935, when the FWPA was amended and became Part I of 
the FPA, Congress revised the definition of the term ``reservation'' to 
state that ``reservations shall not include national monuments or 
national parks.''
    Establishment of the Great Smoky Mountain National Park--was--first 
provided for by a Congressional Act approved on May 22, 1926, with a 
provision specifying that, the provisions of the FWPA did not apply to 
the park.
    The 359.8-megawatt (MW) Tapoco Hydroelectric Project is located on 
the Little Tennessee and Cheoah Rivers in Graham and Swain Counties, 
North Carolina, and Blount and Monroe Counties, Tennessee. The project 
consists of the 49.2-MW Santeetlah Development, located on the Cheoah 
River, and the 118MW Cheoah Development, the 140.4-MW Calderwood 
Development, and the 52.2-MW Chilhowee Development, all located on the 
Little Tennessee River. The project occupies 387 acres within the 
Nantahala National Forest, which is administered by the U.S. Forest 
Service. Notwithstanding the prohibitions discussed above on the 
Commission licensing projects within national parks, the reservoir of 
the Chilhowee project is located in part on one hundred acres of land 
within the Great Smoky Mountain National Park, which is administered by 
the National Park Service.
    The Commission issued the original license for the Tapoco Project 
on March 17, 1955, for a period of 50 years, effective March 1, 1955, 
and expiring on February 28, 2005. The 1955 license authorized the 
construction and operation of the Chilhowee Development, and the 
continued operation of the Calderwood, Cheoah, and Santeetlah 
Developments. The license order did not state that a portion of the 
project would occupy national park land. Moreover, the license 
application, filed on October 25, 1954, states that ``[n]o lands or 
reservations of the United States will be affected by the . . . 
[p]roject.'' A search of the Commission's files has produced no 
information that sheds further light on the matter.
    As I have mentioned, the only portion of the Tapoco Project that is 
located on national park land is a part of the Chilhowee Reservoir. 
When the reservoir, which has a surface area of about 1,734 acres at 
normal full pond elevation of 874.0 feet msl, is at full elevation, it 
inundates approximately 100 acres of national park land.
    Water in the reservoir is stored and released in order to provide 
head for generation at the project. In addition, the reservoir supports 
the second highest recreational use of the four developments, due to 
its proximity to Knoxville, and the availability of several boating 
access points and campgrounds. Also, Chilhowee's upper end supports a 
cold- to cool-water fishery, while the lower portion of the reservoir 
supports a cool-water fishery. The Tennessee Wildlife Resources Agency 
actively manages the upper portion of the reservoir as a stocked put-
and-take trout fishery and stocks catchable sized trout.

                      THE RELICENSING PROCEEDINGS

    On February 21, 2003, Tapoco Division of Alcoa Power Generating 
Inc. (Alcoa) filed an application for a new license for the project. On 
July 23, 2003, the Commission issued a public notice of the 
application. In response to the notice, several agreements in principle 
were filed with the Commission, setting forth the framework of a 
comprehensive settlement agreement among Alcoa, the U.S. Department of 
the Interior, the U.S. Department of Agriculture, the Eastern Band of 
Cherokee Indians, resource agencies of the States of North Carolina and 
Tennessee, local governments, and national, regional, and local non-
governmental organizations, with respect to relicensing the Tapoco 
Project. The parties have indicated to Commission staff that they 
expect to file a settlement agreement with the Commission on or before 
May 14, 2004
    As part of the agreement in principle, Alcoa agrees to convey to 
the Park Service, in fee simple, approximately 200 acres of land 
located outside of the Tapoco Project boundary, and within the 
authorized boundary of the Great Smoky Mountain National Park. In 
return, the Park Service would transfer to Alcoa the approximate 100 
acres of the Great Smoky Mountain National Park inundated by Chilhowee 
Reservoir. If these transfers were accomplished, no portion of the 
Tapoco Project would be located within a national park. However, it is 
my understanding that the Secretary of the Interior must obtain 
Congressional authorization in order to complete the transfers.
    On March 15, 2004, Commission staff issued an environmental 
assessment (EA) for the relicensing of the Tapoco Hydroelectric 
Project.
    The EA states that there is essentially no shoreline development on 
any of the Little Tennessee River mainstem reservoirs other than 
project-related facilities (project works and recreation facilities), 
and some small, public, non-project recreation areas. All of the 
shoreline surrounding the Chilhowee, Calderwood and Cheoah reservoirs 
is owned by Alcoa, the Tennessee Valley Authority, the Forest Service, 
the National Park Service, and the Tennessee Department of 
Transportation. Moreover, with the exception of a few parcels, most of 
the property adjoining the project boundary is also owned by these 
entities. The EA concluded that topography and existing property 
ownership virtually ensure that these reservoir shorelines will 
continue to be protected from future development. Further, nothing 
proposed by Alcoa is expected to change development patterns around the 
reservoir, or the current uses of the reservoir. Finally, as is often 
the case for projects in the southeastern U.S., the EA recommends that 
Alcoa be required to develop and implement a shoreline management plan, 
in order to protect important aquatic and terrestrial habitats and 
cultural sites, and to enhance recreation resources by establishing 
specifications and criteria to ensure that all private and multi-use 
recreation facilities are properly constructed and maintained.
    On the other hand, the EA indicates that, were the reservoir 
lowered to an elevation where it would no longer inundate the Great 
Smoky Mountain National Park, virtually the entire 1,724 acre Chilhowee 
Reservoir would be eliminated, resulting in the loss of the fishery, 
boating, and other recreation opportunities, as well as the annual loss 
of 52.2 MW of capacity, or enough to power about 52,000 homes.
    The EA recommended that the Commission issue a new license for the 
Tapoco Project consistent with the agreements in principle. Comments on 
the EA are due by May 14, 2004.

                        THE PROPOSED LEGISLATION

    S. 2319 would authorize the Secretary of the Interior, consistent 
with the agreements in principle, to transfer to Alcoa the 100 acres of 
national park land that are occupied by the Chilhowee Reservoir, in 
exchange for some 186 acres of land located elsewhere in Great Smoky 
Mountain National Park, or for equivalent land. S. 2319 further states 
that, on completion of the land exchange, the Commission will have 
jurisdiction to license the Tapoco Project.
    The land exchange provided for by S. 2319 will allow the Commission 
to consider Alcoa's proposal to relicense the project in its current 
form, as contemplated by the agreements in principle, without the need 
to address the issue of a portion of the project being located in a 
national park. If the legislation were to provide that the transfer be 
concluded by December 2004, it would help ensure the Commission's 
ability to act on Alcoa's proposal by the date the license expires on 
February 28, 2005.
    Thank you. I will be pleased to answer any questions you may have.

    Senator Thomas. Good. Thank you.
    On that bill, it indicates that Alcoa will grant a 
permanent easement for 6,000 acres in the Great Smoky Mountain 
National Park and Cherokee National Forest, a 40-year 
recreational easement on 4,000 to the Tennessee Nature 
Conservancy. Alcoa has all those acres here. Is that the idea?
    Mr. Hoffman. Yes, sir. They own that acreage in that area.
    Senator Thomas. And so they are going to put a use easement 
on it.
    Mr. Hoffman. Yes, sir.
    Senator Thomas. It also indicates at the end of the bill 
that it authorizes funding necessary. What does that mean?
    Mr. Hoffman. I believe that pertains to just the cost of 
actually performing the land exchange, the surveys, the legal 
document draftings, those sorts of things.
    Senator Thomas. You do not have a number.
    Mr. Hoffman. I do not have a number. I can get that for 
you.
    Senator Thomas. But it is not an ongoing maintenance or 
anything of that nature.
    Mr. Hoffman. No, sir.
    Mr. Robinson. There is also a fall-back position. If the 
land exchange does not occur, the 100 acres for the 186 acres 
designated, that different lands would be proposed by Alcoa 
that might be used in lieu of the 186, and I think there is 
also a further provision that if that did not occur, there 
might be some purchase. And I think those funds may go to that 
as well.
    But the objective is to get the 100 acres exchanged for the 
186, and I think a timeframe associated with that might put 
everybody's attention to that specific purpose.
    Senator Thomas. I guess in that cost thing I was just 
wondering, are they going to pay the Tennessee group for this 
easement? Or do you know? I guess I am interested in the 
financial impact of this.
    Mr. Hoffman. My understanding is that the easements will be 
given to the Nature Conservancy, and I think maybe the Nature 
Conservancy buys the easements. They hope to then sell the 
easements to the National Park Service and/or the Forest 
Service at some point in the future, which will be a separate 
transaction. If neither the Park Service nor the Forest Service 
buys those easements at all in the future and there is another 
renewal or Alcoa determines to dispose of those lands, the 
Nature Conservancy has the first right of refusal to buy those 
lands. So it is hoped by the Nature Conservancy that the 
Federal Government will buy them out of this, but they are 
committed to the long haul.
    I would just add to that the list of participants in this 
agreement is the most impressive list of participants in any 
agreement I think I have ever seen. These are groups that 
oftentimes are at odds with one another. This has been worked 
out over a number of years, and I think represents a huge win-
win opportunity here where we can protect park resources, 
protect national forest resources, restore fisheries, enhance 
recreation, and save nearly 2,000 jobs in eastern Tennessee, an 
area that definitely is in need of those jobs.
    Senator Thomas. Yes, it sounds like a fairly complicated 
thing. We were just discussing, Senator, this--what is it 
called?
    Senator Alexander. Tapoco.
    Senator Thomas. We have just talked about it. If you would 
like to comment on it, we would be happy to have you.

        STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman. Excuse me for 
being late. I was involved in helping to manage a bill on the 
floor, and I am sorry that I was late because this is a subject 
in which I am extremely interested. I have talked with the 
chairman about it.
    I have a statement, Mr. Chairman, which I would like to 
leave for the record, if I may.
    Senator Thomas. It will be in the record.
    Senator Alexander. If I may just say a word about it.
    This land swap, these principles, this agreement which we 
are being asked to approve should be hailed as a model, I 
believe, of cooperation between the industry, communities, and 
conservation groups. This involves, as has been said, about 
10,000 very precious acres. They lie between the Great Smoky 
Mountain National Park, which is the most visited park, 10 
million visitors a year, and the Cherokee National Forest, 
which has another 2 million to 5 million visitors a year.
    The reason Alcoa has them, of course, as I am sure has been 
detailed, is because they got in early, 1913 I think, and built 
four dams very high in the mountains. In fact, in my home town 
of Maryville, the mayor was run out of town for allowing Alcoa 
to come in there with its big aluminum smelter. But, of course, 
it transformed that part of Appalachia, first in terms of jobs. 
People in that region were making probably a third of the 
national average in family income. Today it is 100 percent 
because Alcoa's wages were wages negotiated on a national 
scale. People made good money there. So people were driving 
from all over, Mr. Chairman, to go to work at the Alcoa plant, 
as many as 14,000 people during the war.
    My dad was one of those, and as I grew up with a dad 
working at the Alcoa plant, I also had a chance to earn an 
Alcoa scholarship which are given to children of employees.
    The first reason that I hope that we approve this and that 
the license is renewed for another 40 years is jobs, good 
paying jobs, in the Appalachia region of America.
    The second is conservation. This is an area under a lot of 
pressure. I and most other people who live in east Tennessee 
would welcome the opportunity to have 10,000 more acres to hike 
in and fish in and go to, particularly between the Great Smokys 
and the Cherokee Forest. Just over in North Carolina is the 
Joyce Kilmer Forest, which has some of the biggest hardwoods in 
the Eastern United States.
    So I heard win-win, as I was coming in. It is win-win-win-
win in my book: jobs, conservation, good example. And I want to 
congratulate those conservation groups who have worked for 7 
years on this. I want to congratulate Alcoa for being unselfish 
about its land, and I hope, Mr. Chairman, that we can approve 
this Alcoa land swap. So far as I know, it has enormous, strong 
support in east Tennessee where I live and have grown up, and I 
believe it will be hailed as a model across this country once 
it is culminated.
    Thank you for interrupting so that I could make my remarks.
    [The prepared statement of Senator Alexander follows:]

              Prepared Statement of Hon. Lamar Alexander, 
                      U.S. Senator From Tennessee

    Chairman Thomas, thank you for holding this hearing on S. 2319, 
which I introduced on April 19. This legislation would give 
Congressional approval to an agreement that will save thousands of 
good-paying jobs at the Aluminum Company of America (ALCOA) plants in 
Blount County--and at the same time provide recreational opportunities 
on thousands of acres of ALCOA mountain land for canoeists, hikers and 
fishermen. And, of importance to all of us who enjoy the outdoors in 
East Tennessee and North Carolina, this agreement should help to create 
fuller lake reservoirs during the summer recreation season.
    This agreement is necessary because, since 1913, Alcoa has operated 
dams high on the Little Tennessee River adjacent to the Great Smoky 
Mountain National Park near the border of Tennessee and North Carolina. 
These dams were built before either the Tennessee Valley Authority or 
the Great Smoky Mountain National Park was created. These four dams 
provide half of the electric power ALCOA uses to operate its plants in 
the valley below the mountains in Blount County, Tennessee. ALCOA's 
license to operate these four dams expires next year. The company has 
applied to the Federal Electric Regulatory Commission for a 40-year 
license renewal.
    ALCOA's license renewal application has created widespread interest 
in the Tennessee Valley for two reasons. The first reason involves the 
economic well-being of thousands of current and retired ALCOA workers 
and the communities in which they live. The second reason is that the 
application attracted broad attention from conservation organizations 
because of the opportunity to create recreation opportunities on land 
ALCOA owns in the Little Tennessee River Watershed adjacent to the 
Great Smoky Mountains National Park. Some of this ALCOA land is 
actually within the legislation boundaries of the Park.
    This hydroelectric relicensing is a textbook example of how a major 
American company can work with communities and conservation 
organizations to help Americans keep a high standard of living as well 
as to conserve the environment. Once approved, I expect it to become a 
model for many other companies, communities and conservation groups.
    It is critically important to renew this hydroelectric license for 
another 40 years and keep these good jobs in the Tennessee Valley. 
Without these four dams providing low cost, reliable power, these jobs 
would be gone overnight--probably to ALCOA's plants in Quebec or 
Iceland where the hydroelectric power is plentiful and cheap.
    A critical requirement of obtaining this 40-year license renewal is 
the settlement agreement negotiated by and with a large group of 
interested relicensing stakeholders. The stakeholders include the 
National Park Service, U.S. Fish and Wildlife Service, the Eastern Band 
of Cherokees, state agencies representing Tennessee and North Carolina, 
and numerous non-governmental organizations, local governments, 
homeowners association, and individual citizens.
    Seven years ago, settlement agreement negotiations on the 
hydroelectric facility began. It has taken seven years to work out all 
the issues with all the various interested parties. However, after 
seven years of hard work, a settlement that preserves jobs and protects 
the environment has come forward.
    In order to make the settlement agreement effective, Congress must 
authorize the land exchanges in the settlement agreement. The terms and 
conditions under the settlement agreement will then become terms and 
conditions under ALCOA's hydroelectric license. In order for FERC to 
have legal authority to put the settlement agreement terms and 
conditions in the license, legislation from Congress is required prior 
to FERC making a relicensing decision in August 2004.
    Much of the settlement agreement is focused on the transfer of land 
interests between the Great Smoky Mountains National Park, the U.S. 
Forest Service and ALCOA.
    The legislation has two main components:
    The first component is the authorization of a land swap between the 
Great Smokies National Park and ALCOA. The Great Smokies will transfer 
100 acres of submerged, flooded areas of land in exchange for 186 acres 
of biologically sensitive acreage that ALCOA currently owns inside the 
legislative boundary of the Great Smoky Mountain National Park. Once 
this land swap occurs, FERC can issue the new hydroelectric license.
    The second component is that the legislation permits the National 
Park Service to purchase an additional 6,000 acres of land in the 
future, if the Tennessee Nature Conservancy exercises its option to 
purchase the land.
    Here's how it works. Once FERC issues the new license, ALCOA then 
will grant (for free) to the Tennessee Nature Conservancy a permanent 
easement for 6,000 acres. Once the permanent easement is granted, the 
Tennessee Nature Conservancy will then make it available for hiking, 
fishing, and recreational activities. This 6,000 acres, currently owned 
by ALCOA, is nestled between the Great Smoky Mountains National Park 
and the Cherokee National Forest. In addition, the Tennessee Nature 
Conservancy will then have the option to purchase the 6,000 acres of 
permanent easement from ALCOA and in turn, the Tennessee Nature 
Conservancy will sell the land at fair market value less the valuation 
of the permanent easement to the Great Smokies or U.S. Forest Service.
    The settlement agreement also provides that ALCOA will grant to the 
Tennessee Nature Conservancy a 40-year term easement for an additional 
4,000 acres south of the Great Smoky Mountain National Park along the 
Calderwood Reservoir to the Tennessee-North Carolina border. This 40-
year term easement will expire at the end of the hydroelectric license 
term and return to ALCOA free and clear. Once the term easement is 
granted, these 4,000 acres will then be made available for hiking, 
fishing and recreational activities for the length of the license.
    In addition, the settlement agreement provides millions of dollars 
to enhance the recreational opportunities on the Tennessee River. The 
types of commitments included in the settlement agreement include more 
portage trails for canoeing, better access for hikers and fisherman to 
the Tennessee River, and fuller reservoirs during the summer recreation 
seasons.
    Signatories on the settlement agreement include:

  <bullet> Alcoa, Inc.
  <bullet> American Rivers
  <bullet> Blount County, TN
  <bullet> City of Alcoa, Tennessee
  <bullet> City of Maryville, Tennessee
  <bullet> Eastern Band of Cherokee Indians Great Smoky Mountains 
        National Park
  <bullet> National Parks Conservation Association
  <bullet> North Carolina Department of Environment and Conservation
  <bullet> North Carolina Wildlife Resources Commission
  <bullet> Tennessee Clean Water Network
  <bullet> Tennessee Department of Environment and Conservation
  <bullet> The Nature Conservancy
  <bullet> U.S. Fish and Wildlife
  <bullet> U.S. Forest Service

    Other Supporters of the settlement agreement include:

  <bullet> Blount County Chamber of Commerce and Industry
  <bullet> Blount County Industrial Development Board
  <bullet> TN Great Smokies National Park Commission
  <bullet> TN State House of Representatives

    Mr. Chairman, I strongly support this legislation and I thank you 
for holding this hearing today.

    Senator Thomas. Thank you for being here.
    Before we call on Senator DeWine, do you have any questions 
for this panel?
    Senator Akaka. Yes, I do.
    Senator Thomas. Would you care to go ahead?
    Are you in a timeframe thing?
    Senator DeWine. No, sir.
    Senator Thomas. We will be with you very soon then, 
Senator.
    Senator Akaka. Mr. Chairman, I would like to ask that the 
statement from Senator Graham on the Everglades National Park 
bill, S. 2046, be included in the record.
    Senator Thomas. it will be in the record.
    [The prepared statement of Senator Graham follows:]

          Prepared Statement of Hon. Bob Graham, U.S. Senator 
                              From Florida

    Mr. Chairman, I want to thank you and Senator Akaka for holding 
today's hearing and including S. 2046, a bill I introduced with Senator 
Nelson to authorize a land exchange between Everglades National Park 
and the South Florida Water Management District.
    The land exchange authorized in S. 2046 is necessary for the 
completion of the C-111 Canal project. The project is integral to the 
future of the Comprehensive Everglades Restoration Plan (CERP) and it 
must be constructed before we can begin work on important CERP 
projects.
    I have reviewed the testimony that Mr. Hoffman will give today, and 
I understand that the Department of Interior supports the bill with 
some clarifying amendments. I think that these amendments are 
improvements to the original legislation, and I ask that the committee 
staff work with my staff to make the necessary changes before we take 
this bill to mark-up.
    I also want to thank Ms. Kathy Copeland for traveling from Florida 
to be here today. Ms. Copeland has spent a lot of time working with me 
and my staff and the Department of Interior to draft S. 2046. I want to 
thank her for her work on this bill, and her commitment to Everglades 
restoration in general.
    I have written testimony provided by a number of environmental 
organizations. I ask that this testimony be included in the record.
    Thank you, Mr. Chairman.

    Senator Akaka. Mr. Hoffman, I have two questions. Is it all 
right to proceed?
    Senator Thomas. Yes, sir, please.
    Senator Akaka. Two questions on S. 2046, the Everglades 
land exchange. As I understand the bill, the purpose is to 
transfer just over 1,000 acres to the South Florida Water 
Management District to allow for the completion of the C-111 
project. According to your testimony, the project would, among 
other things, restore park habitat. I would like to ask what 
else the district could do with the land it would receive in 
the transfer. Will it be able to use any of the land for 
purposes that do not benefit Everglades National Park?
    Mr. Hoffman. Senator Akaka, the exchange provides benefits 
to both the South Florida Water Management District and the 
park, but those benefits to the South Florida Water Management 
District go more to preventing flooding of Miami-Dade County. 
Those benefits neither enhance nor hurt the park if they are 
conducted in a way that continues to restore the water flows 
through the Everglades.
    Part of the C-111 project is a construction of a couple of 
bridges that will restore flows into the Shark and Taylor 
Sloughs. Basically the C-111 project predated the Comprehensive 
Everglades Restoration Project. This has been on the books for 
a long time, and the idea is to take water that can potentially 
flood Miami-Dade County, pump it out of the C-111 canal into 
holding ponds, stack the water up, which then under hydraulic 
pressure goes down into the aquifer. It rises back up, part out 
in the park, part out on the Miami-Dade side, and they just 
continue to pump from the Miami-Dade side back toward the park 
side. As that water stacks up, that hydraulic pressure begins 
to create flows that start to restore the ecosystem of the 
whole South Florida complex.
    Senator Akaka. According to your testimony, the district 
will transfer an equal amount of land to the park to conform to 
the Park Service's goal of no net loss of park lands. Are the 
lands that would be transferred to the Park Service important 
from an ecological or cultural perspective, or is the main 
purpose of this addition simply to ensure that the park's 
acreage remains unchanged?
    Mr. Hoffman. It is an attempt to approximate equal habitat 
value, and the lands selected from the South Florida Water 
Management District were selected primarily because those lands 
represented the highest habitat value and most complemented the 
management of the park. Those lands probably are not essential 
to the management of the park but do enhance the management of 
the park.
    Senator Akaka. I am switching to S. 2319. According to Mr. 
Robinson's statement, if the exchange were completed by this 
December, it would help ensure that the Federal Energy 
Regulatory Commission could act on the license renewal in a 
timely manner. Do you see any problem with the Park Service 
being able to complete the exchange by the end of the year?
    Mr. Hoffman. No, sir. I do not think that poses a problem 
at all.
    Senator Akaka. Mr. Hoffman, this is on S. 1092. The 
administration opposes S. 1092 which authorizes the Interior 
Department to maintain a data base of veterans and war 
memorials. According to your testimony, the Department is 
concerned that the added responsibility of maintaining a data 
base would take away resources from other park funding 
priorities. Since, according to your testimony, the Park 
Service already maintains an inventory of over 3,700 monuments, 
memorials, and markers, how much do you expect it would cost to 
maintain a data base that includes the non-Federal memorials?
    Mr. Hoffman. Senator Akaka, no estimates are available to 
address that cost because there really is no way to assess how 
many markers or memorials or monuments there are out there to 
be included in a data base. The only way to do it is to wear 
soles off shoes and get out and beat the street. That takes 
people and that takes money. You are talking about a very 
extensive process that is virtually impossible for us to gauge 
the expense of.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, sir.
    Thank you, gentlemen. We appreciate it.
    Senator DeWine, welcome. Glad to have you here.

          STATEMENT OF HON. MIKE DeWINE, U.S. SENATOR 
                           FROM OHIO

    Senator DeWine. Mr. Chairman, thank you very much. Thank 
you for including S. 1748, the Presidential Sites Improvement 
Act in this afternoon's hearing.
    Mr. Chairman, across this country there are a number of 
sites that are associated with our former Presidents. These are 
homes where former Presidents have been born. These are homes 
that are uniquely associated with the Presidents. Sometimes 
these are Presidential libraries. What they all have in common 
is that none of them are owned nor maintained by the Federal 
Government. They are maintained many times by local historical 
societies, nonprofit organizations, sometimes by State 
historical societies.
    There are many, many of them. I have a two-page list here 
in front of me. I just counted through here. It looks like 
there are 60 or 70 different sites associated with different 
Presidents.
    The challenge is that many of these wonderful sites are 
supported by organizations that do not have very much money, 
and so when you go to these sites, sometimes you will see that 
they are in great need of repair. What our bill does is it 
simply authorizes up to--up to--$5 million a year to be used 
for the expenditure of the maintenance of these sites. It 
provides a mechanism by which a board would be appointed to 
decide how this money would be spent, and this would be done on 
a yearly basis. It provides for a 50 percent match from the 
local money that would have to be generated, along with the 
Federal dollars.
    Let me just point out what this bill does not do, and I 
think it is important to set the record straight here today. 
This bill does not provide for the Federal Government to take 
over any of the ownership or the running or the maintenance of 
any of these sites. The Federal Government should not do that. 
The Federal Government has enough to do and this committee 
knows better than any other committee in the Congress the great 
burden the Federal Government already has.
    I think the unique blend that we already have in this 
country of the Federal Government owning a few of the 
Presidential sites, maintaining them, but yet probably the bulk 
of the Presidential sites actually now being maintained locally 
is just a fine mix.
    But what this bill does is take a relatively small amount 
of money and say that we are going to match that with a local 
initiative, locally generated money to preserve these sites and 
to make sure these sites will be there for our children and our 
grandchildren and our great grandchildren.
    In Ohio we are fortunate that we have a number of these 
sites. A good many of them are in local hands. They are not 
maintained by the Federal Government at all. Unfortunately, we 
have had a struggle in Ohio. We have seen some of these sites 
that are--the great front porch campaign of Warren G. Harding. 
That front porch in Marion, Ohio was kind of falling down. We 
have had a problem getting money to repair that. And there have 
been other examples.
    But that is what this bill does. It is a pretty simple 
bill, and I will just stop at this point and ask your 
consideration of the bill. But I just wanted to make it very 
clear what the bill does and what it does not do. It is a 
pretty simple and straightforward bill, but it does not call 
for the Federal Government in any way, shape, or form to take 
over these sites or to take over the maintenance. It is very 
limited, very narrow focus in what it does. But the limited 
amount of money that this bill would provide I can tell you 
from my own experience of what I have seen in Ohio would go a 
long, long way to preserve these sites for our kids.
    I thank the chair.
    Senator Thomas. Thank you, Senator. I appreciate it very 
much.
    Let us go on then to our second panel: Mr. Brian Rooney, 
president of the RVETS, Remembering Veterans who Earned 
Stripes; Mr. Randall Overbey, president, Primary Metals, Alcoa; 
Ms. Faye Phillips, associate dean, Special Collections 
Facilities, Louisiana State; Richard Moe, president, National 
Trust for Historic Preservation; Kathy Copeland, director of 
policy and legislation, South Florida Water Management 
District; and John Nau, Chairman of the Texas Historical 
Commission and chairman of the Advisory Council on Historic 
Preservation.
    I thank all of you for coming. We will include your total 
statements in the record. So if you feel inclined to sort of 
capsulize it in 5 minutes or less, that would make us all very 
happy I suspect. So, Mr. Rooney, would you like to begin?

STATEMENT OF BRIAN ROONEY, PRESIDENT, REMEMBERING VETERANS WHO 
              EARNED THEIR STRIPES, NORTHRIDGE, CA

    Mr. Rooney. Thank you, Mr. Chairman, Senator Akaka.
    My name is Brian Rooney. I am a twice disabled Vietnam 
veteran, the father of six children, and I teach in the Los 
Angeles Unified School District. I thank you for inviting me 
here to testify on behalf of this important legislation.
    In 1970 I was an Army medic in Vietnam performing triage on 
a helipad. I had a couple of wounded that I helped, and there 
was another GI that was badly wounded and I presumed him to be 
dead. I did not like the idea of Americans dying in a foreign 
land without me calling them by their name. So when I was 
finished with the others, I leaned over his mortally wounded 
body to get his name off his dog tag. And as I leaned over, he 
opened his eyes, grabbed my shirt, pulled me down, and said, 
remember me. Then he was gone.
    So for about 23 years after that, I was cursed to remember 
that soldier, in fact, haunted by the faces of many American 
dying soldiers.
    In 1993 that curse slowly began to turn into a blessing. I 
was doing consulting for a California utility and I had 
occasion to try to find some veterans memorials around town. 
After much research, I discovered that there was no 
comprehensive cataloguing of war memorials anywhere in America.
    So over the next 9 years, I sent out about 40,000 letters 
to every municipality, veterans group, patriotic group in 
America asking them simply where the memorials were in their 
town. I received in return tens of thousands of faxed pages 
offering data on the existence and location of about 8,600 war 
memorials in 50 States.
    As the data rolled in, however, a disturbing trend began to 
emerge. Way too many memorials were reported lost, vandalized, 
or were just given up to apathy. The thought of throwing a 
veterans memorial out with the trash was quite simply 
unacceptable. So I started RVETS, a nonprofit 501(c) 
organization, with the mission of monitoring veterans memorials 
annually and taking steps to restore or save those in jeopardy.
    I had the honor in the year 2000 to help write H. Con. Res. 
345 which was a sense of Congress acknowledging the work of 
RVETS and calling on America to honor the memory of those 
courageous soldiers of war who gave their lives for our 
freedom. The bill passed and was signed into law.
    During the course of all this activity, including countless 
thousands of phone calls, e-mails, letters, and faxes, it 
dawned on me that most people are uninspired by a chunk of 
concrete or brass. It is the person that we erect a memorial to 
and it is that person that we are memorializing. Unfortunately, 
time seems to erode our memory. So I decided that I will tell 
the personal story of every individual named on every memorial 
in America from the Revolutionary War to the present. As you 
know, there is a memorial here in town that has 58,000 names on 
it and 58,000 stories to tell. But if someone died for our 
freedom, I intend to tell their story.
    That soldier that died in my arms in Vietnam created a deep 
scar in my heart, but in the course of time, I have come to 
realize that he is much more than a single, nameless GI that 
died on the battlefield far from home. Through this 
legislation, that brave, young American becomes every American 
that ever died for freedom, whether at Concord, Gettysburg, 
Korea, or North Africa, on the shores of Omaha Beach or in the 
streets of Baghdad.
    If I observed somebody defacing a Vietnam memorial, I think 
we might have a fight on our hands. My father landed at 
Normandy Beach, fought his way across Europe, and liberated a 
concentration camp. So again, if I saw a World War II memorial 
in jeopardy, I think I would be pretty upset.
    But who cares for the War of 1812 memorial or the Spanish 
American war memorial? They are so far removed from our 
conscious thought. Who then will champion the cause of those 
Americans who bled and died on the battlefield of freedom? Who 
will take up the fight to preserve those national treasures, 
and more importantly, who will tell the story of their courage 
and sacrifice for us?
    With a national archive, housed in the U.S. Park Service 
website, Americans will for the first time have access to the 
location, the condition, and information of every memorial in 
America, as well as a treasure-trove of incredible stories of 
patriotism at its grandest heights.
    In a sense, every American who died in war from the 
Revolutionary War to the present war on terrorism is reaching 
up now to you, grasping your shirt, and pleading, remember me.
    By enacting S. 1092, you would not only preserve and honor 
the memory of members of our armed forces, but you would also 
contribute to the education of our children, to chronicle our 
great American history, to promote a sense of patriotism, to 
facilitate genealogical research, and to benefit the 
preservation efforts.
    I would be glad to answer any questions. Thank you very 
much, sir.
    [The prepared statement of Mr. Rooney follows:]

  Prepared Statement of Brian Rooney, President, Remembering Veterans 
                Who Earned Their Stripes, Northridge, CA

    Mr. Chairman, Senator Akaka, Committee members, my name is Brian 
Rooney, I am a twice disabled Vietnam veteran, the father of six 
children, and a teacher in the Los Angeles Unified School District. 
Thank you very much for inviting me to testify today on behalf of this 
important legislation.
    In 1970 I was an Army medic in Vietnam performing triage on a 
helipad. I had treated a couple of wounded, but there was one GI who 
was badly wounded and I presumed him to be dead. I didn't like the idea 
of Americans dying in a far away land without me calling them by their 
name, so after taking care of the others, I leaned over his mortally 
wounded body to get his name off his dog tag. As I leaned over him he 
opened his eyes, grabbed my shirt, pulled me down close to him, and 
said ``Remember me . . . .'' And then he was gone.
    For more than twenty three years those words were a curse to me 
because I did in fact remember that soldier's face, as well as the 
faces of many other dying Americans. Then in 1993 that curse slowly 
began to turn into a blessing.
    While doing consulting for a California utility I had the occasion 
to try to locate some veterans memorials around town. After a great 
deal of research I learned that there did not exist in America any 
comprehensive archive of war memorials.
    So over the following nine years I sent out more than 40,000 
letters to every municipality, veterans group, and patriotic group in 
America asking them where the memorials were in their town. I received 
in return tens of thousands of faxed pages offering data on the 
existence and location of about 8,600 veterans memorials in the fifty 
states.
    As the data rolled in however, a disturbing trend began to emerge. 
Way too many of the responses spoke of an old memorial that was moved 
or vandalized, or simply lost to apathy. The thought of throwing a 
veterans memorial out with the trash was quite simply unacceptable, so 
I created RVETS, a non-profit 501-C organization with the mission of 
monitoring veterans memorials annually and taking steps to restore or 
save any memorials that might be in jeopardy.
    I had the honor in the year 2000 to help write HR345 which was a 
sense of Congress acknowledging the work of RVETS and called on America 
to honor the memory of those courageous soldiers of war who gave their 
lives for our freedom. The bill passed and was signed into Public Law 
106-511 title 3. (attached)*
---------------------------------------------------------------------------
    * All attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
    During the course this activity, including countless thousands of 
phone conversations, emails, letters, and faxes, it dawned on me that 
most people are uninspired by lifeless chunks of concrete or brass. 
It's the person that we erect a memorial for and its the person that we 
are memorializing. Unfortunately time seems to erode our memory. So I 
decided that I will tell the personal story, of every individual named 
on every memorial in America. As you know there is one memorial here in 
town that has 58,000 names on it and 58,000 stories to tell. But if 
someone died for our Freedom I intend to tell their story.
    That soldier that died in my arms in Vietnam created a deep scar in 
my heart, but in the course of time I have come to realize that he is 
much more than a single, nameless GI that died on a battlefield far 
from home. Through this work and legislation, that brave young American 
becomes every American that ever died for freedom, whether it was at 
Concord, or Gettysburg, Korea or North Africa, on the shores of Omaha 
beach or the streets of Baghdad.
    Several years ago I realized that if I observed someone defacing a 
Vietnam memorial, we would have a fight on our hands. My father fought 
in WWII landed at Normandy Beach, fought his way across Europe, and 
liberated a concentration camp. So again if I saw a WWII memorial being 
vandalized or neglected I would be pretty upset. But who cares about 
the War of 1812 memorial, or the Spanish American War Memorial, they're 
too far removed from our conscious thoughts. Who then will champion the 
cause of those Americans who bled and died on the battlefield of 
freedom. Who will take up the fight to preserve those national 
treasures, and more importantly, who will tell the stories of their 
courage and sacrifice for us.
    We are the posterity that they were talking about.
    With a national archive housed on the US Park Service website 
Americans will for the first time have access to the location, 
condition, and information of every memorial in the country, as well as 
a treasure-trove of incredible stories of patriotism at its grandest 
heights.
    In a sense every dying American soldier from the Revolutionary War 
to this present War on Terrorism is reaching up now to you, grasping 
your shirt, and pleading, Remember Me . . . .
    Then he was gone.

                         TRIBUTES TO PATRIOTISM

    Courageous men and women have fought and died for this great 
country from before the signing of the Declaration of Independence to 
today's War on Terrorism. We are approaching close to one million 
Americans who have given their lives to preserve our freedom. To 
commemorate their sacrifice states, counties, cities and towns across 
America have erected tributes to the heroism of these patriots of 
freedom. While those memorials were intended to be permanent, many are 
lost every year. Some are lost to neglect, others to vandalism, some to 
redevelopment, and some to apathy. RVETS has worked for more than ten 
years with the goal of first cataloging the tributes, then monitoring 
the condition of memorials, and ultimately to tell the story of each 
and every hero represented on the tributes.
    The risk of losing these memorials is real. We have received 
letters and faxes from virtually every state telling stories of 
memorials lost.
    The process of collecting information about our nation's tributes 
to our patriots began with a vision--a vision that never again will a 
memorial or permanent tribute be lost or forgotten. The work done by 
RVETS since 1994 is but one step toward a larger effort that will 
enable the public to obtain information about any memorial. It will aid 
historians in their research about specific conflicts as well as 
helping families seek information about their ancestors. It will 
rekindle a sense of patriotism and encourage every American to reaffirm 
their appreciation of our heritage.
    As one staff member at the Library of Congress said of the project, 
``Your work will change for the better the way Americans view their 
country over the next fifty years.''

                               EDUCATION

    I teach in the Los Angeles Unified School District and I am always 
appalled at the people that our children choose to be their heroes and 
role models. One facet of this legislation is that every school in 
America will have access to the incredible stories of courage and 
bravery demonstrated by the heroes of liberty from their own home town. 
So that History teacher when teaching on say WWII can include the story 
of an American hero that may have gone to that very school, and their 
name may be found on the memorial right up the street.
    History comes alive when you can bring it home to where the 
students live. In Ohio an eagle scout discovered in the 1990's that 
four soldiers from their town died in WWI, and that they all lived on 
the same street. That young eagle scout spearheaded an effort to build 
a memorial on that street to those brave Americans who gave their lives 
for their country more than 50 years before he was even born.
    How many children will discover their great and noble heritage on 
this website in future generations.

                              ROLE MODELS

    Desmond Doss was a medic with a Ranger unit in WWII. They had 
scaled a cliff and engaged the enemy on the plateau above. But they 
underestimated the strength of the enemy and were utterly decimated in 
the ensuing battle causing them to retreat. Desmond Doss however, 
returned to the open ground amidst automatic fire and mortar rounds to 
retrieve a wounded GI. Desmond carried the soldier to the cliff, tied a 
rope around him, and lowered him to safety below. This was a courageous 
act and worthy of a medal, but Desmond was uninterested in medals at 
the time, because he returned a second time exposing himself to enemy 
fire to carry another GI to safety. This second act of bravery might 
have earned him the Congressional Medal of Honor, but again Desmond's 
focus was on doing his job which was saving lives. Well this great 
American hero that most Americans have never even heard of returned 
alone to that battlefield 72 times!!!! Carrying 72 American wounded 
back to the cliff, tying a rope around 72 GI's, lowering 72 of them to 
safety below.
    Henry Johnson was an African American in the New York National 
Guard during the first World War. His unit trained with broomsticks on 
the streets of New York City. They were reluctantly sent to the war in 
Europe, but were given non-combat duties. The French army needed 
reinforcements and this black unit was the only one available. Henry 
Johnson and his buddy Nedham Roberts were in a forward observation post 
when they were overrun by about thirty German soldiers. They were shot, 
gassed, and grenaded leaving Henry wounded 21 times and unconscious. 
The German troop carried Nedham Roberts off as a prisoner. When Henry 
came to he saw his friend being taken prisoner, so despite his 21 
wounds, including a shattered leg, he pursued the troop and overtook 
them. Henry then single-handedly engaged the force firing his rifle at 
four of the enemy, using his bayonet on several more, and finally 
pulling out his bolo knife and slashing his way through the German 
troop toward his friend. After killing or wounding as many as 15 of the 
enemy, the rest of the German troops wisely decided to run leaving 
Henry with his buddy Nedham Roberts. This was certainly an incredible 
act, but even more incredible is the fact that these two terribly 
wounded American soldiers did not seek medical attention, but in fact 
returned to their post and finished out the remaining six hours of 
guard duty. Henry Johnson's memorial is in Albany, New York.
    We've seen in movies a soldier dive onto a hand grenade sacrificing 
his life to save his buddies. Well in the real world it seems that a 
person would have to think hard for a while to decide whether he should 
die for his friends or not. Yet that instantaneous decision to give 
ones life for his friends has happened literally hundreds of times in 
the archives of American history.

                              HISTORY LOST

    In Ione, California there was a WWI Honor Roll, this is a memorial 
that lists the names of Americans that gave their lives for our 
country. RVETS had heard that this memorial existed and tried to 
catalogue it. To our surprise we were told that sometime in the 1950's 
the city hall, where the eight by four foot plaque hung, was torn down 
and the plaque moved up the street. A few years after that it was put 
in the mayor's garage, and ultimately lost. So that tribute to those 
brave Americans who willingly went off to war to fight for freedom's 
cause, was shuffled around like a piece of rag eventually to be cast 
off to the trash heap.
    An RVETS associate was at a demolition site of a Texaco plant. He 
noticed in the rubble a brass plaque, so he walked over to it and 
picked it up. To his shock it read in part, ``. . . to the memory of 
our Texaco workers who gave their lives for our freedom . . .'' It 
seems that the memory of a life sacrificed was short lived. Thankfully 
that tribute was redeemed from the junk pile and now hangs in a place 
of honor at Patriotic Hall in Los Angeles, California.
    There are hundreds of such stories of memorials lost. According to 
recent VA statistics we are also losing veterans at a rate of 1800 a 
day. These veterans are taking with them the stories that our children 
can benefit from, there is a great sense of urgency.

                               GENEALOGY

    Americans will be able to go to the US Park Service website and 
input their family surname and instantly see where in the United States 
their ancestors' names appear on a veterans memorial, as well as their 
story.
    A family in California contacted RVETS asking for the location of a 
memorial somewhere in the South Pacific. All they had was a photograph 
of the father of a sailor killed in the Pacific standing next to a 
memorial with the son's name on it, the picture was taken in the early 
1950's. I located the memorial and 48 members of the family took a 
pilgrimage to the site, to pay homage and tell the children and 
grandchildren about the uncle that they never knew. (Story included in 
L.A.Times article).
    RVETS has received numerous inquiries from people seeking long lost 
relatives and friends who were separated by wars.

             VETERANS AND COMMUNITY ORGANIZATIONS' EFFORTS

    In 1994 in an effort to assist in the upkeep of veterans memorials 
in California, I discovered that there was no statewide directory of 
memorials. I then attempted to find California's veterans memorials in 
a national directory. None existed. I decide that there should be a 
comprehensive and complete list of the permanent tributes throughout 
this country that have been dedicated to the men and women who made the 
ultimate sacrifice and paid the ultimate price for their country.
    Since then, I have worked to build a complete, comprehensive list 
of every tribute to armed conflict in the United States. I have sent 
out more than 40,000 letters to veterans organizations and 
municipalities throughout the United States. I have sent a letter of 
inquiry to every State, city, village, borough, parish, hamlet, town--
anyone who may have knowledge of where a memorial might be in any of 
the fifty states. The responses I received range from detailed 
descriptions of memorials, including the names and histories of those 
honored, to a simple, ``Yes, we have one in town''. To date, I have 
catalogued more than 8,600 permanent tributes honoring military 
conflicts and those who have served our nation in 50 states.
    During this time, I founded RVETS (Remembering Veterans who Earned 
Their Stripes), a non-profit 501(c) organization dedicated to creating 
a national directory of veterans memorials in America and monitoring 
the condition of the tributes annually. To the best of my knowledge, 
this directory is the only one of its kind in the United States.
    Over the years I have approached and worked with many other 
veterans and community organizations on this project. I have included 
with my testimony examples of support I have received from 
organizations like the Veterans of Foreign Wars, the American Legion, 
the Minority Officers Assn., and the Boy Scouts of America. While RVETS 
has maintained the lead role in identifying, researching, cataloging, 
and monitoring the nation's tributes to our Armed Forces, we recognize 
the important role that federal assistance would play.
    Since 1994, RVETS has been at the forefront of this effort. We 
believe that locating, cataloging, and monitoring permanent tributes, 
as well as telling the stories of American heroes, will provide 
enormous benefits not only to the 30 million veterans throughout the 
country, but to our young people who can learn about our rich heritage, 
to our senior citizens who remember the sacrifices that they and their 
neighbors made during WWII and the Korean War. And to my generation, 
the Vietnam Veteran, who served proudly and with distinction along with 
the veterans of other conflicts.

              FEDERAL ASSISTANCE WOULD BE A GREAT BENEFIT

    To address the risk of losing more memorials, former Congressman 
Jim Rogan introduced HconRes345 on June 6, 2000. The resolution 
expressed the sense of Congress regarding the need for cataloging and 
maintaining public memorials commemorating military conflicts of the 
United States and the service of individuals in the Armed Forces.
    On July 26, 2000 the Committee on Resources met to consider the 
bill. No amendments were offered and the bill was ordered, favorably 
reported to the House of Representatives by unanimous consent.
    On September 19, 2000 the House of Representatives passed the 
resolution by voice vote on the Suspension Calendar. During its 
consideration, Chairman Jim Hansen stated, ``Thousands of public 
memorials dealing with the United States' involvement in military 
conflicts exist throughout the world. However, there is no index or 
record as to their location nor is there a catalogued assessment as to 
their condition. Unfortunately, many of these memorials suffer from 
neglect, disrepair, or have been relocated or stored in facilities 
where they are not accessible to the public.''
    Rather than independent consideration by the Senate, the Resolution 
was included in Senate Majority Leader Tom Daschle's S. 964, the 
Cheyene River Sioux Tribe Equitable Compensation Act which became 
Public Law 106-511.
    Under current law, several branches of the federal government 
monitor and maintain federally funded memorials to the service of our 
armed forces. For example, the Department of the Interior is 
responsible for about 27 federally funded war memorials. But the 
Department does not keep track of non-federally funded tributes. 
However the same resources currently deployed to catalog federal 
memorials could be used to catalog non-federally funded memorials. 
Additionally, the Department of Veterans Affairs is responsible for 
cataloging, monitoring, and maintaining memorials within the 120 
National Cemeteries throughout the country. Yet it does not keep track 
of non-federally funded tributes, nor the tributes outside of their 
cemeteries.
    S. 1092, if enacted into law, would coordinate these disparate 
efforts in one program and collect all of the information in one 
location so it is easy for the public to access. The responsible 
federal agency would work with community groups and other federal 
agencies to collect data on the nation's tributes to service in the 
Armed Forces. The data would be collected, verified, and make available 
on the Internet so veterans', students, and anyone else interested 
could access it at their convenience.

                          BENEFITS OF S. 1092

    The benefits of S. 1092 to the nation are many and far reaching. It 
will:

    1. Honor the Armed Forces: By creating a comprehensive catalogue of 
tributes to Patriotism. S. 1092 will demonstrate to America's Armed 
Forces and veterans that their sacrifices are appreciated and 
remembered.
    2. Help to Educate America's Children: High school students are now 
studying U. S. history without the benefit of knowing those courageous 
heroes of freedom in their own town. Maybe from the very school that 
they are attending. The students and their teachers will have access to 
the stories of courage and honor from names on their home town 
memorials. Classes may take learning walks to the memorials in town and 
teachers could bring history to life by relating the stories that S. 
1092 will provide. RVETS has already received inquiries from high 
schools who assign students to research the biographies of the names on 
the memorials in their town. This creates a sense of community as well 
as a heightened sense of patriotism.
    RVETS has received a series of correspondence from the University 
of Pisa, Italy who's students were doing Masters dissertations on 
United States wars And were seeking information on specific battle 
monuments.
    3. Aid in Chronicling Our History: S. 1092 will provide a framework 
that will promote cooperation between public and private efforts. RVETS 
has established a working relationship with the Library of Congress to 
share information. The LOC is currently conducting a program of video 
interviews with World War I and II veterans to create a video history 
of the World Wars. We feel a sense of urgency because our veterans of 
war are now dying at a rate of more than one thousand a day. Their 
stories of courage, commitment, and of patriotism are dying with them.
    4. Promote Patriotism: S. 1092 will increase awareness in our youth 
to the sacrifices that have been made for the liberties that we all 
enjoy. This will be accomplished in a proactive manner by distributing 
to every school district a copy of the stories of their local home town 
heroes of war. This information can be used in history and government 
classes. RVETS has already begun to perform this service, and it has 
worked successfully in concert with the ``Veterans in the Classroom'' 
program.
    5. Facilities Genealogical Research: S. 1092 will help families to 
teach their younger members about their unique history. RVETS intends 
to record every name on every memorial in America and include that 
information in the database. That number will be enormous, but the 
benefits will be equally significant. People will be able to input 
their family surname or ancestor and immediately find the locations of 
every tribute in America that bears that name. Much like the family who 
made the pilgrimage to Hawaii, the database can also satisfy families' 
needs for resolution and closure for their lost loved ones.
    6. Benefit Preservation Efforts: S. 1092 intentionally does not 
authorize the federal government to maintain America's memorials. 
However, without a comprehensive directory of memorials, Americans have 
no way of knowing if one is in jeopardy.
    RVETS has received numerous reports of neglected memorials. We 
simply call the local veterans and patriotic groups who in turn take 
care of the site themselves.
    Additionally, the memorials will include a photograph, whether in 
pristine condition or neglected. Most cities would prefer to be 
represented by a well kept memorial.

    Senator Thomas. Thank you. Congratulations on your effort 
and your work.
    Mr. Moe.

  STATEMENT OF RICHARD MOE, PRESIDENT, THE NATIONAL TRUST FOR 
                     HISTORIC PRESERVATION

    Mr. Moe. Thank you, Mr. Chairman, Senator Akaka, for the 
opportunity to appear before you today. Mr. Chairman, let me 
thank you especially for your support of historic preservation 
in our parks and beyond. You have been an inspiring leader for 
us in many ways.
    I will be very brief because Senator DeWine really made a 
very effective case for this bill that he has introduced, but I 
want to say just a few words.
    I am the president of the National Trust for Historic 
Preservation, and the stewardship of the country's most 
historic places such as Presidential sites goes to the very 
heart of the National Trust's 1949 congressional charter. It is 
a private, nonprofit membership organization dedicated to 
protecting the irreplaceable.
    This mission includes Presidential sites across the 
country, three of which we operate as part of our inventory of 
National Trust historic sites. These include Virginia's 
Montpelier, the home of James Madison; the Woodrow Wilson House 
where in Washington, DC; and President Lincoln's summer cottage 
at the Soldiers' Home, also in Washington.
    All too often in our efforts to protect important places 
chronic underfunding that leads to deferred maintenance 
deprives the Nation of its most important patrimony, which is 
its heritage. Whether postponed maintenance results in the loss 
of historic fabric or prevents important artifacts and exhibits 
from reaching the public, good preservation and proper 
interpretation are integral to our responsibility for the 
stewardship of cultural resources. Arguably nowhere is this 
more important than caring for America's Presidential legacy 
from the iconic homes of our greatest leaders to some of the 
humble places in which they were born. Senator DeWine, along 
with Senators Durbin and Voinovich, understand this 
responsibility, and their bill would target these sites in 
particular with small matching grants to address urgent 
maintenance needs, modernization, and accessibility 
requirements, and interpretive improvements for the greater 
public appreciation of each location.
    More importantly, the bill would direct a relatively modest 
amount of funding to the places that need it the most, and 
through a matching requirement help invigorate efforts to raise 
private dollars that are essential to meeting the needs of the 
most important historic sites. Awards made available under S. 
1748 would not go to federally owned Presidential sites, nor 
would they be used for operating purposes. Project-based funds 
would only be available to locations where the need is often 
the greatest, those that are run by often financially 
struggling State and local governments, private groups, local 
historic preservation organizations, schools, and foundations. 
The American Association for State and Local History documents 
133 Presidential historic sites nationwide, with only 45 of 
those run by the National Park Service and the Federal 
Government. So about two-thirds of the inventory falls into the 
categories covered by the bill, including 23 Presidential sites 
that are State-run. Most of this inventory is pretty modest, 
and just staying open is often a challenge for many of them.
    Senator DeWine's bill is more important now than ever. 
Funding for historic preservation, especially at the State and 
local level, has been cut to the bare bones, and this coincides 
with an equally tough climate for foundation-giving and Federal 
dollars that would augment the cost of maintaining and 
operating an historic site. Let me just give you one example 
that reflects the condition affecting many historic sites, 
particularly those 23 sites that are operated by States.
    The National Trust survey of State historic funding shows 
that from fiscal year 2001 to 2002, the Ohio Historical 
Society's budget has been cut 17 percent by almost $2.5 
million. During the same period, annual appropriations for the 
Ohio Historic Preservation Office were reduced by 20 percent, 
nearly $86,000. There are three State-run Presidential sites in 
Ohio that are affected by this.
    Let me just correct several impressions that I think were 
left by Secretary Hoffman, if I may. He said that there is 
plenty of opportunity for fund-raising in the private sector 
from foundations and other sources for these sites. That is 
increasingly difficult, as you know, given the economic 
downturn and the reduced portfolio of many of these 
foundations. It is much more difficult than ever before to 
access these kinds of funds.
    I also want to correct the impression that Senator DeWine 
also addressed. This bill does not ask the National Park 
Service to take over the management of these sites. The only 
thing that the bill asks is that the Park Service administer a 
very small grant program, and the National Park Service today 
already administers a number of grant programs. So this would 
not be too great a burden administratively.
    Finally, he said that this would be too large an obligation 
for the National Park Service to take on. Well, this is $5 
million for some of our most important historic sites, and I 
think the small grants provided here can make the difference 
between survival and prosperity.
    Now, why should Presidential sites be treated differently? 
Well, I think for a very basic reason. We do not have royalty 
in this country. We do not have castles. These Presidential 
sites really represent the most important part I think of our 
political history at least and also our cultural history. These 
places tell important stories.
    So, Mr. Chairman, I thank you for the opportunity, and I 
strongly urge your consideration of this bill.
    [The prepared statement of Mr. Moe follows:]

 Prepared Statement of Richard Moe, President, The National Trust for 
                         Historic Preservation

    Thank you, Chairman Thomas, and members of the Subcommittee for the 
opportunity to bring you today the views of the National Trust for 
Historic Preservation in support of S. 1748, ``the Presidential Sites 
Improvement Act.'' Let me begin by acknowledging the Chairman's long 
record of support for historic preservation. I look forward to 
continuing our close working relationship on issues of mutual concern. 
Your commitment to the important issues facing our heritage is evinced 
by raising the Presidential Sites Bill to the Subcommittee's agenda. 
The stewardship of the country's major historic places such as these 
goes to the very heart of the National Trust's 1949 Congressional 
charter.
    The National Trust is a private, nonprofit membership organization 
dedicated to protecting the irreplaceable. This mission includes 
Presidential sites across the country, three of which we operate as 
part of our inventory of the ``National Trust Historic Sites.'' Those 
include Virginia's Montpelier, the home of James Madison that is 
currently undergoing a massive restoration; the Woodrow Wilson House in 
Washington, DC; and President Lincoln's summer cottage at the 
``Soldiers' Home'' also in this city. As recipient of the Humanities 
Medal, the Trust provides leadership, education, and advocacy to save 
America's diverse historic places and revitalize communities. Its staff 
headquartered in this city, six regional offices, and 25 Historic Sites 
work with the Trust's 200,000 members and thousands of local community 
groups in all 50 states.
    All too often in our efforts to protect the irreplaceable, chronic 
under-funding that leads to deferred maintenance deprives the nation of 
its most basic patrimony--our heritage. Whether postponed maintenance 
results in the loss of historic fabric or prevents important artifacts 
and exhibits from reaching the public, good preservation and proper 
interpretation are integral to our responsibility for the stewardship 
of cultural resources. Arguably, nowhere is this more important than 
caring for America's Presidential legacy from the iconic homes of our 
greatest leaders to some of the humble places in which they were born. 
Senator DeWine along with Senators Durbin and Voinovich understand this 
responsibility, and their bill would target these sites in particular 
with matching grants to address urgent maintenance needs, modernization 
and accessibility requirements, and interpretive improvements for 
greater public appreciation of each location.
    More importantly, the bill would direct a relatively modest amount 
of funding to the places that need it most and--through a matching 
requirement--help invigorate efforts to raise the private dollars that 
are essential to meeting the needs of most historic sites. Awards made 
available under S. 1748 would not go to federally owned Presidential 
sites nor would they be used for operating costs. Project-based funds 
would only be available to locations where the need is often greatest--
those that are run by often financially struggling state and local 
governments, private groups, local historic preservation organizations, 
schools, and foundations. The American Association for State and Local 
History documents 133 Presidential historic sites nationwide with only 
45 run by the Federal government. So, about two-thirds of the inventory 
falls into the categories covered by the bill including 23 Presidential 
sites that are state-run. Most of this inventory is pretty modest and 
just staying open is often a major achievement for many sites.
    Moreover, the bill would place added emphasis on the smaller, 
lesser-known, Presidential site by reserving 65 percent of available 
funds for locations that have a three-year annual operating budget 
averaging under $700,000. It is easy to assume--simply by virtue of 
being part of our Presidential heritage--that a related site is well-
funded and adequately endowed. This is not necessarily the case, 
particularly among the places that this bill would emphasize--those 
that are immensely important to telling the complete story of a chief 
executive's historical role, but not traditionally associated with the 
prominence of Mount Vernon or Monticello. These include law offices, 
retreats, birthplaces, burial sites, memorials, and tombs.
    Senator DeWine's bill is important now more than ever as two 
significant national trends converge. First, funding for historic 
preservation, especially at the state and local level, has been cut to 
its bare-bones. This coincides with an equally tough climate for 
foundation giving and federal dollars that would augment the cost of 
maintaining and operating an historic site. It is important to note 
that most of the Presidential sites covered by S. 1748 meet their 
annual operating budgets through admission fees typically ranging 
between $5 to $7, donations, memberships, and fundraisers.
    Second, more and more Americans are choosing domestic travel 
destinations oriented toward historic and cultural themes. The 
proliferation of National Heritage Area designations and requests under 
your purview is evidence of this trend. If a Presidential site--
especially the smaller, lesser-known location that this bill would 
recognize--is unable to provide the public with compelling exhibits; 
proper access, safety, and comfort; and intact, adequately maintained 
historic fabric, then it risks being bypassed by this trend and further 
compromised.
    Let me provide you with a few examples that reflect the conditions 
affecting many historic sites, especially those 23 Presidential sites 
that are state-owned. The National Trust's survey of state historic 
preservation funding shows that from FY'01 to FY'02 the Ohio Historical 
Society's budget has been cut by $2.4 million (17 percent). During the 
same period, annual appropriations for the Ohio Historic Preservation 
Office were reduced by nearly $86,000 (20 percent). There are three 
state-run Presidential sites in Ohio, Ulysses Grant's birthplace and 
boyhood homes, and the Warren Harding home.
    In Vermont, the budget for state sites was cut by 2 percent this 
year while visitation has been down, resulting in a $90,000 shortfall. 
Its two state-run Presidential sites honoring Arthur and Coolidge will 
invariably feel the effects. In Virginia, home to Washington Mill State 
Park where the first President operated Mount Vernon's milling 
operations, state funding for the Department of Historic Resources was 
reduced by about 24 percent over the past two years. As a result agency 
staffing has been pared down and funding for state historic 
preservation grants was eliminated for FY'04. And in North Carolina, 
where the state maintains the Polk Memorial in Pineville, the North 
Carolina State Historic Preservation Office has suffered a loss of 
$252,000 federal dollars and $118,000 in state funds totaling $370,000.
    Juxtapose the declining resources at every level with the 
increasing and very specialized needs of many Presidential sites. 
Books, documents, furniture, and artifacts all require special care 
because of their age and significance, and all work must be done with a 
detailed eye to historical accuracy. This is often costly. Some 
exhibits at the home of Rutherford B. Hayes, which opened to the public 
in 1916, have not been updated in 35 years. The private foundation that 
runs the site has a noteworthy collection of Presidential memorabilia 
that should be displayed, but it lacks the $300,000 to $400,000 needed 
to construct a new exhibit. The former mansion of James A. Garfield 
used to be open to the public every weekday all year long. Now, it is 
accessible only on weekends or by appointment Monday through Friday.
    The Benjamin Harrison house in Indianapolis has more urgent 
requirements. Its sole bathroom and outdated plumbing cannot 
accommodate the hundreds of schoolchildren that its director 
desperately wants to come see the home. It lacks the $150,000 for 
making these renovations and the added money required for rehiring its 
librarian and displaying Harrison's books that are currently in 
storage. In addition, the ongoing need to conserve items can hit 
budgets hard. The James K. Polk ancestral home in Tennessee recently 
had to spend nearly $8,000 to preserve garments worn by his First Lady. 
Lastly, many Presidential sites are not handicapped accessible. The 
Warren G. Harding home has had to defer plans for an educational 
facility and staff office space until it is ADA compliant. Such 
situations are common across the county.
    Even though the $5 million authorized by the bill will not solve 
the problem of caring for these national treasures, it is the beginning 
of a solution--with historic sites a little goes a long way. The 
National Trust believes that preserving the legacy of America's chief 
executives--especially through the smaller, lesser known places that 
are not federally owned--is a top priority. Given the examples I have 
included in my statement and the countless others around the country, 
there is clearly an unmet need that must be addressed. There are 
significant costs associated with operating and maintaining 
Presidential sites and opening them up to the public often leaves 
little else for repair and renovation. The result can lead to deferred 
maintenance, loss of essential historic elements, and stagnant exhibits 
that compromise the vitality essential to a well-run historic place. 
With S. 1748, we can begin to address this problem and plan for passing 
on our Presidential heritage--every part of it--to future generations.

    Senator Thomas. Thank you.
    You know, activity on the floor sometimes interferes with 
things we really ought to be doing. I am going to have to scoot 
over and take a vote, if you do not mind. I should be back in 5 
or 6 minutes and we will finish up. So we will be in recess.
    [Recess.]
    Senator Thomas. Thank you for your patience. As I said, 
this voting kind of mixes us up from time to time.
    Mr. Overbey.

  STATEMENT OF RANDALL M. OVERBEY, PRESIDENT, PRIMARY METALS 
              DEVELOPMENT FOR ALCOA, KNOXVILLE, TN

    Mr. Overbey. I am Randy Overbey. I am president of Alcoa 
Primary Metals Development. In my former role with the company, 
I was also president of Alcoa Power Generating, Inc. That has 
been referenced here. In any case, all that is Alcoa.
    It is my privilege to testify today about S. 2319, the 
Tapoco Project Licensing Act of 2004. This was introduced by 
Senator Alexander, as you know. And both on the floor and 
today, he has described the long history and deep investment in 
east Tennessee, and this bill is critical to our company's 
future in east Tennessee, as well as being critical to millions 
of visitors who enjoy the Great Smoky Mountains in east 
Tennessee and western North Carolina.
    Specifically this bill does clear up a technical barrier to 
the licensing of the Tapoco hydro project. Maybe just a bit of 
background on that. On February 21 of last year, Alcoa filed an 
application with FERC for relicensing the project. Soon we 
expect to file also this comprehensive settlement agreement 
that has been negotiated by and with a large number of 
interested licensing stakeholders that has been referenced 
before. The settlement agreement is intended, Mr. Chairman, to 
serve as a consensus basis for the new license. Included in 
this agreement is a requirement for Federal legislation that 
cures this legal defect in the original project license. If not 
remedied, it will prevent FERC from relicensing the project. S. 
2319 resolves that issue and allows the implementation of the 
settlement agreement.
    In addition to the many ecological improvements, 
relicensing the Tapoco Project will allow Alcoa to continue to 
generate reliable, low cost power for its Tennessee operations, 
which includes an aluminum smelter and a rolling mill and has 
nearly $400 million of annual economic impact in the greater 
Knoxville area.
    Originally licensed in 1955, the Tapoco Project is along 
the border of east Tennessee and western North Carolina. The 
8,000 acres contained within the project boundary are 
sandwiched between about 10,000 acres of non-project land owned 
by Alcoa, the Great Smoky Mountains National Park, the Cherokee 
National Forest, the Nantahala National Forest, the Citico 
Creek property, and the Joyce Kilmer Wilderness Areas.
    Having been licensed almost 50 years ago, the current 
license does expire next year, as you heard. Accordingly, 
starting 7 years ago, we convened an extensive process 
involving a wide range of stakeholders, including the Park 
Service, U.S. Fish and Wildlife, the U.S. Forest Service, the 
Eastern Band of Cherokee Indians, State agencies from Tennessee 
and North Carolina, national local NGO groups, local 
governments, homeowners associations, and many individual 
citizens.
    A significant element of the settlement agreement that has 
attracted widespread interest concerns the conveyance of 
interests in valuable Alcoa lands that are between the park and 
the U.S. forest. Specifically as part of the settlement, Alcoa 
will grant a permanent easement to the Nature Conservancy on 
almost 6,000 acres of this land, as well as an option for the 
Nature Conservancy to buy the balance of the interest in that 
land and, in turn, they would sell the land to the park, 
perhaps to the forest, or the State of Tennessee, at such time 
that funds were available for that transfer. These lands would 
be managed as Federal parks, forests, or as State wildlife 
areas, and could be enjoyed by recreationists and outdoor 
enthusiasts of all types.
    The agreement also provides that we will grant the Nature 
Conservancy a conservation easement for 40 years on almost 
4,000 additional acres, 40 years matching the period of the new 
license.
    With that background, I would like to turn now to the FERC 
jurisdictional issue that we have been discussing and the 
reason for this act. FERC does lack the authority under the 
Federal Power Act to relicense the Tapoco Project as presently 
configured due to this technical problem. Specifically a 
portion of the Chilhowee Reservoir floods four incoming stream 
embayments, making up approximately 100 acres of land within 
the national park. The Federal Power Act and the Great Smoky 
Mountains National Park legislation of 1926 each prohibit the 
licensing of hydro projects inside the park.
    Under terms of S. 2319, the Secretary of the Interior would 
be directed to exchange approximately 100 acres of land located 
within the park and currently within the boundary of the Tapoco 
Project as well for 186 acres of ecologically valuable Alcoa 
land. This will solve the issue of preventing FERC from issuing 
the new hydroelectric license.
    It is very important to Alcoa and to the many signatories 
to the settlement agreement that this legislation be enacted by 
Congress before FERC is due to make a relicensing decision on 
the Tapoco Project. There are indications that FERC could act 
as soon as even August of this year, but certainly as you heard 
from FERC, they would like to have this done by the end of the 
year so that they can have early next year to complete the 
licensing process.
    If that is not done, it is likely they will issue an annual 
license, in which case the settlement agreement terms would not 
become effective as part of that annual license. So the good 
things we have talked about in the settlement agreement would 
largely be put on hold.
    So thank you for allowing me to speak about this important 
bill. Alcoa is also grateful to Senator Alexander for his 
leadership on the legislation and for the subcommittee's quick 
action in holding this hearing. Thank you.
    [The prepared statement of Mr. Overbey follows:]

  Prepared Statement of Randall M. Overbey, President, Primary Metals 
                         Development for Alcoa

    Chairman Thomas, Members of the Subcommittee, my name is Randy 
Overbey, and I am President of Primary Metals Development for Alcoa. 
Previous to this role, my position included being President of Alcoa 
Power Generating Inc, a subsidiary of Alcoa Inc. It is my privilege to 
be here today to testify about S. 2319, the ``Tapoco Project Licensing 
Act of 2004'', a bill introduced in the Senate on April 20th by Senator 
Alexander, my Senator from the great State of Tennessee. As Sen. 
Alexander so eloquently described in his floor statement, Alcoa has a 
long history and a deep investment in the east Tennessee region, and 
this bill is critical to our company's future there, as well as to the 
millions of Americans that enjoy the Smoky Mountains in east Tennessee 
and western North Carolina.
    Specifically, this bill clears up a technical barrier to the 
relicensing of the Tapoco Project, an APGI-owned and operated 
hydroelectric project located in the States of Tennessee and North 
Carolina that is federally-licensed pursuant to the Federal Power Act, 
16 U.S.C. Sec. 791 et seq. On February 21, 2003, APGI filed an 
application for a new Project license with the Federal Energy 
Regulatory Commission (FERC). APGI soon will also file with FERC a 
comprehensive Settlement Agreement negotiated by, and with, a large 
group of interested relicensing stakeholders. The Settlement Agreement 
is intended to serve as the consensus basis for the new FERC license. 
Included in the Agreement is a requirement for federal legislation that 
cures a legal defect in the original project license that, if not 
remedied, will prevent FERC from relicensing the Tapoco Project. S. 
2319 resolves that issue and allows the implementation of other 
important elements of the Settlement Agreement. Among other things, 
relicensing the Tapoco Project will allow APGI to continue to generate 
economical, readily-available energy for Alcoa's Tennessee Operations, 
which includes an aluminum smelter and a rolling mill, and has a nearly 
$400 million economic impact on the greater Knoxville, Tennessee 
region.
    Originally licensed in 1955, the Tapoco Project can be found in the 
western portion of the Little Tennessee Watershed on the Little 
Tennessee and Cheoah Rivers. The more than 8000 acres contained within 
the Tapoco Project boundary are sandwiched between nearly 10,000 acres 
of non-project lands owned by Alcoa, the Great Smoky Mountains National 
Park, the Cherokee National Forest, the Nantahala National Forest, and 
the Citico Creek and Joyce Kilmer Slickrock Wilderness Areas.
    Almost seven years ago APGI set out to obtain a new license for the 
Tapoco Project through FERC's new alternative relicensing procedures. 
Accordingly, APGI convened an extensive process involving a wide range 
of stakeholders, including the National Park Service, the U.S. Fish and 
Wildlife Service, the U.S. Forest Service, the Eastern Band of Cherokee 
Indians, state agencies representing Tennessee and North Carolina, and 
numerous national and local non-governmental organizations, local 
governments, homeowners associations, and individual citizens.
    The alternative licensing process proved to be fruitful as it 
produced a Settlement Agreement reflecting a consensus of nearly all 
parties to the relicensing concerning extensive protection, mitigation 
and enhancement measures for the Project that address ecological 
resources, as well as other beneficial uses of the Cheoah and Little 
Tennessee Rivers, including hydropower generation, watershed 
protection, endangered species enhancement, fish passage and enhanced 
recreational opportunities. The Settlement Agreement comprehensively 
addresses the terms and conditions that should be a part of any new 
license issued by FERC.
    A significant element of the Settlement Agreement that has 
attracted widespread interest concerns the conveyance of interests in 
the pristine and biologically valuable Alcoa lands that are between the 
Park and the U.S. forests. Specifically, as part of the Settlement 
Agreement, Alcoa will grant a permanent easement to The Nature 
Conservancy (TNC) on almost 6000 acres of its land, as well as an 
option for the TNC to buy the balance of interests in that land at a 
price reflecting the encumbrance of the easement. If the TNC exercises 
that option, it will then have a period of time to sell (and it intends 
to sell) the land to the federal government or the State of Tennessee 
for its purchase price plus carrying costs. These lands would be 
managed as federal parks, forests, or as State wildlife areas, and 
could be enjoyed by recreationists and outdoor enthusiasts of all 
types. The Agreement also provides that Alcoa will grant the TNC a 
conservation easement that will protect another almost 4000 acres of 
Alcoa land for the term of the new APGI license, which is at FERC's 
discretion, but is expected to be 40 years. Once the term of the new 
license has run, those 4000 acres will once again be owned by Alcoa 
free and clear of any encumbrance.
    I'd like to turn now to the FERC jurisdictional issue and the 
reason for the ``Tapoco Project Relicensing Act of 2004''. Despite the 
thousands upon thousands of hours dedicated by all parties towards 
reaching consensus on the operation of the Tapoco Project under a new 
license, FERC lacks authority under the Federal Power Act to relicense 
the Tapoco Project as presently configured. Specifically, a portion of 
the Project's Chilhowee Reservoir floods four side stream embayments 
inundating approximately 100 acres of land within the authorized 
boundary of Great Smoky Mountains National Park. These lands were 
included within the boundary of the Park when it was first created in 
1926 but, apparently for financial reasons, the government decided at 
that time not to acquire the flooding rights for those lands that were 
then held by APGI's corporate predecessor. However, the Federal Power 
Act and the Great Smoky Mountains National Park legislation of 1926, 16 
U.S.C. Sec. 403 et seq., each prohibit the licensing of hydroelectric 
projects inside the Park. Thus, it appears the Tapoco Project was 
erroneously licensed in 1955 to include within the Project boundary the 
four embayment areas located within the Park that were flooded with the 
construction of the Project's Chilhowee development in 1957. As a 
result, while APGI owned in 1955 and still owns to this day valid 
property rights to flood those lands within the Park, FERC nonetheless 
is without jurisdiction under federal law to issue a new license for 
the Project.
    Under the terms of S. 2319, the Park Service and APGI will exchange 
certain lands located in Tennessee in order to correct mistakes made 50 
years ago and to clear the way for FERC to relicense the Tapoco 
Project. This legislation is necessary to affirm that FERC has 
jurisdiction to relicense the Project once the exchange is consummated. 
Specifically, the bill would direct the Secretary of Interior to 
acquire from APGI 189 acres of ecologically valuable lands located 
within the authorized boundaries of the Park, currently owned by Alcoa, 
in exchange for approximately 100 acres of land located within the Park 
and the boundary of the Tapoco Project. Under the terms of the 
legislation, the Secretary would also be directed to reserve a 
conservation easement over the lands transferred to APGI that would: 
(1) prohibit any development on the lands; (2) ensure continued public 
access to the lands; and (3) authorize the National Park Service to 
continue to enforce Park regulations on those lands transferred. The 
legislation also authorizes the Secretaries of Interior and Agriculture 
to adjust the boundaries of the Park and adjacent U.S. forests in order 
to accept the lands that are expected to be transferred by APGI to the 
TNC and subsequently by the TNC to the Federal Government.
    It is very important to APGI and the many signatories to the 
Settlement Agreement noted above that this legislation is enacted by 
Congress before FERC is due to make a relicensing decision on the 
Tapoco Project. There are indications that FERC could act as soon as 
August of this year, and if the bill is not enacted by then, FERC will 
be forced to issue annual licenses until Congress grants it 
jurisdiction. In an annual license, many of the elements of the 
Settlement Agreement, including the conservation easements and the 
option to purchase land, would not be effective.
    Thank you for allowing me to speak about this important bill. APGI 
is grateful for Senator Alexander's leadership on the legislation and 
for the Subcommittee's quick action in holding this hearing.

    Senator Thomas. Thank you. Thank you for being here.
    Ms. Copeland.

      STATEMENT OF KATHY COPELAND, DIRECTOR OF POLICY AND 
LEGISLATION, SOUTH FLORIDA WATER MANAGEMENT DISTRICT, WEST PALM 
                           BEACH, FL

    Ms. Copeland. Thank you, Mr. Chairman. It is a pleasure to 
be here on behalf of the State of Florida in support of S. 
2046.
    I am Kathy Copeland. I work for the Water Management 
District, and we are the local sponsor to the Corps of 
Engineers for the largest public works project in the country. 
We are also home to over six national refuges and parks, and so 
that is the reason why Congress in the year 2000 decided to 
modernize the central and southern Florida flood control 
project and address some of the environmental impacts that this 
project has caused.
    Under the leadership of Governor Bush and the support of 
our legislature, we have dedicated $200 million to the 
Everglades Restoration Project since the year 2000. That has 
allowed us to take into public ownership over half of the 
property that is needed for the implementation of this project. 
We are also very committed to Everglades National Park 
restoration and have a longstanding commitment. One of the 
demonstrations of that is that the State of Florida has donated 
46,000 acres of State-owned land into the park to achieve the 
expansion of the Everglades National Park.
    It is not the end, though. The two projects that are 
necessary to fulfill the total benefits for the restoration are 
the C-111 project and the modified water deliveries project.
    The C-111 project is the one that this bill addresses. Land 
exchange is the critical link that is necessary to make this 
project happen, and it basically will, as you know, be an even 
exchange of land. It will create a buffer, a detention area, if 
you will, to allow the park waters to not seep out and also 
allow the State of Florida to continue to provide flood 
protection to the areas that are to the east.
    I would like to say that there were five alternatives that 
were addressed. Mr. Hoffman mentioned that to you. The 
alternative that was chosen was the lands that provide the most 
ecological benefit to the Everglades National Park, but from 
the State's perspective, they also were the ones that had the 
least amount of impact to the recreational users in that area. 
And so for that reason, we supported this alternative.
    We would like to move forward on this as quickly as 
possible because this project is scheduled for completion in 
the year 2006, and so we urge your support.
    I would like to thank Senator Graham for sponsoring this. 
On a personal note, the State of Florida is going to miss him 
when he leaves the Senate.
    Thank you.
    [The prepared statement of Ms. Copeland follows:]

     Prepared Statement of Kathy Copeland, Director of Policy and 
          Legislation, South Florida Water Management District

    Good afternoon, Mr. Chairman, and members of the subcommittee. It 
is a pleasure to be with you today representing the State of Florida's 
support of Senate Bill 2046, authorizing the exchange of land in 
Everglades National Park (ENP). I am Kathy Copeland, Director of Policy 
and Legislation at the South Florida Water Management District (SFWMD).
    The SFWMD is the local sponsor to the US Army Corps of Engineers 
(USACE) for the Central & Southern Florida Flood Control Project 
(C&SF), which was authorized by Congress in 1948. The existing project 
encompasses 18,000 square miles, including over 11,000 miles of canals, 
200 water control structures and half of the remaining Everglades 
wetlands. It is the largest public works project in the country, 
extending from Orlando in the north to the Florida Keys in the south, 
including Everglades National Park. In fact, six national parks and 
refuges lie within the boundaries of the water management district. You 
will remember that in 2000, Congress recognized the need to modernize 
this 50-year old system and to address its undesirable impacts on the 
environment. In response, they authorized the Comprehensive Everglades 
Restoration Plan (CERP) as the framework for restoration.
    Under the leadership of Governor Bush and with the support of the 
state legislature, $200 million have been dedicated annually from 
Florida, providing our state's share toward the restoration effort. 
Since 2000, this investment has totaled $790 million. These funds have 
allowed the SFWMD to purchase 205,179 acres of land, representing more 
than half of the approximately 402,479 acres needed to implement CERP. 
Additionally, the state of Florida has donated over 42,000 acres of 
state-owned land to the federal government to complete the expansion of 
Everglades National Park.
    The expansion of Everglades National Park is an important component 
in the Park's environmental restoration. This expansion in combination 
with the environmental enhancements provided by several projects will 
complete the restoration of Everglades National Park. Two of the most 
crucial projects for restoration of Everglades National Park are the C-
111 Canal Project and Modified Water Deliveries to Everglades National 
Park Project. In fact, a Congressional mandate requires the completion 
of the C-111 Canal project prior to commencing with other restoration 
projects. Furthermore, the C-111 Canal project cannot meet its 
objectives without the land swap proposed in this bill.

                    C-111 CANAL PROJECT DESCRIPTION

    The C-111 Canal project is located in southern Miami-Dade County, 
in the C-111 basin portion of the original C&SF project. The project is 
now comprised of modifications to the C&SF project, including 
acquisition of lands in the Frog Pond/Rocky Glades area and the 
construction of levees, canals and pump stations to divert water flow 
into the Taylor Slough portion of Everglades National Park. The 1994, 
GRR authorized construction of a buffer and detention system along the 
eastern boundary of ENP. This was designed to establish a ``hydraulic 
ridge,'' to reduce seepage from ENP and also reestablish the historical 
surface water flow from Northeast Shark River Slough to Taylor Slough. 
This detention and buffer system provides these benefits while ensuring 
flood protection to the eastern urban and agricultural areas. As a 
point of clarification a detention system functions differently than a 
retention system. A pure retention system holds all water in an area. 
Conversely, a detention area holds water in an area but allows water to 
leave either by seepage and/or surface water discharges. This is an 
important distinction because while highly effective in reducing water 
seepage from Everglades National Park, the detention system will not 
eliminate seepage altogether because Florida's highly permeable 
limestone subsurface will always allow some ground water movement. The 
authorized detention and buffer system affected by the land swap 
consists of a series of detention areas, a \1/2\ mile-wide buffer 
between the detention areas and the L-31N Canal and three pump stations 
to move water from the L-31N Canal into the detention areas.

                          REASON FOR LAND SWAP

    The State of Florida strongly supports this critical exchange of 
lands between the SFWMD and Everglades National Park. The C-111 Canal 
project is scheduled for completion by 2006 and requires the land swap 
between ENP and the local sponsor (SFWMD) to allow completion of the 
detention and buffer system. Currently, only 700 acres of the 
approximately 3,000 acres--or about 2.5 miles of the 8 mile-long 
detention and buffer system--has been constructed. Senate Bill 2046 
authorizes the Secretary of the Interior (Secretary) to exchange 
approximately 1,054 acres of land from the Rocky Glades area of ENP for 
approximately 1,054 acres of land to be provided by the SFWMD from the 
Southern Glades Wildlife and Environmental Area.

                    REASON FOR CONGRESSIONAL ACTION

    The USACE has been advised that the National Park Service cannot 
provide lands to the C-111 Canal project without assurances from the 
USACE that ENP would receive compensatory lands of similar size and 
quality to ensure that the size of ENP remains unchanged. In addition, 
Congress must authorize any national park boundary changes larger than 
200 acres.
    To maintain the intent of the ENP Protection and Expansion Act of 
1989, the ENP has proposed an exchange of lands with the non-federal 
sponsor (SFWMD), recognizing this as a requirement for C-111 Canal 
project completion. In May of 1999, the USACE asked the ENP to review 
for acquisition several parcels of state-owned land within the Southern 
Glades Wildlife and Environmental Area, all located in the southern end 
of the C-111 Canal project.
    In consultation with the U.S. Fish and Wildlife Service and the 
Florida Fish and Wildlife Conservation Commission, the National Park 
Service evaluated five alternatives, including one proposed by the 
South Florida Water Management District. The resource-based criteria 
and evaluations are documented in the Integrated General Reevaluation 
Report Supplement and Environmental Assessment, completed in January 
2002. The SFWMD's proposal, Alternative 5, was selected as the 
preferred alternative. Alternative 5 provides lands located between the 
southern end of the C-111 Canal and the southeastern panhandle of ENP. 
The SFWMD prefers Alternative 5, because the incorporation into ENP of 
this particular parcel of land will have the least impact on existing 
recreational use in the Southern Glades Wildlife and Environmental 
Area.
    Again, I appreciate the opportunity to speak on behalf of S. 2046 
and will be happy to answer any questions.

    Senator Thomas. Thank you.
    Ms. Phillips.

   STATEMENT OF FAYE PHILLIPS, ASSOCIATE DEAN OF LIBRARIES, 
          LOUISIANA STATE UNIVERSITY, BATON ROUGE, LA

    Ms. Phillips. Thank you, Mr. Chairman. I am honored to 
testify in support of S. 1064, establishing the Civil War 
Sesquicentennial Commission. We are grateful to Senator 
Landrieu for her cosponsorship of the legislation as introduced 
by Senator Breaux, and I appreciate their remarks today.
    I am Faye Phillips, Associate Dean of Libraries at 
Louisiana State University.
    The legacy of the Civil War is a potent force in our Nation 
even today. That legacy is manifest in both the divisive issues 
of race and the politics of federalism and the fulfillment of 
the bold promise of democracy. The increasing number of 
publications, research organizations, reenactments, electronic 
resources, historic sites, and battlefield preservation efforts 
testify to the fact that interest in the Civil War is growing 
both nationally and around the world. By establishing a 
national commission to study and reflect upon the Civil War, we 
are seizing a significant opportunity to tap into the public's 
interest in this time period and foster unity among all of our 
citizens.
    A defining era in our Nation's history, the Civil War has 
meaning for every American. Public memory of the war and its 
aftermath, coupled with scholarly research, continue to shape 
our conception of identity as Americans.
    The Civil War Sesquicentennial Commission Act seeks to 
establish a national consortium of representatives of a variety 
of cultural institutions and academic disciplines to reflect 
diverse perspectives. It is truly an interdisciplinary look at 
the Civil War.
    Commission members will plan national programs, serve as a 
resource for local and State organizations planning 
commemorative activities. They will coordinate and distribute 
scholarly publications to the public, administer grant programs 
to encourage interdisciplinary examination of the Civil War, 
and encourage involvement of the international community.
    As you know, an act of Congress in 1996 named the United 
States Civil War Center at LSU and the Civil War institute at 
Gettysburg College as co-facilitators of the Civil War 
sesquicentennial. In 2002, as representatives of the State of 
Virginia, witness to more military engagements and host to more 
historic sites commemorating the Civil War than any other 
State, Pamplin Historical Park in Petersburg, Virginia, and the 
Virginia Center for Civil War Studies at Virginia Tech, joined 
our initiative.
    As outlined in the legislation, funding is requested for 
these four institutions. These institutions would serve to 
assist the commission in its work by planning and implementing 
sesquicentennial programs such as a regrant program for 
institutions seeking to conduct interdisciplinary commemorative 
activities, designation of a national student essay award, 
publication and circulation of information packets, and 
organizing public lectures and symposia.
    The Civil War is a cornerstone of our national heritage. It 
remains powerfully relevant in our modern world. By reflecting 
on this era, collectively as a Nation, under the direction of 
individuals representing major cultural institutions and a 
variety of perspectives, we can take significant steps to 
overcome fundamental issues that divide us and emerge unified.
    Thank you again for the opportunity to speak with you 
today.
    [The prepared statement of Ms. Phillips follows:]

   Prepared Statement of Faye Phillips, Associate Dean of Libraries, 
              Louisiana State University, Baton Rouge, LA

    Mr. Chairman, Members of the Committee, I am honored to testify in 
support of Senate Bill 1064 establishing the Civil War Sesquicentennial 
Commission. We are grateful to Senator Landrieu for her co-sponsorship 
of the legislation as introduced by Senator Breaux.
    The legacy of the Civil War is a potent force in our nation even 
today. That legacy is manifest in both the divisive issues of race and 
the politics of federalism, and the fulfillment of the bold promise of 
democracy. The increasing number of publications, research 
organizations, reenactments, electronic resources, historic sites and 
battlefield preservation efforts testify to the fact that interest in 
the Civil War is growing, both nationally and around the world. By 
establishing a national commission to study and reflect upon the Civil 
War, we are seizing a significant opportunity to tap into the public's 
interest in this time period and foster unity among all of our 
citizens.
    A defining era in our nation's history, the Civil War has meaning 
for every American, whether rich, poor, old, young, male, female, 
native born or new citizen. Public memory of the war and its aftermath, 
coupled with scholarly research, continue to shape our conception of 
identity as Americans.
    The Civil War Sesquicentennial Commission Act seeks to establish a 
national consortium of representatives of a variety of cultural 
institutions and academic disciplines to reflect diverse perspectives. 
Members will represent the following institutions and/or academic 
disciplines:

        U.S. Senate
        U.S. House of Representatives
        Smithsonian Institution
        Department of Education
        National Endowment for the Humanities
        Library of Congress
        National Park Service
        National Archives
        members of the corporate community
        historians
        experts in art history, historic preservation, or a related 
        field
        experts in anthropology, cultural geography, sociology, or a 
        related field
        experts in political science, law, economics, or a related 
        field

    Commission members will plan national programs, serve as a resource 
for local and state organizations planning commemorative activities, 
coordinate and distribute scholarly publication to the public, 
administer grant programs to encourage interdisciplinary examination of 
the Civil War, and encourage involvement of the international 
community.
    As you know, an Act of Congress in 1996 named the United States 
Civil War Center at LSU and the Civil War Institute at Gettysburg 
College as co-facilitators of the Civil War Sesquicentennial. In 2002, 
as representatives of the state of Virginia, witness to more military 
engagements and host to more historic sites commemorating the Civil War 
than any other state, Pamplin Historical Park in Petersburg, Virginia, 
and the Virginia Center for Civil War Studies at Virginia Tech, joined 
our initiative.
    As outlined in the legislation, funding is requested for these four 
institutions. These institutions would serve to assist the commission 
in its work by planning and implementing Sesquicentennial programs, 
such as a re-grant program for institutions seeking to conduct 
interdisciplinary commemorative activities, designation of a National 
Student Essay Award, publication and circulation of information 
packets, and organizing public lectures and symposia.
    The U.S. Civil War Center is actively partnered with individuals 
representing each of the other three Civil War research institutions. 
Gabor Boritt, director of the Civil War Institute, serves on the U.S. 
Civil War Center's National Advisory Board. James I. ``Bud'' Robertson, 
Jr., director of the Virginia Center for Civil War Studies, also serves 
on the U.S. Civil War Center's National Advisory Board, and is a 
contributor to the pages of the Center's publication, Civil War Book 
Review. In addition, Professor Robertson served as the executive 
director of the Civil War Centennial Commission. Arthur Bergeron, 
historian at Pamplin Historical Park, is a frequent reviewer for Civil 
War Book Review.
    The Civil War is a cornerstone of our national heritage; it remains 
powerfully relevant in our modern world. By reflecting on this era 
collectively as a nation, under the direction of individuals 
representing major cultural institutions and a variety of perspectives, 
we can take significant steps to overcome fundamental issues that 
divide us, and emerge unified.
    Thank you again for the opportunity to speak with you today.

    Senator Thomas. Thank you very much for being here.
    Finally, Mr. Nau.

   STATEMENT OF JOHN L. NAU, III, CHAIRMAN, TEXAS HISTORICAL 
      COMMISSION; CHAIRMAN, ADVISORY COUNCIL ON HISTORIC 
                   PRESERVATION, HOUSTON, TX

    Mr. Nau. Well, good afternoon, Mr. Chairman. Thank you. I 
appreciate this opportunity to speak on S. 2052, authored by 
Senator Kay Bailey Hutchison of Texas. My name is John Nau and 
I am the chairman of the Texas Historical Commission, which is 
the State agency for historic preservation. I also chair the 
Advisory Council on Historic Preservation. I am here today to 
testify in support of S. 2052.
    This bill will amend the National Trails System Act to 
designate a new El Camino Real de los Tejas National Historic 
Trail, a combination of historic routes totaling 2,580 miles 
from the Rio Grande near Eagle Pass, Texas to Natchitoches, 
Louisiana.
    This trail route was used for more than 150 years as the 
principal route between Mexico City and what is today 
northwestern Louisiana. If designated by Congress as a national 
historic trail, El Camino Real de los Tejas would be managed 
through cooperative partnerships with public agencies, 
nonprofit organizations, and importantly, private landowners.
    The designation of El Camino Real de los Tejas as a unit of 
the national trails system would make it possible and easier to 
coordinate activities along the length of the trail between 
State, county, and city governments, as well as private 
landowners. It would also increase opportunities for 
coordination with the Mexican government on resource 
preservation and tourism.
    There is much support for this legislation in Texas because 
this bill addresses the concerns of private landowners.
    This bill authorizes the establishment of the El Camino 
Real de los Tejas National Historic Trail and the 
administration of the trail and related historic sites within 
privately owned lands only with the voluntary and express 
consent of the landowner. Nothing in the act or in the 
establishment of any portion of the trail authorizes anyone to 
enter private property without the consent of the landowner. 
Additionally, nothing in the act or establishment of any 
portion of the historic trail will authorize the Federal 
Government to restrict a private property owner's use or 
enjoyment of their own property.
    This act does not in itself confer additional authority to 
apply any other Federal laws and regulations on non-Federal 
lands along the trail. Furthermore, the Federal Government 
would have no authority to condemn any privately owned property 
for the purpose of deeming it a portion of this historic trail. 
Should land ownership change hands, the new owner must consent 
to being included again in this historic trail.
    Senator Hutchison's bill recognizes the importance of 
protecting these private property rights along the El Camino 
Real de los Tejas and allows for only voluntary participation 
to every willing landowner along this trail.
    The Texas Historical Commission operates and maintains a 
series of historic trails as part of our Texas Heritage Trails 
Program. The program has been highly successful and serves to 
protect our historic, cultural, and natural resources. This 
program also creates jobs, increases property values, and 
generates tax revenues while educating residents and visitors 
about Texas history.
    Texas ranks second in the Nation in the number of cultural 
and heritage tourists visiting the State. The Texas economy 
benefits from heritage tourists who spend more per day and stay 
longer than any other type of tourist. Heritage tourism is the 
fastest growing segment of the $40 billion tourism industry in 
Texas. Establishment of a national historic trail along many of 
Texas' historic and cultural attractions would only strengthen 
an already positive experience for heritage travelers in the 
State of Texas.
    Many Texas cities, counties, county historical commissions, 
and private citizens support this legislation. I urge you to do 
the same.
    Mr. Chairman, thank you for your time and consideration. 
Thank you.
    Senator Thomas. Well, thanks to all of you. We appreciate 
you making the effort to be here and to comment on these bills 
that I know are of importance to you. I also want to tell you 
that the activities of people like yourselves on the ground are 
the things that cause these things to happen. We have to try 
and set some rules here in which we operate so that we have 
some definition of what the role of the Federal Government 
should be, although that is not always shared by everyone 
similarly.
    So we may ask some questions and we may be writing to you. 
I will not ask any now. We have been here a while and you have 
covered it very well. So, thank you again and we may be in 
touch with questions for each of you.
    Otherwise, the committee is adjourned.
    [Whereupon, at 4:18 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

              Federal Energy Regulatory Commission,
                                    Office of the Chairman,
                                      Washington, DC, May 26, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
Re: The Tapoco Project Licensing Act of 2004 (S. 2319)

    Dear Mr. Chairman: Thank you for your May 13 letter in which you 
forward questions for the record of the April 27, 2004 Senate Energy 
and Natural Resources Subcommittee on National Parks hearing on the 
Tapoco Project Licensing Act of 2004 (S. 2319).
    I am enclosing my responses to your questions. Additionally, I am 
providing a copy of our answers to Senator Bingaman's questions that we 
submitted to him on May 10, 2004 regarding S. 2319.
    If you need further information, please do not hesitate to let me 
know.
            Best regards,
                                             Pat Wood, III,
                                                          Chairman.
[Enclosures.]

                  Questions From Senator Craig Thomas

           S. 2319, THE TAPOCO PROJECT LICENSING ACT OF 2004

    Question 1. Have any environmental or recreation groups expressed 
opposition to the proposed land exchange? If so, have you modified the 
proposal in any way to accommodate their concerns?
    Answer. We are not aware of any groups expressing opposition to the 
proposed land exchange.
    Question 2. The proposed land exchange is designed to facilitate 
relicensing of the power plant. Do you see this simply as a short term 
fix to get through the licensing process or is it considered a long 
term solution?
    Answer. The proposed land exchange is considered a long term 
solution in that it would not only enable the Commission to 
expeditiously take action on the pending application for relicensing 
the Tapoco Project, but also any subsequent relicense application for 
the project.
    Question 3A. Is the land exchange being completed as mitigation for 
obtaining the license to operate the hydroelectric plant?
    Answer. Since staff was not a party to the settlement negotiations, 
we cannot say whether the settling parties considered the land exchange 
as mitigation for obtaining the license to operate the hydroelectric 
plant.
    Question 3. What other types of mitigation are you being asked to 
perform and who is asking?
    Answer. Other mitigation measures proposed by the settling parties 
include: modifying the impoundment rule curves; providing minimum 
flows; funding fish reintroduction; developing vegetation and rare, 
threatened and endangered species management plans; adding to, and 
improving recreation facilities; and preparing a Programmatic Agreement 
and Cultural Resources Management Plan.
    Question 4A. Could FERC relicense the power plant without this 
legislation?
    Answer. The land exchange provided for by S. 2319 will allow the 
Commission to consider Alcoa's proposal to relicense the project in its 
current form, as contemplated by the agreements in principle, without 
the need to address the issue of a portion of the project being located 
in a national park. If the legislation were to provide that the 
transfer be concluded within a reasonable time following enactment, it 
would help ensure the Commission's ability to act on Alcoa's proposal 
by date the current license expires, in 2005.
    Question 4B. Why has FERC allowed Alcoa to operate the plant for so 
many years without the land adjustment?
    Answer. Until the issue recently arose during relicensing 
proceedings, there was nothing in the record to indicate that the 
project occupied National Park lands; therefore, the Commission had no 
knowledge of any need for a land adjustment. The Commission issued the 
original license for the Tapoco Project on March 17, 1955, for a period 
of 50 years, effective March 1, 1955, and expiring on February 28, 
2005. The 1955 license authorized the construction and operation of the 
Chilhowee Development, and the continued operation of the Calderwood, 
Cheoah, and Santeetlah Developments. The license order did not state 
that a portion of the project would occupy national park land. 
Moreover, the license application, filed on October 25, 1954, states 
that ``[n]o lands or reservations of the United States will be affected 
by the . . . [p]roject.'' A search of the Commission's files has 
produced no information that sheds further light on the matter.
                                 ______
                                 
              Federal Energy Regulatory Commission,
                                 Office of Energy Projects,
                                      Washington, DC, May 10, 2004.
Hon. Jeff Bingaman,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman: Thank you for your questions for the record 
of the April 27, 2004 Senate Energy and Natural Resources Subcommittee 
on National Parks hearing on S. 2319, the Tapoco Project Licensing Act 
of 2004.
    I have enclosed my responses to your questions. If you have further 
questions or need additional information, please do not hesitate to let 
me know.
            Sincerely,
                                          J. Mark Robinson,
                                                          Director.
[Enclosure.]

                  Questions From Senator Jeff Bingaman

    Question 1. You testified that the original license for the Tapoco 
Project issued by the Federal Power Commission on March 17, 1955 ``did 
not state that a portion of the project would occupy national park 
land.'' Nonetheless, the original license strongly suggests that the 
Commission was aware of the proximity of the project to the Great Smoky 
Mountains National Park and was concerned about the ``status'' of the 
``lands included in the project.'' 14 F.P.C. 610.
    Paragraph (9) of the order plainly states that the Commission found 
that most of the exhibits filed by the license applicant ``conform to 
the Commission's rules and regulations and should be approved as part 
of the license for the project.'' Yet paragraph (9) also indicates that 
the Commission found those exhibits ``showing a detailed project 
boundary and the land status of all lands included in the project'' to 
be wanting. The Commission expressly ordered that the ``Licensee shall 
file, within three years from the effective date of the license, . . . 
[new exhibits] showing a detailed project boundary and the land status 
of all lands included in the project.'' In addition, it ordered the 
licensee to ``cooperate with the National Park Service in the 
preservation of park values along those sections of the Great Smoky 
Mountains National Park boundary fronting on the proposed lake,'' and 
to ``consult with the National Park Service regarding the relocation of 
U.S. Highway No. 129.'' 14 F.P.C. 610.
    On February 27, 1959, the licensee filed the requisite exhibits 
``showing the project boundary and project lands.'' The Commission 
expressly found that the new exhibits ``conform to the Commission's 
rules and regulations'' and ordered that they be ``approved as part of 
the license.'' 21 F.P.C. 651. Plainly, the Federal Power Commission 
knew, or should have known, that it was licensing a power project in a 
national park.
    Please explain how the Federal Power Commission could have issued 
the original license for the Tapoco Project, No. 2169, without knowing 
that the project encroached on the Great Smoky Mountains National Park, 
or, if it knew, how it could justify issuing the license without lawful 
authority.
    Answer. As explained in my testimony, the 1955 license which 
authorized the construction and operation of the Chilhowee Development, 
and the continued operation of the Calderwood, Cheoah, and Santeetlah 
Developments, did not state that a portion of the project would occupy 
national park land. Moreover, the license application, filed on October 
25, 1954, states that ``[n]o lands or reservations of the United States 
will be affected by the . . . [p]roject.'' Commission staff cannot go 
beyond the words of the 1955 Commission's order to hypothesize what it 
or the National Park Service knew about the location of the Tapoco 
Project with respect to the Great Smoky Mountains National Park. As I 
stated, the record of the licensing proceeding does not reveal that 
either agency discussed the matter. Commission staff has found nothing 
in the record that demonstrates that the Commission was aware at the 
time that it issued the project license that a portion of the project 
was located in a national park. The facts that the Commission required 
the licensee to provide more detail about the project's boundaries, to 
cooperate with the National Park Service in the preservation of park 
values along those sections of the Great Smoky Mountains National Park 
boundary fronting on the proposed lake, and to consult with the 
National Park Service regarding the relocation of a highway, do not, 
without more, demonstrate that the Commission knew that a portion of 
the proposed project was located in a National Park.
    Question 2. How many other power projects, if any, has the Federal 
Power Commission or the Federal Energy Regulatory Commission licensed 
in national parks or monuments without statutory authority?
    Answer. Other than the Tapoco Project, Commission staff is aware of 
no instance in which the Commission has issued a license for a 
hydropower project in a national park or national monument without 
statutory authorization.
    Question 3. What safeguards, if any, has the Federal Power 
Commission or the Federal Energy Regulatory Commission erected since 
1955 to prevent the issuance of licenses for power projects in national 
parks or monuments?
    Answer. Commission staff is cognizant of the extent of the 
Commission's hydropower licensing jurisdiction set forth in Part I of 
the Federal Power Act, and is vigilant in complying with all statutory 
requirements. The license application regulations and procedures in 
place in the 1950s bear little resemblance to the vastly more detailed 
and comprehensive licensing process of today. The Commission's current 
hydroelectric licensing process provides for a thorough examination of 
environmental impacts by Commission staff, and for extensive public 
input designed to highlight all issues with respect to a proposed 
project. Before filing a license application, an applicant must contact 
and consult with all relevant Federal, State, and Interstate resource 
agencies, including ``the Federal agency administering any United 
States lands or facilities utilized or occupied by the project.'' See 
18 C.F.R. Sec. 4.38(a) (2003). The potential license applicant must 
provide the Federal agencies with specific information, including 
``[d]etailed maps showing project boundaries, if any, proper land 
descriptions of the entire project area by township, range, and 
section, as well as by state, county, river mile, and closest town, and 
also showing the specific location of all proposed project facilities. 
. . .'' See 18 C.F.R. Sec. 4.38(b)(1)(i) (2003). The potential 
applicant then must schedule a joint meeting with all pertinent 
agencies, with Indian tribes, and with the public, including an 
opportunity for a site visit. See 18 C.F.R. Sec. 4.38(b)(2) and (3) 
(2003). Following the public meeting, the agencies and tribes are to 
provide comments to the potential applicant. See 18 C.F.R. 
Sec. 4.38(b)(4) (2003). Next, the potential license applicant must 
diligently conduct all reasonable studies and obtain all necessary 
information requested by agencies and Indian tribes (unless Commission 
staff determines that the studies or information is unnecessary). See 
18 C.F.R. Sec. 4.38(c) (2003). The potential applicant must provide 
agencies and Indian tribes copies of a draft application, which must 
include responses to any comments or recommendations they have made, 
and a request that they review and comment in writing on the draft 
application. See 18 C.F.R. Sec. 4.38(c)(4) (2003). If the written 
comments indicate that the agency or Indian tribe has a substantive 
disagreement with the potential applicant's conclusions, the potential 
applicant must hold a joint meeting to discuss and attempt to resolve 
disagreements, and must provide the Commission with an explanation of 
any disagreements. See 18 C.F.R. Sec. 4.38(c)(5-8) (2003. When an 
application is filed with the Commission, the application must be 
served on consulted resource agencies or Indian tribes, see 18 C.F.R. 
Sec. 4.38(d)(2) (2003); the applicant must document consultation and 
any disagreement with resource agencies or Indian tribes, see 18 C.F.R. 
Sec. 4.38(f) (2003); and the applicant must issues public notice of, 
and conduct, another joint meeting at or near the site of the project. 
See 18. C.F.R. Sec. 4.38(h)(4). The Commission's regulations require 
that maps provided by applicants must include ``[b]oundaries of public 
lands and reservation of the United States, if any,'' using official 
plats of survey from the Bureau of Land Management or, where those are 
not available, township and section lines ``recognized by the Federal 
agency administering those lands.'' See 18 C.F.R. Sec. 4.39 (2003). A 
license application must list ``[a]ll lands of the United States ... 
that are enclosed within the project boundary. . . .'' See, e.g., 18 
C.F.R. Sec. 4.41(b)(6) (2003). Also, the Environmental Report submitted 
with the application must include reports on water use and quality and 
fish wildlife, and botanical resources prepared in consultation with 
any State or Federal agency with management authority over any part of 
the proposed project lands; a report on historical and archeological 
resources, prepared in consultation with relevant State officials and 
the National Park Service; and a report on recreational resources, 
prepared in consultation with, among other agencies, the National Park 
Service; and a report describing the existing uses of the proposed 
project lands and adjacent property, prepared in consultation with 
``any Federal or state agency with managerial responsibility for the 
proposed project or abutting lands.'' See, e.g., 18 C.F.R. 
Sec. 4.41(f)(2), (3), (4), (7) and (9) (2003).
    In the course of its environmental review of license applications, 
Commission staff conducts public scoping to identify potential issues. 
After the Commission's public notice that an application is ready for 
environmental review, the Commission requests comments and conditions 
from all interested parties, specifically including Federal agencies. 
See 18 C.F.R. Sec. 4.34(b) (2003). Commission staff generally issues a 
draft environmental document for comments. This includes an independent 
analysis of the environmental impacts of proposed projects, including a 
review of land uses. When a license is issued, parties may file 
requests for rehearing before the Commission, setting forth any alleged 
errors made by the Commission in its licensing order.
    Considering this thorough and public process, it is difficult to 
imagine a license today being inadvertently issued for a project within 
a national park or national monument. I note that the Commission's new 
regulations establishing an integrated licensing process, which are 
being implemented over the next two years, contain even more 
requirements regarding communication between prospective license 
applicants and affected parties, and also provide for increased 
involvement by Commission staff in the prefiling periods. This will 
render it even less likely that a national park issue would not be 
raised early on.
                                 ______
                                 
          United States Department of the Interior,
                                   Office of the Secretary,
                                     Washington, DC, June 10, 2004.
Hon. Daniel Akaka,
Ranking Member, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Akaka: Enclosed is the response to the follow-up 
question that you submitted to the Department after the Subcommittee's 
April 27 hearing. If there are questions regarding any of these 
responses, please contact the National Park Service's Office of 
Legislative and Congressional Affairs at (202) 208-5656.
            Sincerely,
                                              Craig Manson,
               Assistant Secretary for Fish and Wildlife and Parks.

    Question. Mr. Hoffman, in your answer to my question about the use 
of the land to be transferred to the South Florida Water Management 
District, you indicated that the District could use the land for both 
restoration of Everglades National Park and for flood protection 
without causing harm to the Park. What steps will the Department take 
to monitor whether or not harm is caused to the Park? What will the 
Department do if harm is found to occur within the Park due to the use 
of this exchanged land?
    Answer. The Department of the Interior, including the National Park 
Service (Everglades National Park) and Fish and Wildlife Service, is a 
partner with the Army Corps of Engineers (Corps) and the South Florida 
Water Management in implementing the C-111 Project. As indicated in the 
testimony, the primary purpose of the land exchange is to allow for the 
construction of a series of detention basins that will, in the end, 
restore park habitat that was damaged by past operation of the Central 
and Southern Florida Project. The Department's primary role in this 
project is to provide technical analysis and input to the Corps on the 
design and operation of the detention basins. In that role, the 
Department and its agencies will assist in the development and analysis 
of project alternatives to ensure that the project achieves its 
intended environmental benefits without causing negative adverse impact 
to park resources. The Department believes that relevant federal and 
state environmental laws protecting park resources and water quality 
provide protection to ensure that this result will be achieved. 
Further, systematic monitoring of the project's operation on park 
resources will be a key element in ensuring that park resources are not 
adversely affected. If the monitoring of the project operations reveals 
that adverse impacts are occurring to park resources as a result of the 
project operations, then the National Park Service and-the Department 
of the Interior will work with the Corps, and the South Florida Water 
Management District, to modify the operation of the project so that 
adverse impacts to park resources are avoided and that the overall 
restoration objectives of the project are realized.

                                 ______
                                 
Responses of The National Trust for Historic Preservation to Questions 
                          From Senator Thomas

    Question 1a. The National Trust for Historic Preservation is a non-
profit organization that raises funds and promotes the preservation of 
historic and culturally significant properties. What is the role of the 
National Trust in maintaining and interpreting sites honoring 
Presidents?
    Answer. The National Trust was chartered by Congress in 1949 to 
care for some of the nation's most historic places and maintain them 
for their educational value and the public benefit. As such, the Trust 
currently owns and operates 25 properties in its inventory of 
``National Trust Historic Sites.'' Three of these qualify as 
``Presidential sites.'' They are 1) Montpelier in Virginia--the former 
home of James Madison; 2) the Woodrow Wilson House in the District of 
Columbia; and 3) the Lincoln Cottage, President Lincoln's former ``Camp 
David'' located on the grounds of the ``Soldiers' Home'' also in this 
city.
    Question 1b. Does the National Trust accept donations for use 
toward maintaining and interpreting Presidential sites? If so, 
approximately how much do you raise annually for this purpose?
    Answer. Yes, the National Trust does accept donations for 
maintaining and interpreting Presidential Sites. At Montpelier, which 
has an annual operating budget of $2.3 million, we raise $744,000 
through admissions and fees, $1.31 million through annual donations, 
and $244,000 from endowment income. At the Woodrow Wilson House, which 
has an annual operating budget of $500,000, we raise $120,000 through 
admissions and fees, $280,000 through annual donations, and $110,000 in 
endowment income. Over the past five years, the National Trust has 
provided $266,000 to Montpelier and $120,000 to Wilson House through 
its Historic Sites Fund and Interpretation and Education Fund. Although 
the Lincoln Cottage is included in this inventory, it is still in the 
midst of an exterior restoration and not yet open to the public, so I 
don't think its fundraising budget would provide a good example here. 
Also, as a federally owned property, it would not be eligible for 
funding under this bill.
    Capital Needs for Montpelier: $9.5 million over the next ten years.
    Essential costs include projects to meet building code compliance, 
enhance visitor safety, and improve accessibility.
    Capital Needs for Woodrow Wilson House: $3 million over the next 
ten years. Major upgrades are needed to security, fire protection, 
improved collections storage for 8,000 presidential objects, overall 
climate control for the entire site, and interpretation improvements 
including website based educational programs for students.
    Question 2a. The proposed legislation limits the amount of funds 
available for sites based on the annual operating budget. Those with an 
annual budget less than $700,000 can compete for 65 percent of the 
money and those with an annual budget greater than $700,000 can compete 
for only 20 percent of the money. How many sites fall into these 2 
categories?
    Answer. Of the 133 Presidential sites nationwide listed by the 
American Association of State and Local History, 45 are operated by the 
federal government. Of the remaining 88 sites, 23 are state-run and the 
rest are owned by non-profit organizations or private individuals and 
would all qualify for funding under the bill. There are 5 sites that 
exceed an annual operating budget of $700,000. They are Mount Vernon, 
Montpelier, Monticello, Jefferson's Poplar Forest, and Rutherford B. 
Hayes Presidential Center.
    Question 2b. Is this a fair way to divide the money or should all 
sites be allowed to compete for all funding?
    Answer. This is a fair way to accomplish the precise goal of the 
bill--that is to target a relatively small amount of funding to the 
properties where the need is greatest, especially those Presidential 
sites that may be smaller and lesser-known. We believe that even those 
smaller, lesser-known places are just as important to telling the 
complete story of a chief executive's legacy and it is those sites that 
are in greatest danger of deferring maintenance or lacking the monies 
for proper interpretation.
    Question 3. Many of the Presidential sites are currently operated 
by state agencies. Is it appropriate for the federal government to be 
responsible for funding state-owned property?
    Answer. It certainly appropriate for federal funds to help out with 
some of the capital costs not borne by state or private sources. 
Twenty-three of the 133 Presidential sites across the country are 
state-run, and as my testimony outlines though several examples, state 
funding for historic preservation--this includes the operation of 
historic sites--is at an all-time low. State budget crises combined 
with inadequate federal funding through the Historic Preservation Fund 
have stretched resources to the braking point and Presidential sites 
are by no way immune to the effects of cost cutting. State-run 
Presidential sites have reduced hours of operation, deferred exhibits, 
cut staff, and postponed critical maintenance needs.
                                 ______
                                 
                        Department of the Interior,
               Office of Legislative Congressional Affairs,
                                     Washington, DC, July 30, 2004.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are the answers to the follow-up 
questions from the hearing held by Subcommittee on National Parks on 
April 27, 2004 on S. 1064, S. 1092, S. 1748, S. 2046, S. 2052, and S. 
2319. These responses have been prepared by the National Park Service.
    Thank you for giving us the opportunity to respond to you on this 
matter. We apologize for the delay in our response.
            Sincerely,
                                             Jane M. Lyder,
                                              Legislative Counsel..
[Enclosure.]

                     Questions From Senator Thomas

    Question 1. (S. 1064, Civil War Commission): Have similar 
commissions been formed in advance of milestone events similar to this? 
How successful were they? How does the proposed civil war 
sesquicentennial commission compare in size, composition, and scope of 
responsibility to previous commissions?
    Answer. Yes, commissions have been formed for milestone events such 
as the Centennial of Flight, Abraham Lincoln Bicentennial, and the most 
recent example, the establishment of the Jamestown 400th Commission, 
authorized in December 2000 to celebrate the 2007 anniversary. This 
commission is comprised of 16 members, appointed by the Secretary of 
the Interior, based on recommendations by the Governor and the 
Jamestown 2007 Steering Committee, and includes individuals with 
expertise appropriate to the commemoration. There was no time line for 
appointing members to the commission. The scope of responsibility for 
the commission was very broad-based to include all relevant parties 
associated with the 400th commemoration. Most commemorative commissions 
have about 15 members, no more than 20. We believe the Civil War 
Commission should be a smaller, more manageable size. Overall, these 
commissions are very valuable at bringing together diverse groups to 
work on celebrating commemorative events.
    Question 2. (S. 1064, Civil War Commission): Has the National Park 
Service taken any steps to prepare for the Civil War sesquicentennial? 
How far in advance do you intend to begin planning for the milestone?
    Answer. The National Park Service has already begun preparations 
for the 150th anniversary. Back in 1989 and 1990, Congress directed the 
NPS in two different public laws (P.L. 101-214 and 101-377) to address 
the causes and consequences of the Civil War. Since that time, new 
exhibits have been installed at many parks including Harpers Ferry 
National Historical Park and Richmond National Battlefield Park. More 
exhibits are planned for other parks such as Gettysburg National 
Military Park and Stones River National Battlefield. In addition, there 
have been Civil War-related publications including a new brochure at 
Fort Sumter National Monument, a new handbook at Appomattox Courthouse 
National Historical Park, and three new films at Fredericksburg and 
Spotsylvania County Battlefields Memorial National Military Park.
    Question 3. (S. 1092, Veterans Memorials Database): Gathering data 
for the proposed database could be quite extensive. Approximately how 
many veterans memorials currently fall under the jurisdiction of the 
National Park Service?
    Answer. There are approximately 3,196 veterans monuments, memorials 
and markers within units of the National Park System.
    Question 4. (S. 1092, Veterans Memorials Database): Do you 
currently maintain a database on other types of memorials? Could the 
National Register of Historic Places be modified to include information 
on veteran's memorials?
    Answer. The National Park Service maintains an inventory of all 
historic and pre-historic structures that are significant in the 388 
units of the National Park System. Currently there are 26,531 
structures listed. Some of these structures are also listed on the 
National Register of Historic Places, but the Register is a more 
extensive list that includes all cultural resources, public and 
private, and is not limited to military sites. The Register is already 
set up to include nationally significant military resources if they 
meet the criteria for listing; most commemorative works do not meet 
this standard. It would be problematic to modify the Register to 
include commemorative works that do not meet the criteria for listing.
    Question 5. (S. 1092, Veterans Memorials Database): Is the National 
Park Service the appropriate agency for establishing and maintaining a 
database on veterans memorials or would some other agency be more 
appropriate?
    Answer. We do not believe this is an appropriate role for the NPS 
because it could take resources away from maintaining and protecting 
our parks. Since an existing database has been compiled and is 
maintained by RVETS (Remembering Veterans Who Earned Their Stripes), we 
would recommend they continue this function and seek financial support, 
if required, through private and federal grants available for this 
purpose.
    Question 6. (S. 1748, Maintaining Sites Honoring Presidents): How 
many sites are potentially affected by this bill?
    Answer. Non-Federal presidential sites include birthplaces, homes, 
memorials, tombs, and libraries. These sites are owned and managed by 
family foundations, colleges and universities, libraries, historical 
societies, historic preservation organizations, and other non-profit 
organizations. The National Park Service does not maintain a current 
database of these sites. However, in the written statement submitted at 
the hearing by Richard Moe, President of the National Trust for 
Historic Preservation, it says, ``. . . the American Association for 
State and Local History documents 133 Presidential historic sites 
nationwide with only 45 run by the Federal government.'' Using those 
figures, approximately 88 sites would be affected by this bill.
    Question 7. (S. 1748, Maintaining Sites Honoring Presidents): How 
much did the National Park Service spend on Presidential sites each 
year during the past five years?
    Answer. Please see attached list that covers FY 02-05 (requested).
    Question 8. (S. 2046, Everglades Land Exchange): A Comprehensive 
Everglades Restoration Plan has been developed to guide the multi year 
effort to restore the Everglades ecosystem. Is this the only land 
exchange envisioned in that plan? Will any land acquisitions be needed 
to complete the plan? If so, how many acres of private land and what is 
the estimated cost?
    Answer. The State of Florida is responsible to acquire any lands 
that are needed to implement the Comprehensive Everglades Restoration 
Plan (CERP), and we do not envision any land exchanges between the 
federal government and the State of Florida for the purpose of 
implementing CERP. To date, the State has acquired nearly half the 
acreage that is required to implement CERP; however, the Department 
does not have current information on the total cost for the remaining 
lands that the State needs to acquire.
    In contrast, S. 2046 authorizes a land exchange that is needed to 
implement portions of the C-111 Project, which is on-going and pre-
dates CERP, and is intended to restore habitat within Everglades 
National Park and restore more natural flows of water to Florida Bay. 
Prior planning, in which NPS participated, determined that the most 
appropriate lands to build the C-111 project features included 
parklands. Because the amount of park acreage that is needed is above 
the level at which the Secretary may adjust the boundary of the park, 
legislative authorization is required.
    Question 9. (S. 2046, Everglades Land Exchange): Will the land 
exchange have any impact on agriculture in the area?
    Answer. The exchange authorized by S. 2046 will not affect local 
agricultural operations; the lands being provided to the South Florida 
Water Management District are within the boundary of Everglades 
National Park. The lands being provided in return by the South Florida 
Water Management District's Southern Glades Wildlife and Environmental 
Area are substantially similar to the lands within the park.
    Question 10. (S. 2052, El Camino Trail): Does the National Park 
Service have a policy regarding activities such as oil and gas 
development within the viewshed of national trails?
    Answer. The National Trails System Act is silent about viewsheds--
although this is an issue that is often considered in the comprehensive 
management plan for a trail, based on public input. So far, the impacts 
of oil and gas drilling have been the responsibility of on-the-ground 
trail segment managers, such as BLM in Wyoming. Historically, pipeline 
rights-of-ways have been approved across some trails and oil and gas 
development occurs within viewsheds of several trails.
    Question 11. (S. 2052, El Camino Trail): How wide a corridor will 
the National Park Service need to develop and interpret this trail?
    Answer. For a hiking trail in woodlands, a narrow corridor is 
usually sufficient (a few hundred feet on either side often protects 
the trail from impacting adjoining land uses). As soon as the view 
opens up with overlooks, associated structures, divergent traces, etc., 
the trail corridor may vary in width.
    Historic trail corridors are particularly tough to estimate because 
local conditions vary. On Federal lands, the trail corridor and its 
associated features may be quite wide. Elsewhere it is often a remnant 
trace, narrowed by subsequent development, fences, pipelines, and 
highways. Since the non-Federal segments of historic trails are almost 
all designated through a certification process, the certification 
agreement will define the size and scope of the site as mutually agreed 
upon by the site owner and the trail administrator.
    Question 12. (S. 2319, Great Smoky Mountains Land Exchange): We've 
been hearing a great deal recently about the air quality in national 
parks. Powerplants have been implicated as the source of some of the 
pollutants. Does the Tapoco plant contribute to pollution in the area?
    Answer. Great Smoky Mountains National Park ranks among the most 
heavily impacted by poor air quality. Part of the park's air quality 
problems stem from the burning of fossil fuels to produce power. 
ALCOA's smelting facility located near the park gets approximately 50 
percent of its electrical power from the four hydropower dams that make 
up--the Tapoco project. The production of hydropower has no impact on 
air quality. The other 50 percent is purchased from the Tennessee 
Valley Authority, a significant portion of which (60 percent) is 
fossil-produced.
    Question 13. (S. 2319, Great Smoky Mountains Land Exchange): Have 
any individuals or groups contacted the Department of the Interior or 
National Park Service to voice opposition to the proposed land exchange 
and hydroelectric plant relicensing?
    Answer. No. In fact, we believe that the exchange authorized in S. 
2319 is an excellent example of Secretary Norton's 4 C's, Conservation 
through Cooperation, Consultation and Communication and demonstrates 
how environmental groups, local and state governments, industry, 
tribes, and the Federal government can work cooperatively on the 
conservation of important environmental resources.
    Question 14. (S. 2319, Great Smoky Mountains Land Exchange): Could 
this land exchange occur without legislation?
    Answer. Technically, yes, but it would not achieve the intended 
goals of the settlement agreement, which include resolving the 
jurisdictional issue between FERC and NPS. The lands could potentially 
be exchanged under existing land exchange statutes, but this would fall 
short of meeting the needs of all of the stakeholders who are involved. 
The end result would be a highly contested and controversial land 
exchange process, and FERC would still lack the jurisdiction to issue a 
new license for the Tapoco project. None of the parties involved would 
benefit from such an exchange.
    Question 15. (S. 2319, Great Smoky Mountains Land Exchange): The 
proposed legislation states that funds are authorized to be 
appropriated for carrying out the act. The funds are needed for DOI and 
USDA to purchase a conservation easement from the Nature Conservancy. 
How much money is needed and will the easement run for a specified time 
or in perpetuity?
    Answer. The Settlement Agreement that is a part of the relicensing 
process and is referenced in the bill contains several provisions 
regarding easements. These easements are on lands that APGI owns and 
they will be donated to, and held by, a non-governmental organization 
(NGO), either the Nature Conservancy or some other group. The NGO may 
then acquire the remaining fee value of the lands. The terms of the 
easements range from permanent to the term of the relicensing. Nothing 
in this legislation commits or requires the Department or USDA to 
purchase easements or land protected by the easements at this time.
    Question 16. (S. 2319, Great Smoky Mountains Land Exchange): The 
Tapoco powerplant license expires in February 2005. The Federal Energy 
Regulatory Commission is asking that the land exchange be completed by 
December 31, 2004. What is the process for completing the land exchange 
and can DOI complete all necessary requirements by the end of 2004?
    Answer. There are several steps that the Department must complete 
in order for the exchange directed under S. 2319, as amended, to be 
finalized including completing legal descriptions of the parcels 
involved, of the parcels, ordering and receiving the titles and 
hazardous materials surveys for the parcels, receiving the title 
opinion, reviewing and approving the hazardous materials surveys, final 
review of the deeds and transactions documents, and closing on the 
transaction. Many of these requirements are done by contractors and 
completing the entire process usually takes several months. We estimate 
that the requirements can all be completed by the end of 2004, subject 
to the availability of funding and assuming that the contractors 
complete their portions on or before their deadlines.

                     Questions From Senator Campbell

    Question 1. (S. 1092, Veterans Memorials Database): Although this 
bill has not been scored by the CBO, a similar bill was scored in the 
107th Congress, and assuming Department of the Interior appropriations 
in the necessary amounts, CBO estimated that it would cost about $1.6 
million over the next year or two and around $500,000 per year 
thereafter to establish and maintain the memorial database. With these 
additional funds do you think the National Park Service could maintain 
this database without taking away from or neglecting already existing 
park units?
    Answer. The additional funds would enable the National Park Service 
to fulfill this directive, however, we believe that this project is 
well beyond the mission and existing capability of the National Park 
Service. It seems more logical to have RVETS (Remembering Veterans Who 
Earned Their Stripes) be the entity to receive additional funding to 
continue a project they started and have maintained over the past 
several years.
    Question 2. (S. 1092, Veterans Memorials Database): You have 
testified that maintaining a permanent database is a laudable goal. 
And, I have heard from the Department of Veterans Affairs that they 
don't have the infrastructure but would be glad to participate in a 
database project. So everyone supports the goals of this legislation 
but no one wants to take the lead.
    We have seen a grassroots effort to recognize every veteran who was 
honored in war. Don't you think it is fitting that a government agency 
like the National Park Service be able and willing to preserve the only 
tangible reminders we have of brave service to this country?
    Answer. It is fitting for some entity, be it public or private, to 
maintain a permanent memorial database. We believe that this database 
should be preserved by the state or local governments who largely 
sponsored them originally or by a private, non-profit group such as 
RVETS. Again, the scope of this endeavor is beyond the mission and 
existing capability of the National Park Service.
    Question 3. (S. 1092, Veterans Memorials Database): You say that 
the information you have on your inventory of memorial structures may 
be of interest to a wide audience, such as the public. Is that 
information now available to the public? How would someone access that 
information?
    Answer. The information in our inventory of historic structures is 
available by request, and we have offered to share it as part of this 
effort.
    Question 4. (S. 1092, Veterans Memorials Database): What is the 
criteria to meet the basic National Register of Historic Places? How do 
you see it as differing from the types of permanent memorials specified 
by S. 1092?
    Answer. The criteria of the National Register of Historic Places 
are specified in 36 CFR 60.4 cited below. As emphasized below in bold, 
most memorials considered under S. 1092 would not qualify for National 
Register of Historic Places consideration.

             TITLE 36--PARKS, FORESTS, AND PUBLIC PROPERTY

      CHAPTER I--NATIONAL PARK SERVICE, DEPARTMENT OF THE INTERIOR
             PART 60--NATIONAL REGISTER OF HISTORIC PLACES

Sec. 60.4 Criteria for evaluation.
    The criteria applied to evaluate properties (other than areas of 
the National Park System and National Historic Landmarks) for the 
National Register are listed below. These criteria are worded in a 
manner to provide for a wide diversity of resources. The following 
criteria shall be used in evaluating properties for nomination to the 
National Register, by NPS in reviewing nominations, and for evaluating 
National Register eligibility of properties. Guidance in applying the 
criteria is further discussed in the ``How To'' publications, Standards 
& Guidelines sheets and Keeper's opinions of the National Register. 
Such materials are available upon request.
    National Register criteria for evaluation. The quality of 
significance in American history, architecture, archeology, 
engineering, and culture is present in districts, sites, buildings, 
structures, and objects that possess integrity of location, design, 
setting, materials, workmanship, feeling, and association and
    (a) that are associated with events that have made a significant 
contribution to the broad patterns of our history; or
    (b) that are associated with the lives of persons significant in 
our past; or
    (c) that embody the distinctive characteristics of a type, period, 
or method of construction, or that represent the work of a master, or 
that possess high artistic values, or that represent a significant and 
distinguishable entity whose components may lack individual 
distinction; or
    (d) that have yielded, or may be likely to yield, information 
important in prehistory or history.
    Criteria considerations. Ordinarily cemeteries, birthplaces, or 
graves of historical figures, properties owned by religious 
institutions or used for religious purposes, structures that have been 
moved from their original locations, reconstructed historic buildings, 
properties primarily commemorative in nature, and properties that have 
achieved significance within the past 50 years shall not be considered 
eligible for the National Register. However, such properties will 
qualify if they are integral parts of districts that do meet the 
criteria of if they fall within the following categories:

    (a) A religious property deriving primary significance from 
architectural or artistic distinction or historical importance; or
    (b) A building or structure removed from its original location but 
which is significant primarily for architectural value, or which is the 
surviving structure most importantly associated with a historic person 
or event; or
    (c) A birthplace or grave of a historical figure of outstanding 
importance if there is no appropriate site or building directly 
associated with his productive life.
    (d) A cemetery which derives its primary significance from graves 
of persons of transcendent importance, from age, from distinctive 
design features, or from association with historic events; or
    (e) A reconstructed building when accurately executed in a suitable 
environment and presented in a dignified manner as part of a 
restoration master plan, and when no other building or structure with 
the same association has survived; or
    (f) A property primarily commemorative in intent if design, age, 
tradition, or symbolic value has invested it with its own exceptional 
significance; or
    (g) A property achieving significance within the past 50 years if 
it is of exceptional importance.

    This exception is described further in NPS ``How To'' #2, 
entitled ``How to Evaluate and Nominate Potential National 
Register Properties That Have Achieved Significance Within the 
Last 50 Years'' which is available from the National Register 
of Historic Places Division, National Park Service, United 
States Department of the Interior, Washington, DC 20240.
    Question 5. (S. 1092, Veterans Memorials Database): Since 
the National Park Service has the existing infrastructure to 
hold this catalogued information, would you be willing to 
accept additional information gathered by other groups and 
entities?
    Answer. We do not have the infrastructure to hold this 
catalogued information. We would not be able to accept 
additional information for our existing database gathered by 
other groups and entities for several reasons. First, our 
inventory is a management tool for park managers and only 
covers structures located within the boundaries of units of the 
National Park System. Information about other memorials or 
structures would not be appropriate for this inventory. Second, 
information included in our inventory is gathered by trained 
professionals and meets certain standards. We would not have 
the staff with the level of proposed funding to verify that 
information provided by other groups or entities meets our 
standards. And third, the structure of our inventory is 
controlled to meet management needs at the parks and is not 
designed to meet other purposes.

                      Question From Senator Akaka

    The Department previously responded to Senator Akaka's 
question in a letter dated June 10, 2004. A copy of that 
response is included in this letter.
    Question. In your answer to my question about the use of 
the land to be transferred to the South Florida Water 
Management District, you indicated that the District could use 
the land for both restoration of Everglades National Park and 
for flood protection without causing harm to the Park. What 
steps will the Department take to monitor whether or not harm 
is caused to the Park? What will,the Department do if harm is 
found to occur within the Park due to the use of this exchanged 
land?
    Answer. The Department of the Interior, including the 
National Park Service (Everglades National Park) and Fish and 
Wildlife Service, is a partner with the Army Corps of Engineers 
(Corps) and the South Florida Water Management in implementing 
the C-111 Project. As indicated in the testimony, the primary 
purpose of the land exchange is to allow for the construction 
of a series of detention basins that will, in the end, restore 
park habitat that was damaged by past operation of the Central 
and Southern Florida Project. The Department's primary role in 
this project is to provide technical analysis and input to the 
Corps on the design and operation of the detention basins. In 
that role, the Department and its agencies will assist in the 
development and analysis of project alternatives to ensure that 
the project achieves its intended environmental benefits 
without causing negative adverse impact to park resources. The 
Department believes that relevant federal and state 
environmental laws protecting park resources and water quality 
provide protection to ensure that this result will be achieved. 
Further, systematic monitoring of the project's operation on 
park resources will be a key element in ensuring that park 
resources are not adversely affected. If the monitoring of the 
project operations reveals that adverse impacts are occurring 
to park resources as a result of the project operations, then 
the National Park Service and the Department of the Interior 
will work with the Corps, and the South Florida Water 
Management District, to modify the operation of the project so 
that adverse impacts to park resources are avoided and that the 
overall restoration objectives of the project are realized.

                                    NPS PRESIDENTIAL SITES--PARK BASE FUNDING
                                            [FY 2000-FY 2005 Request]
----------------------------------------------------------------------------------------------------------------
                                                                                   ($000)
                                                           -----------------------------------------------------
                           Park                                                                            2005
                                                              2000     2001     2002     2003     2004   request
----------------------------------------------------------------------------------------------------------------
Abraham Lincoln Birthplace NHS............................      509      520      652      654      727      977
Adams NHP.................................................    2,063    2,275    2,507    2,507    2,494    2,494
Andrew Johnson NHS........................................      488      499      509      712      708      708
Eisenhower NHS............................................    1,107    1,036    1,050    1,051    1,045    1,045
Ford's Theatre NHS........................................      695      740      980      985      981      981
FDR Memorial..............................................    1,324    1,360    1,371    1,377    1,371    1,371
General Grant NMem........................................      600      602      604      604      601      601
George Washington Birthplace NM...........................    1,064    1,096    1,121    1,123    1,112    1,112
Harry S Truman NHS........................................    1,025    1,050    1,070    1,071    1,066    1,152
Herbert Hoover NHS........................................      870      890    1,078    1,075    1,069    1,069
Home of FDR NHS...........................................    1,665    2,248    2,281    2,279    2,266    2,266
James A. Garfield NHS.....................................      140      143      144      145      144      144
Thomas Jefferson Memorial.................................    1,680    2,009    2,021    2,029    2,017    2,017
Jimmy Carter NHS..........................................      667      876      985      982      976      976
JF Kennedy NHS............................................      303      309      309      306      302      302
Lincoln Boyhood NMem......................................      762      781      795      796      792      899
Lincoln Home NHS..........................................    1,937    2,000    2,039    2,044    2,332    2,332
Lincoln Memorial..........................................    1,711    2,077    2,089    2,097    2,086    2,086
Lyndon B. Johnson NHP.....................................    2,834    2,900    2,961    3,153    3,139    3,277
Martin Van Buren NHS......................................      780      800      814    1,063    1,057    1,057
Mount Rushmore NMem.......................................    2,402    2,473    2,529    2,903    3,315    3,647
Ronald Reagan Boyhood Home NHS............................                                           82       82
Roosevelt-Campobello IP \1\...............................    [670]    [728]    [766]    [797]    [837]      896
Sagamore Hill NHS.........................................      946      970      991      986      979    1,413
Theodore Roosevelt Bthplc NHS.............................      219      222      223      223      223      223
Theodore Roosevelt Inaugural NHS..........................      213      213      213      212      210      210
Theodore Roosevelt NP.....................................    1,703    1,900    2,187    2,192    2,184    2,184
Ulysses S. Grant NHS......................................      526      547      561      785      779      779
Washington Monument.......................................    2,298    2,362    2,382    2,392    2,381    2,381
William Howard Taft NHS...................................      508      519      529      529      527      586
                                                           -----------------------------------------------------
    Total, NPS Presidential Sites.........................   30,949   33,417   34,995   36,275   36,965   39,267
                                                           =====================================================
    Total, with bracketed numbers.........................   31,619   34,145   35,761   37,072   37,802   39,267
----------------------------------------------------------------------------------------------------------------
\1\ Prior to FY 2005 Request, Roosevelt-Campobello International Park was funded under Statutory and Contractual
  Aid budget activity under the National Recreation and Preservation appropriation.


                             NPS PRESIDENTIAL SITES--LINE-ITEM CONSTRUCTION FUNDING
                                            [FY 2000-FY 2005 Request]
----------------------------------------------------------------------------------------------------------------
                                                                               ($000)
                                                  --------------------------------------------------------------
                       Park                                                                       2005
                                                     2000     2001     2002     2003     2004   request   Total
----------------------------------------------------------------------------------------------------------------
Adams NHP........................................  .......  .......  .......      537  .......  .......      537
Ford's Theatre NHS...............................  .......  .......    1,562  .......  .......  .......    1,562
General Grant NMem...............................  .......  .......  .......      174    1,711  .......    1,885
Home of FDR NHS..................................    1,295  .......    5,630  .......  .......  .......    6,925
Thomas Jefferson Mem.............................  .......      934    2,600  .......    4,799  .......    8,333
John Adams Presidential Memorial \1\.............  .......  .......    1,000  .......  .......  .......    1,000
Lincoln Home NHS.................................      555  .......  .......  .......  .......  .......      555
Lincoln Memorial.................................  .......  .......  .......   11,301  .......  .......   11,301
Mount Rushmore NMem..............................    4,568  .......  .......  .......  .......  .......    4,568
Ulysses S. Grant NHS.............................  .......  .......    5,200    1,981  .......  .......    7,181
Washington Monument..............................  .......  .......  .......  .......   14,913  .......   14,913
                                                  --------------------------------------------------------------
Total, NPS Presidential Sites....................    6,418      934   15,992   13,993   21,423        0   58,760
----------------------------------------------------------------------------------------------------------------
\1\ John Adams Presidential Memorial will become an NPS site when completed.


                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Statement of the Environmental & Land Use Law Center, the Everglades 
   Foundation, the Everglades Trust, the National Parks Conservation 
 Association, the National Wildlife Federation, the Natural Resources 
     Defense Council, the Sierra Club, and the World Wildlife Fund

    On behalf of the organizations named above, we want to thank the 
Subcommittee for the opportunity to submit testimony regarding 
legislation authorizing the exchange of Everglades National Park land 
for purposes of implementing the long-delayed General Reevaluation 
Report of 1994 for the Canal 111 (C-111 GRR). We particularly want to 
thank Senator Graham for his continued strong support of Everglades 
restoration.
    Our organizations are concerned that the current language in this 
legislation will unintentionally conflict with the goal of completing 
this critical restoration project, as well as have consequences 
detrimental to the Park. We also want to provide you with a suggested 
language addition to the legislation that would resolve our concerns.
    Our groups' central concern with the current bill language is that 
it does not state that the Park land in question will be used 
specifically to implement the C-111 GRR modifications. Rather, the bill 
provides for the Park land to be used for the ``C-111 Project'' as a 
whole, which has multiple purposes wholly independent of Park 
protection and restoration. Indeed, the C-111 GRR modifications were 
only developed in the first place in order to correct ecological 
problems caused by the larger C-111 project. When Congress authorized 
the C-111 GRR modifications in 1996, the Park land in question was at 
the heart of the project's design to restore water flows into Taylor 
Slough, one of the Park's two major water ``arteries.''
    We propose that clarifying language be added to the end of the 
legislation's subsection (4) ``Use of Federal Land''. Specifically, we 
propose deletion of the final period and addition of the following 
phrase:

        and for the specific purpose of implementing the Final 
        Integrated General Reevaluation Report and Environmental Impact 
        Statement, Canal 111 (C-111), May 1994, as authorized by the 
        Water Resources Development Act of 1996.

    We also recommend to the Subcommittee that explanatory report 
language be provided, describing in further detail that (1) the 
authorized purposes of the C-111 GRR modifications are, as the 1994 GRR 
states, ``to restore the ecosystem in Taylor Slough and the eastern 
panhandle of ENP that were affected by construction of the flood 
control project in the C-111 Basin . . . [while] preserving the current 
level of flood protection for the agricultural activities in the C-111 
basin''; (2) the Park land to be exchanged was purchased by the federal 
government pursuant to the 1989 Everglades National Park Protection and 
Expansion Act specifically for the purpose of restoring water flow to 
the Park, as well as for the land's particular habitat value; and (3) 
it is the intent of Congress that all activities on the Park land to be 
exchanged must be consistent with the C-111 GRR and its 1996 
authorization, as well as protection and restoration of the Park.
    Our suggested bill language constitutes a technical change to the 
current version, and is intended to make the bill consistent with the 
prior Congressional authorizations and previous agency agreements. This 
change is a critical one. Although we realize this is not the intent, 
the language in the current bill would cause a significant modification 
in the C-111 GRR, as well as a possible pollution threat to the Park. 
The C-111 GRR is the single most important restoration project for the 
Taylor Slough, Eastern Panhandle, and northeastern Florida Bay. 
Absolute clarity from Congress concerning the purpose of the key land 
exchange is essential to ensure that the C-111 modifications finally 
get off the ground and avoid, further delays and disputes.
    We thank the Subcommittee again for the opportunity to submit 
testimony on this important legislation.

                                 ______
                                 
             Statement of The Nature Conservancy On S. 2319

    The Nature Conservancy (TNC) respectfully thanks the Chairman and 
Members of the Committee for the opportunity to express our full 
support for S. 2319, the ``Tapoco Project Licensing Act of 2004.'' This 
bill was introduced to the Senate by Senator Lamar Alexander of 
Tennessee on April 20th, 2004 and enjoys broad-based support from its 
industry, nongovernmental organization, local, state, and federal 
government, and stakeholder advocates.
    The Nature Conservancy is dedicated to preserving the plants, 
animals, and natural communities that represent the diversity of life 
on Earth by protecting the land and water they need to survive. The 
Conservancy has over 1 million individual members and nearly 2,000 
corporate associates. We currently have programs in all 50 states and 
in 30 nations. To date, TNC has protected over 12 million acres of 
biologically important lands in the United States and abroad and has 
helped local partner organizations preserve millions of acres in other 
countries. The Conservancy itself owns a network of over 1,400 private 
nature preserves in the U.S., the largest private system of nature 
sanctuaries in the world. Our conservation work is grounded on sound 
science, strong partnerships with public and private entities, tangible 
results in local places, and compromise.
    The lands owned by Alcoa Power Generating, Incorporated (APGI) that 
are addressed in S. 2319 contain the biological diversity and 
conservation potential that exemplify conservation partnership 
projects. These APGI lands lie between the Great Smoky Mountains 
National Park and two designated Wilderness Areas (Citico and Joyce 
Kilmer). Together, these lands comprise one of the most vast and 
undisturbed ``wilderness'' regions in the Eastern United States, and 
the only such area remaining in the Southern Appalachians. The APGI 
property, or ``Tapoco Lands,'' is a critical link in this chain.
    The APGI property includes the entire Tallassee Creek watershed, 
one of the few remaining undisturbed, high-elevation, low-gradient 
streams in the region, rivaled only by two systems within the Great 
Smoky Mountains National Park. Studies by TNC, the U.S. Fish and 
Wildlife Service, and others have revealed at least 21 species that are 
rare, threatened or endangered on APGI property, including amphibians, 
birds, fish, mammals, reptiles and plants. Some of the more notable 
species include the bald eagle, peregrine falcon, bristle fern, chalk 
maple, smoky dace, and hellbender salamander. The rare Junaluska 
salamander, known only from this region of the Southern Appalachians, 
is also documented on the APGI property.
    For the past seven years, APGI has worked tirelessly with local, 
state, and federal agencies, citizen groups, interest groups, tribes, 
and the conservation community to finalize a Settlement Agreement prior 
to the Federal Energy Regulatory Commission's (FERC) relicensing of 
four APGI dams (two of which are in Tennessee) that affect terrestrial 
and aquatic resources within the above-mentioned ``wilderness'' region. 
The Settlement Agreement outlines protection, mitigation and 
enhancement measures to offset the continuing social and environmental 
impacts of APGI hydropower operations on the Little Tennessee River. 
TNC will be a proud signatory of the Settlement Agreement and joins its 
partners in officially recognizing that the APGI lands within the areas 
affected by the Calderwood and Chilhowee impoundments of the Little 
Tennessee River serve as a critical ecological link worthy of 
conservation and protection. TNC's further contribution to the project 
will include assisting in the eventual transfer of 10,000 acres of APGI 
lands to the Cherokee National Forest and Great Smoky Mountains 
National Park over the short and long term. By assuring that these 
areas remain protected and undeveloped, this unique ecological 
landscape may be protected not just for the rare species and ecosystems 
within, but also for the human communities that depend upon this land 
for economic progress and outdoor recreation.
    Before relicensing and ensuing land protection may occur, however, 
federal legislation must cure a legal defect in APGI's original license 
that allowed for the inundation of lands within the Great Smoky 
Mountains National Park. FERC may not issue APGI's license to continue 
operating the Tapoco hydropower project until this problem is remedied. 
Senator Alexander is to be commended for taking a leadership role in 
resolving this legal problem and expediting the cooperating parties' 
innovative Settlement Agreement. By joining Senator Alexander in 
supporting S. 2319, the Senate can contribute to this laudable effort 
to marry power production, local economics, terrestrial and aquatic 
ecosystem health, and the recreational potential of APGI's land 
holdings.
    Thank you for the opportunity to lend our support to this important 
legislation. For more information, please contact:

  <bullet> Tom Cassidy, Director of Federal Programs, The Nature 
        Conservancy, (703) 841-4527, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0377606270706a677a43776d602d6c7164">[email&#160;protected]</a>
  <bullet> Gabby Call, Associate State Director, The Nature Conservancy 
        of Tennessee, (615) 383-9909, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e797d7f72725e6a707d30716c79">[email&#160;protected]</a>

                                 ______
                                 
                Statement of American Rivers On S. 2319

    American Rivers is pleased to offer its full support for S. 2319, 
the ``Tapoco Project Licensing Act of 2004'', a bill introduced in the 
Senate on April 20th by Senator Lamar Alexander of Tennessee. We 
commend the Senator for his leadership and his longstanding commitment 
to the people and environment of Eastern Tennessee. As a leader of the 
national river movement, American Rivers is devoted to the protection 
and restoration of our nation's rivers and communities that depend on 
them. We believe that this legislation and the associated settlement 
agreement meet those goals while maintaining the ability to generate 
low cost electricity.
    The simple elements of this legislation belie its true 
significance. After almost seven years of analysis and negotiation, 
Alcoa reached agreement with tribes, state and federal agencies, 
homeowners, recreation interests, and environmental advocates on the 
licensing of four dams owned by Alcoa Power Generating, Inc. (Alcoa) 
affecting critical aquatic and land resources in the heart of the Smoky 
Mountains. The agreement improves flows along two significant segments 
of river with only a small impact on hydropower generation, while at 
the same time enhancing recreational opportunities, improving water 
quality, and protecting native species. The centerpiece of the 
agreement protects more than 10,000 acres of critical watersheds 
through various mechanisms, including incorporation of lands into the 
Great Smoky Mountains National Park and the Cherokee National Forest.
    Included in the Settlement Agreement is a requirement to support 
federal legislation that cures a legal defect in the original project 
license that, if not remedied, will prevent the Federal Energy 
Regulatory Commission (FERC) from relicensing the Tapoco Project. For 
almost 80 years, the project has occupied lands within the National 
Park. Because Congress wisely prohibited FERC and its predecessor from 
issuing hydropower licenses in National Parks, and the organic statute 
of the park itself restated that prohibition, FERC may not issue Alcoa 
another license until this problem is remedied. 16 U.S.C. Sec. 791 et 
seq. and 16 U.S.C. Sec. 403 et seq. Senator Alexander's leadership in 
introducing S. 2319 is paving the way to resolve this legal problem and 
put in motion this landmark agreement.
    American Rivers is proud to have participated over the past five 
years in the relicensing process and negotiations for the Tapoco 
Project. We stand committed to implementing its purpose and promise. As 
a signatory to more than 30 hydropower licensing settlements, American 
Rivers recognizes the importance of hydropower as part of our nation's 
energy mix while ensuring that its impacts on our nation's river 
ecosystems and the communities that depend on them are adequately 
prevented or mitigated. By supporting S. 2319, the Senate can help us 
strike a fair and appropriate balance between power production and 
environmental protection that meets the needs of the people of Eastern 
Tennessee and Western North Carolina.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
